<html>
<title> - MISCELLANEOUS PUBLIC LAND BILLS</title>
<body><pre>[Senate Hearing 113-85]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 113-85
 
                    MISCELLANEOUS PUBLIC LAND BILLS 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS, FORESTS, 
                               AND MINING

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 37                                 S. 1300

                           S. 343                                S. 1301

                           S. 364                                S. 1309                           S. 404                                H.R. 507                           S. 509                                H.R. 862                           S. 753                                H.R. 876                           S. 1169                               H.R. 993 

                                     

                               __________

                             JULY 30, 2013


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-863 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                    Joshua Sheinkman, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel
                                 ------                                

           Subcommittee on Public Lands, Forests, and Mining

               JOE MANCHIN, III, West Virginia, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
MARK UDALL, Colorado                 DEAN HELLER, Nevada
AL FRANKEN, Minnesota                JEFF FLAKE, Arizona
BRIAN SCHATZ, Hawaii                 TIM SCOTT, South Carolina
MARTIN HEINRICH, New Mexico          LAMAR ALEXANDER, Tennessee
TAMMY BALDWIN, Wisconsin             JOHN HOEVEN, North Dakota

Ron Wyden and Lisa Murkowski are Ex Officio Members of the Subcommittee



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     3
Baucus, Hon. Max, U.S. Senator From Montana......................     7
Cantwell, Hon. Maria, U.S. Senator From Washington...............     6
Farquhar, Ned, Deputy Assistant Secretary, Land and Minerals 
  Management, Department of the Interior.........................    17
Flake, Hon. Jeff, U.S. Senator From Arizona......................     6
Hammack, Katherine G., Assistant Secretary of the Army 
  (Installations, Energy and Environment) U.S. Army..............    12
Heinrich, Hon. Martin, U.S. Senator From New Mexico..............     5
Manchin, Hon. Joe, U.S. Senator From West Virginia...............     1
Natsuhara, Roger M., Acting Assistant Secretary of the Navy 
  (Energy, Installations and Environment) U.S. Navy..............    15
Reid, Hon. Harry, U.S. Senator From Nevada.......................     2
Risch, Hon. James E., U.S. Senator From Idaho....................  6,11
Tester, Hon. Jon, U.S. Senator From Montana......................     9
Weldon, Leslie, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    26
Wyden, Hon. Ron, U.S. Senator From Oregon........................     2

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    43


                    MISCELLANEOUS PUBLIC LANDS BILLS

                              ----------                              


                         TUESDAY, JULY 30, 2013

                               U.S. Senate,
 Subcommittee on Public Lands, Forests, and Mining,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:40 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Joe Manchin 
presiding.

 OPENING STATEMENT OF HON. JOE MANCHIN, U.S. SENATOR FROM WEST 
                            VIRGINIA

    Senator Manchin. The Subcommittee on Public Lands and 
Forests and Mining will come to order. This afternoon, the 
subcommittee will consider 13 bills, including several bills 
that were considered in previous years.
    We also have 3 bills on the agenda which would extend 
public land withdrawals for military installations in Montana, 
New Mexico, and California. The current authorizations for 
these areas expire in the near future, so I hope to have these 
bills ready for markup at a full committee business meeting as 
soon as possible.
    Several bills on today's agenda are sponsored by members of 
the committee, and I look forward to working with them to get 
their bills ready for mark up.
    In addition, Senator Baucus and Senator Tester have asked 
to speak in support of their bills relating to Federal land 
management in Montana. I know both Senators have spent years 
developing and refining their proposals, and I will work with 
them to address any remaining issues.
    In general, I believe the Senators from the affected States 
know best about how to resolve land management issues in their 
State, and I think their views should be taken very seriously.
    I believe many of the bills on today's agenda are 
noncontroversial. In particular, I want to note my support for 
H.R. 507, which would allow for the conveyance of 2 small 
parcels in southern Arizona to the Pascua Yaqui Indian Tribe.
    The chairman has met with me and conveyed the importance of 
these additions to the reservation. It appears that the tribe 
has worked closely with the Arizona congressional delegation so 
that the bill has strong local support.
    At this time, I'd like to recognize our chairman, Senator 
Ron Wyden, from Oregon.
    [The prepared statement of Senator Reid follows:]

    Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada
    Thank you Chairman Manchin and Senator Barrasso for the opportunity 
to address your subcommittee about this bipartisan proposal to 
facilitate the remediation and redevelopment of a dangerous abandoned 
mine site near Lake Mead.
    This February, I reintroduced the Three Kids Mine Remediation and 
Reclamation Act of 2013 together with Senator Heller. A companion bill 
was introduced in the House, where it is backed by all members of the 
Nevada congressional delegation. Last Monday, the bill passed the House 
under suspension of the rules.
    The onset of World War I nearly 100 years ago required the U.S. 
military to replace foreign natural resource imports with domestic 
supplies, including manganese needed for steel production. Therefore, 
the Three Kids Mine in Henderson, Nevada, began producing manganese in 
1917, and continued to support the building of warships and tanks 
through 1961, after which it was mostly abandoned and used occasionally 
as a storage site for federal manganese reserves. The Three Kids site 
was forgotten for decades, until the population explosion in southern 
Nevada put the mine right in people's backyards.
    Today, the Three Kids Mine site is littered with hazards, including 
three large mine pits that are hundreds of feet deep, ruins from the 
mine facility, and a sludge pool of mine tailings made up of arsenic, 
lead, and diesel fuel.
    As a result of how the mine was developed and managed, about three-
quarters of the site is federal land managed by the Bureau of Land 
Management (BLM) and the Bureau of Reclamation, while the remaining 
portion is privately owned. Unfortunately, because of the complicated 
land ownership pattern and the immense cost of cleanup, the federal 
government was never able to initiate the reclamation process.
    To turn the Three Kids Mine site into a job-creating opportunity 
while also cleaning up this public health and safety hazard, our 
legislation directs the BLM to convey the 948 acres of federal land on 
the site to the Henderson Redevelopment Agency at fair market value, 
after taking into consideration the cost of cleanup for the whole mine 
site.
    The City of Henderson will then be able to take advantage of Nevada 
redevelopment laws designed to address blight conditions such as the 
Three Kids Mine. The land conveyance directed by S. 343 would allow 
Henderson to work with local developers to finance and implement a plan 
to remediate the abandoned toxic mine site. The cleanup will be 
undertaken to meet stringent state and federal standards. Local 
officials and developers will finally be able to turn this wasteland 
into safe, productive land for the local community.
    The project will take decades from start to finish, but the City of 
Henderson and the developers are committed to the effort, and have 
worked hard to put together a viable plan to fix this old problem 
without costing taxpayers a dime for cleanup. Keeping our communities 
safe, healthy, and livable is critical. Removing this physical and 
environmental hazard from Southern Nevada is a high priority for the 
City of Henderson, and for our delegation.
    I look forward to working with this committee to move S. 343 
through the legislative process.
    Thank you again for the opportunity to submit testimony. I request 
that my statement be included in the record.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    The Chairman. Thank you very much, Chairman Manchin, 
Senator Barrasso, for your courtesy, and also to our witnesses 
as well. I know everybody has a tight morning, and I have to 
chair a hearing for Senator Murray on health care, something 
that Chairman Baucus and I care a lot about, so I'll be brief.
    Today, you all are going to look at 3 bills that Oregonians 
care a great deal about. The Oregon Eastside Forest legislation 
in particular is legislation that encompasses a historic 
agreement between the timber industry and the environmental 
community.
    Certainly, Senator Tester knows something about trying to 
put those together.
    The heart of the challenge, of course, Mr. Chairman and 
colleagues, is the West is on fire. We have millions and 
millions of acres of these overstocked stands that are 
essentially magnets for fire.
    Senator Flake, of course, has seen the horrendous 
consequences of this most recently.
    What we ought to be doing is going in there, getting that 
material, thinning out the forests so they'll be healthier, and 
getting that material to the mills so we can get folks back to 
work.
    This is particularly important in Eastern Oregon, where we 
have only a handful of surviving timber mills. What we say, of 
course, to the environmental community is, if you really, 
really treasure the land, you ought to get in there, work with 
all sides, thin these overstocked forests out, because if we 
don't, we won't have much of anything left other than a lot of 
burn material.
    So I'm very pleased, Chairman Manchin, that you're looking 
at that legislation today.
    I'm pleased that the Forest Service supports the 
legislation, in fact, has essentially, even before the bill has 
been enacted, tried to put in place some of the provisions of 
the legislation.
    Then second, you all are considering S. 1309. This is a 
bill I've introduced at the request of the administration that 
will extend the military withdrawals for key military 
installations in California and Montana. This is something that 
is time sensitive, and I appreciate your scheduling that.
    Finally, Mr. Chairman, on another important forestry matter 
that I think all Westerners care about, you are going to be 
considering legislation today to reauthorize stewardship 
contracting before the authority expires at the end of the 
fiscal year. I think this is extraordinarily important 
throughout the West. Again, it's something that allows us to 
start building a new ethic around forest health, and I 
appreciate your consideration of it.
    My thanks to you, Mr. Chairman and colleagues, for letting 
me intrude this way on a busy morning. I look forward to 
working with you.
    Senator Manchin. Thank you, Mr. Chairman.
    At this time, we will hear from our ranking member, Senator 
Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for 
holding this hearing. I welcome each of our witnesses today, 
including Senators Baucus and Tester.
    Today, we have several Bureau of Land Management public 
domain land withdrawals that are important to our Nation's 
military readiness. I understand they are time sensitive, so 
I'm pleased that we have them able to be included in this 
hearing.
    There are also complex public land bills before us today 
with important policy implications for our land management 
agencies that we have to look at very carefully.
    I would like to note Senator Flake's bill to renew and 
update nationwide stewardship contracting authority for the 
Forest Service and the Bureau of Land Management. I applaud 
Senator Flake for his efforts.
    I commend my colleagues, Senator Tester and Chairman Wyden, 
for offering constructive legislative responses to the 
dysfunctional status quo we all agree exists with respect to 
forest management.
    It's my hope that S. 37 and S. 1301 will serve a greater 
purpose. I hope these bills act to advance the debate over 
forest management nationwide. I hope they encourage a 
bipartisan solution to address the systemic problems that are 
preventing the Forest Service and the Bureau of Land Management 
from getting timber out of our forests.
    Senator Wyden, our committee chairman, said at our June 
26th forest management hearing that there are 3 main obstacles 
to getting more timber harvested. One was funding; the second 
was planning and NEPA; and the third was litigation. I think 
he's absolutely right.
    I am committed to working with him and all of my colleagues 
interested in active forest management. We need to address 
these obstacles head-on, and we need to do it for the sake of 
all our forests and rural communities, not just those in 
selected States.
    Mr. Chairman, I'll submit the remainder of my comments for 
the record.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Barrasso follows:]

  Prepared Statement of Hon. John Barrasso, U.S. Senator From Wyoming
    Chairman Manchin, thank you for holding this hearing.
    I welcome each of our witnesses today including Senators Baucus and 
Tester.
    Today we have several Bureau of Land Management public domain land 
withdrawals that are important to our nation's military readiness.
    I understand they are time sensitive so I am pleased we have been 
able to get these included in this hearing.
    There are also complex public land bills before us today . . . with 
important policy implications for our land management agencies that we 
have to look at very carefully.
    I would like to note Senator Flake's bill to renew and update 
nationwide Stewardship Contracting authority for the Forest Service and 
the Bureau of Land Management.
    I applaud him for his efforts.
    I commend my colleagues, Senator Tester and Chairman Wyden . . . 
for offering constructive legislative responses to the dysfunctional 
status quo we all agree exists with respect to forest management.
    It is my hope that S. 37 and S. 1301 will serve a greater purpose.
    I hope these bills act to advance the debate over forest management 
nationwide.
    I hope they encourage a bipartisan solution to address the systemic 
problems . . . that are preventing the Forest Service and the Bureau of 
Land Management from getting timber out of our forests.
    Senator Wyden, our Committee Chairman said at our June 26 Forest 
Management Hearing that there are three main obstacles to getting more 
timber harvested:

          (1) funding,
          (2) planning and NEPA and;
          (3) litigation.

    I think he is absolutely right.
    I am committed to working with him, and all of my colleagues 
interested in active forest management.
    We need to address these obstacles head on.
    And we need to do it for the sake of all our forests and rural 
communities, not just those in Montana and Oregon.
    Legislating forest management state by state is at best bad policy, 
at its worst it could unravel the national forest system.
    This has been well-researched by Dr. Martin Nie, a professor at the 
University of Montana.
    Dr. Nie's research led him to the conclusion that Congress and the 
Forest Service should oppose forest-specific legislation. He noted that 
most of the challenges faced are systemic not place-based and deserve a 
national-level response.
    I would like to submit Dr. Nie's previous testimony from 2009 on 
Senator Testor's bill and his 2011 Environmental Law Reporter article 
analyzing place-based national forest legislation to include both 
Senator Tester and Senator Wyden's bills.
    Some of the bills we are considering today also create more 
wilderness.
    Currently, there are 110 million acres of land have been added to 
the wilderness system.
    Additionally, tens of millions of acres are protected as `roadless' 
by the Forest Service and the Bureau of Land Management.
    In my view, we need to a more balanced approach between adding 
lands to the wilderness system and . . . Congress releasing lands the 
agencies currently manage as wilderness study areas.
    Despite Congress having the sole authority to designate wilderness 
. . . this Administration and the environmental community continue to 
manage our public lands as ``defacto'' wilderness.
    A good example of defacto wilderness management is the recent 
federal court decision in Montana upholding a Forest Service ban on 
motorized activities in ``recommended wilderness areas.''
    This decision could have far reaching implications for management 
of recommended wilderness areas identified in forest plans all across 
the country.
    This is very troubling to me and something I am taking very 
seriously.
    Mr. Chairman, we need to restore the balance between environmental 
protection, resource development, and access for recreation on our 
public lands.
    As an example, I would like to submit for the record the 
International Mountain Bicycling Association's comments on S. 37.
    Their comments illustrate how wilderness designations further limit 
public access for recreation.
    The federal land agencies must maintain their core mission of 
multiple use.
    Thank you, Mr. Chairman.

    Senator Manchin. Thank you, Senator Barrasso.
    At this time, do we have any members--Senator Heinrich, do 
you have any statements to be made at this time?

        STATEMENT OF HON. MARTIN HEINRICH, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Heinrich. Thank you, Mr. Chairman. I will make a 
short statement about S. 753, and I certainly appreciate this 
hearing very much.
    Earlier this year, I introduced S. 753 with Senator Tom 
Udall and Senator John Cornyn to reflect a 3-party agreement 
between White Sands Missile Range, Fort Bliss, and the Bureau 
of Land Management. This bill allows for land transfers and 
withdrawals that will add critical safety, security, and 
planning buffers to White Sands Missile Range and Fort Bliss. 
It will play an integral role in accomplishing their national 
security missions.
    Specifically, this bill would transfer 5,100 acres of land 
from the Bureau of Land Management to the Army in order to 
provide a critical safety and security buffer to NASA's White 
Sands Test Facility and the Department of Defense Aerospace 
Data Facility, which are both important tenants to the White 
Sands Missile Range.
    It transfers to 2,050 acres of land in Fillmore Canyon from 
the Army to the Bureau of Land Management to create a boundary 
that's more clearly identifiable to the public to prevent 
accidental trespass onto Fort Bliss.
    Finally, it will preclude the BLM from selling or 
exchanging approximately 35,000 acres of land in order to 
prevent incompatible development for the Fort Bliss Dona Ana 
Range complex and training areas. This land is still accessible 
to the public for recreation, for grazing, transportation, and 
all the other existing uses.
    I think I'll wrap it up there, and just jump into the 
questions after we get started.
    Senator Manchin. Thank you.
    Senator Flake.

          STATEMENT OF HON. JEFF FLAKE, U.S. SENATOR 
                          FROM ARIZONA

    Senator Flake. I just want to say thank you, Mr. Chairman, 
for consideration of this piece of legislation, particularly S. 
1300, to renew and update the stewardship contracting.
    I want to thank Senator Baucus for his support of that 
legislation, and others on this panel, and I look forward to 
hearing about it.
    Also, 2 other Arizona bills are being considered as well. 
That's much appreciated. Thanks.
    I yield back.
    Senator Manchin. Senator Risch, at this time, do you have 
any statements, opening statements?

        STATEMENT OF HON. JAMES E. RISCH, U.S. SENATOR 
                           FROM IDAHO

    Senator Risch. Briefly. Thank you, Mr. Chairman.
    First of all, I want to thank Senator Tester for his 
efforts on the Mount Jefferson bill.
    In Idaho, we love Mount Jefferson because, in the 
wintertime, you have to come through Idaho to get to Mount 
Jefferson, which is a good thing. The southern part of the 
Mount Jefferson area is heavily used by Idahoans, particularly 
for snowmobiling.
    We've had this bill here--how many years, Jon? Is this the 
second year? Too many years.
    But in any event, the Idaho people were very concerned that 
we don't have that southern half closed to snowmobiling. 
Senator Tester and I have discussed this ad nauseam and have 
come to an agreement on it.
    Unfortunately, the bill that was reprinted this year did 
not have the agreement in it. As I understand it, we're going 
to go back to the portion of the bill dealing with southern 
Mount Jefferson that we agreed on previously. If that's the 
case, I'm in.
    So, thank you very much, Senator.
    Thank you, Mr. Chairman.
    Senator Manchin. Senator Cantwell, do you have an opening 
statement?

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding this hearing. I hate to hold up my colleagues, but 
I do have an important piece of legislation that's on the 
agenda.
    So I did want to mention that Senator Murray and I both 
introduced an urgently needed piece of legislation, which is 
very important to the Pacific Northwest. It is the Green 
Mountain Lookout that sits on a portion of the Glacier Peak 
Wilderness area and offers spectacular views of Glacier Peak to 
the south and Mt. Baker to the north.
    Built in 1933 by the Civilian Conservation Corps, it served 
as part of a fire detection system for the North Cascades. The 
lookouts served this role for more than 50 years.
    For these historic roles, the Forest Service nominated the 
Green Mountain Lookout, along with 7 other lookouts, to be part 
of the National Register of Historic Places.
    In 1987, the National Park Service recognized this historic 
value and officially listed it in the National Register.
    Today, it's one of only 16 of the original 90 that existed. 
It's a very, very popular destination for many hikers.
    The Forest Service is currently working on an Environmental 
Impact Statement to remove the lookout next summer based on a 
court decision and things that we're moving through.
    So I can't imagine that Congress really intended to remove 
or destroy these kinds of historic hiking attractions when it 
passed in 1964 Wilderness Act. So my colleague and I would like 
to preserve the lookout on Green Mountain.
    This has been endorsed by the Wilderness Society, the 
National Trust for Historic Preservation, the Nature 
Conservancy, the Back Country Horsemen of America, the 
Mountaineers, and a variety of other groups and organizations.
    So I look forward to hearing any input on that, which is 
also on the docket today.
    I thank the chairman.
    Senator Manchin. Thank you very much.
    At this time, we'll hear from our Senators.
    Senator Baucus, if you'd like to start?

          STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR 
                          FROM MONTANA

    Senator Baucus. Thank you. Mr. Chairman, Senator Heinrich, 
Senator Cantwell, Senator Barrasso, Senator Risch, Senator 
Flake, thank you all for being here.
    I'm also very pleased to hear Chairman Wyden and also you, 
Senator Flake, talk about stewardship contracting and the 
importance of it. I might say, in Montana, it's extremely 
important. I think it's flagging a little bit, and we need to 
reenergize stewardship contracting. Thank you for pushing it.
    Thank you very much for the opportunity to testify on the 
Rocky Mountain Front Heritage Act.
    The late novelist Bud Guthrie described how ``the feel of 
the country settled in on the Rocky Mountain Front, the great 
emptiness and age of it, the feel of westward mountains old as 
time, and plains wide as forever, and the blue sky flung 
across.''
    Nowhere do the Rocky Mountains proclaim themselves more 
spectacularly than in Montana. I might say that photograph here 
on my left does not do it justice. It is very difficult to 
photograph the feel and the majesty, as you all know, of 
landscape. It's much, much more dramatic than that photograph 
to your left.
    Just think, when settlers came across America, near Jon 
Tester's place near Big Sandy, and saw those mountains just 
explode out of the plains. It's incredible. It's amazing. What 
awe they must have had for Mother Nature, for God, for life, 
who they are. It's astounding. That does not do it justice.
    The Front is one of the most breathtaking examples of the 
Rockies in the West. It is the long staccato wall where the 
plains, washboard flat for hundreds of miles, as I mentioned, 
dash themselves against the ramparts of the Rockies. Instead of 
long foothills, we have an astonishing right angle just leap 
out of the plains.
    This last spring, I drove down Highway 89 along the Front, 
passing the reefs and peaks, Guthrie here, Castle, Sawtooth, 
like old friends at full salute. From these peaks, you can peer 
out across the Big Sky Country, way far up west into the forks 
of the Sun River, the finest elk country in the West, almost up 
to Spotted Bear Pass and the Three Sisters swinging their legs 
over the Chinese Wall.
    No wonder here, Guthrie said, the soul of man finds a 
place.
    That spring day happened to be the migration season for 
snow geese. Tens of thousands of geese flew above us near 
Freezeout Lake, bleaching the blue sky on the way north.
    That's a photograph over there of some of the geese. I'm 
not exaggerating. That day, the sky was just covered with 
geese. They blotted out the sun, almost like the eclipse of the 
sun.
    Tens of thousands of snow geese flying along the Front, 
north to feeding grounds and breeding up in Canada and Alaska.
    Now, Haystack Butte tells you something important about the 
Front. Part of this land was settled. People live here. They 
grow crops and livestock. They raise haystacks. They raise 
families.
    They share the simple reason I'm here this morning. 
Montanans want to keep the Front the way it is. It's our 
heritage.
    I first introduced the Heritage Act 2 years ago on behalf 
of thousands of Montanans who support this made-in-Montana 
bill. This is not a top-down bill. This is a bottom-up bill.
    In the best tradition of public lands, Montanans from all 
walks of life came up with the Heritage Act themselves. I'm 
determined to bring it to the finish line.
    It's good policy today that ensures our moral obligation 
for tomorrow, for our kids and our grandkids.
    Montanans worked for hours gathering support, walking 
trails and pastures together, redrawing boundaries, draining 
coffee cups, draining beer taps in towns like Choteau and 
Augusta, putting this bill together. I'm so honored to carry 
the work of these rugged folks forward.
    They came up with a good balance, 200 acres of conservation 
management area, 67,000 acres of wilderness additions in places 
already managed that way--already managed as wilderness--and a 
plan to block the invasion of noxious weeds like spotted 
knapweed that damage forage for livestock.
    This bill is about jobs. It protects public land for 
sportsmen who spend $10 million locally each year.
    It limits road building but protects current motorized use.
    The version introduced is this Congress further strengths 
protections for ranchers who've been responsible stewards in 
the land.
    Most importantly, it rewards Montanans for being willing 
together to write their own destiny rather than reacting to 
change when it comes.
    The Heritage Act will keep the Front the way we want it, 
the way it is.
    I thank you and I urge your support. I also want to state 
my very strong support for Senator Tester's Forest Jobs bill, 
and urge the committee to move forward with Limestone Hills 
withdrawal. For those who don't know, Limestone Hills is in 
Montana. It's between Townsend and Helena, Montanan. It's 
important to our Guard in our State.
    Also support for Senator Flake's stewardship legislation. 
He's on the right track, and I hope we can move that forward, 
too.
    Thank you.
    Senator Manchin. Senator Tester.

          STATEMENT OF HON. JON TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. I want to thank you, Senator Manchin, and 
Senator Barrasso as well, as well as the rest of members on 
this committee, as well as Chairman Wyden and Ranking Member 
Murkowski for allowing us to have this hearing today, I very 
much appreciate it, on the Forests Jobs and Recreation Act.
    I think each one of you know the need to break through the 
gridlock that has characterized forest management over the 
years.
    Mr. Chairman, like Senator Wyden and Senator Murkowski, you 
understand the importance of bridging the divide in order to 
get things done.
    Ranking Member Barrasso, I know these issues are as 
important in Wyoming as they are in Montana.
    It is the same spirit of compromise and the urgent need to 
encourage the timber economy of Western Montana that I offer 
the Forest Jobs and Recreation Act. This Forest Jobs and 
Recreation Act is a product of a lot of diverse interests 
working together to craft a bill that breaks through the 
gridlock, and that's good for Montana and good for the country.
    Business owners, loggers, conservationists, sportsmen, 
sportswomen, have put aside their differences to support 
Montana's timber economy, to restore fish and wildlife habitat, 
and to protect some of this country's most breathtaking 
landscapes.
    It is important to note that many of the stakeholders that 
helped craft this bill used to only meet in the courtroom. Now 
they meet to find common-sense solutions that create jobs and 
protect Montana's outdoor heritage.
    The Forest Jobs bill would also help mitigate the 
devastating wildfires that are becoming all too common in the 
West by actually allowing us to cut some trees again.
    I look at this subcommittee and I see many members whose 
States grapple with the challenges brought on by wildfires.
    In Montana alone, last year, we had more than 1 million 
acres burn, and more than a half of dozen fires are burning 
right now.
    We can all agree that something needs to be done to break 
through the gridlock and responsibly manage our forest so the 
West isn't up in smoke again.
    By mandating responsible logging of 100,000 acres in our 
National Forests in Montana, we'll reduce the amount of 
hazardous fuels that fires feed on. As I have said in the past, 
this bill is a testament to what is possible when diverse 
collaboration comes together in good faith and looks for common 
ground on tough issues.
    Now we've received a lot of great input from folks while 
traveling the State. Their ideas and feedback have led to 
changes in this bill to make sure it works for Montanans.
    Nearly 10,000 acres of the proposed wilderness were dropped 
due to mineral potential in the East Pioneer Mountains. There's 
a sheep trailing provision that will allow mechanized 
transportation through proposed Snowcrest wilderness areas, so 
that local ranchers can herd their sheep to existing grazing 
allotments.
    I'm proud to be a part of this made-in-Montana legislation, 
and I look forward to working with all of you to provide my 
State's timber and recreation industries with the tools they 
need. The timber industry and our forests can't wait any 
longer.
    If I might say, this timber management, everybody on this 
panel understands that the Forest Service needs some tools. 
This is a tool the Forest Service can use, and I think you can 
see it in their testimony.
    Some would say that wilderness is a waste of time and 
doesn't create anything. The fact is that wilderness isn't. 
Wilderness is something that creates jobs in Montana. We're 
recruiting business because of our wilderness climate. So it 
helps a lot.
    Some would say that cutting trees is unnecessary because 
we're not building enough houses anymore to cut any trees. 
That's gobbledygook. The fact of the matter is that if we can 
keep our timber industry going, if we can keep those mills that 
are going in our State right now, we can have a partner in 
managing our forests while creating jobs, while creating wood, 
while storing carbon in houses, which will also help climate 
change.
    Some would say that the sportsman stuff is overrated. Look, 
in this country, sportsmen's issues raise billions and billions 
and billions of economic. This bill will help sportsmen be able 
to have clean fisheries, better habitat for elk and deer, and, 
quite frankly, better opportunities for snowmobilers and other 
motorized users.
    So that's the crux of this. For more than 30 years, for 
more than 30 years, everybody has been losing on our National 
Forests. This is a breakthrough.
    As Senator Barrasso said in his opening statement, this can 
be used as a template throughout the West, but we have to get 
this implemented first.
    Thank you for that.
    I also want to say that I'm a proud sponsor of Senator 
Barrasso's legislation that he just described. He is absolutely 
correct. The Rocky Mountain Front is one of the most incredible 
places in the world, and we need to make sure that it's there 
for future generations. I want to applaud his leadership on 
this issue. It just didn't happen this year by the way. He's 
been working on this since he came to the U.S. Senate a few 
years back.
    The other thing I'd like to say is that the Limestone Hills 
Withdrawal bill that is before this committee is very, very 
important. It's important for 2 things.
    First of all, the BLM doesn't need this headache. The Army 
needs this to be taken care of, because there's a range there, 
unexploded ordnance and other things that are very, very 
important. The third thing is there's a mine in there. So it's 
very important that they're able to move forward with their 
ability to create jobs.
    So this is all very, very important. I very much appreciate 
your folks' ability to take a look. You have a busy schedule 
today with 13 bills. These are 3 bills that I consider very 
important.
    Thank you for your courtesy.
    Senator Manchin. Are there any questions for our Senators 
from the committee?
    If not, thank you so much.
    Senator Baucus. Can we ask questions?
    Senator Manchin. Senator, with your seniority, you can ask 
anything you want.
    Senator Baucus. Thank you very much for getting these bills 
passed. Thank you.
    Senator Manchin. Thank you so much.
    We will have our next panel now come forward.
    First of all, I want to thank our panel for being here. But 
before we get started with our panel, I would, at this time, 
extend privileges to Senator Risch, who has comments to make 
and a statement.

        STATEMENT OF HON. JAMES E. RISCH, U.S. SENATOR 
                           FROM IDAHO

    Senator Risch. Mr. Chairman, thank you very much, and I 
apologize but I have another commitment, as many of us do.
    I want to speak very briefly about H.R. 876. It was 
sponsored by Representative Mike Simpson and has been for some 
time.
    H.R. 876 is an important issue in the State of Idaho. Back 
when the Frank Church-River of No Return Wilderness and the 
Selway-Bitterroot Wilderness areas in Idaho were created, they 
were done at a time when Congress was moving forward very 
quickly on wilderness areas. Sometimes, issues fell through the 
cracks, and this bill addresses one of those issues.
    We have in these wilderness areas a number of ranches and 
recreation facilities, lodges, if you would, along the Salmon 
River and other places. These places use water in various ways, 
sometimes to generate electricity from a very small type of 
generator, other times for irrigation and what have you.
    When the bill was created, it did not provide for the 
continuation of these facilities. They should have been 
grandfathered in the bill; they weren't.
    This particular bill recognizes those facilities, extends 
to them the grandfather rights that they should have had, and 
allows the private owners to continue to use those.
    I'm really not aware of any pushback on these. It was an 
oversight when the bills were passed. Congress isn't very good 
at fixing mistakes that they make sometimes in a bill. This is 
a correction and should be done.
    Thank you very much, Mr. Chairman.
    Senator Manchin. Thank you, Senator.
    At this time we have our panelists, and we'd like to start 
with Katherine Hammack, if you will.
    Katherine, your statement, we have for the record your 
complete statement, so if you want to summarize your positions 
on the bills that pertain to you.

 STATEMENT OF KATHERINE G. HAMMACK, ASSISTANT SECRETARY OF THE 
    ARMY, (INSTALLATIONS, ENERGY AND ENVIRONMENT) U.S. ARMY

    Ms. Hammack. Absolutely. Thank you very much, Chairman 
Manchin, and other distinguished members of the committee, for 
the opportunity to talk about 3 bills right here that all 
pertain to withdrawal of public lands in Montana and New Mexico 
for use by the Army.
    We support S. 753 for the withdrawal of over 42,000 acres 
of public lands adjacent to Fort Bliss and White Sands Missile 
Range in New Mexico.
    Senator Heinrich, thank you for your support of the Army 
and the important training mission there.
    We also support the intent of the Limestone Hills Training 
Area Withdrawal Act, S. 1169, and thank Senator Tester for his 
support.
    The Army does coordinate with the mining operation, as the 
Senator mentioned. We support allowing existing mining claims 
to proceed in development and in accordance with previously 
approved plans. However, we have one significant concern with 
the language in the bill.
    We object to language that would expand the rights for 
mineral disposition or exploration by allowing claimants to 
amend or relocate mining claims, and reinstate expired claims. 
This provision would give unprecedented latitude to claimants 
over lands that may be required for military training, 
including live fire impact areas. It would severely limit the 
ability of the Army to plan and conduct training on the 
property.
    Therefore, the Army objects to allowing mining claimants to 
operate without regard for withdrawal and reservation.
    Of note on the Limestone Hills Training Area Withdrawal 
Act, our rights to use this property or our authority to use 
this property expire in March 2014. So unless this legislation 
is passed, it will have severe impact to the Montana National 
Guard.
    Finally, the Army supports S. 1309 and thanks Senator Wyden 
for introducing it at the administration's request. This 
contains the administration's fiscal year 2014 National Defense 
Authorization Act legislative proposal for the Limestone Hills 
withdrawal.
    So I want to keep it short. You do have my written 
statement. I look forward to answering any questions.
    [The prepared statement of Ms. Hammack follows:]

Prepared Statement of Katherine G. Hammack, Assistant Secretary of the 
        Army, (Installations, Energy, and Environment) U.S. Army
    Thank you, Chairman Manchin, Ranking Member Barrasso and other 
distinguished Members of the Committee for the opportunity to provide 
comments on S. 1169, legislation to withdraw public lands in Montana 
for use by the Army, and S. 753, legislation to withdraw public lands 
in New Mexico.
Limestone Hills Training Area Withdrawal Act of 2013
    S. 1169, the Limestone Hills Training Area Withdrawal Act, would 
withdraw and reserve approximately 18,644 acres of federal land that 
comprises the Limestone Hills Training Area (LHTA) for use by the Army, 
and assign primary management of the property from the Department of 
the Interior to the Department of the Army for a 25-year period.
    The lands comprising the LHTA are public domain lands, currently 
under the control of the Bureau of Land Management (BLM). The 
legislation would enable continued training on the land by the Montana 
National Guard (MTNG) and other active and reserve components of the 
armed forces that have used the property for training purposes for 
several decades. In order for the Army to continue occupying the 
property, the land must be ``withdrawn from the public domain,'' which 
can only be accomplished by an Act of Congress. Unless legislation is 
passed, the Army's current authority to use the property will end in 
March 2014.
    The LHTA is operated by the MTNG and is their only large-scale live 
fire and maneuver training area. It is a critically important training 
asset for the MTNG, used by approximately 3,800 Guardsmen annually, for 
diverse training involving small arms, crew-served weapons, mortars, 
and demolition activities. The LHTA represents a realistic, open 
training environment within a reasonable travel distance for most 
Guardsmen and for equipment, which is maintained off site. This 
regional training asset allows us to avoid the expenditures of time, 
money, and fuel that would result if training had to be located 
elsewhere.
    The LHTA is also used by the active and reserve components of the 
other branches of the military and is made available in some cases for 
use by other federal, state, and local agencies. Some 10,000 personnel 
from other services use the site each year. Many of those personnel are 
from special operations units who are preparing for rotations in 
Afghanistan and other forward locations. The LHTA is especially 
valuable because of the variety of training conducted there, which is 
reflected in the number and diversity of organizations that train 
there.
    There are a number of other, non-federal activities that occur at 
the LHTA, and the Army is respectful of the multiple uses of the 
property. We are particularly proud of the collaborative relationship 
among the MTNG, the BLM, and the other stakeholders in the area. The 
Army closely coordinates with the operators of an active limestone mine 
within the withdrawal area. The Army firmly supports allowing existing 
mining claims to proceed to development in accordance with previously 
approved plans of operations, and we are confident this can occur. The 
MTNG plans meticulously to ensure that training and mining operations 
are held at a safe distance, and that any unexploded ordnance (UXO) is 
removed from the mining area. Training activities are also deconflicted 
with grazing operations, wildlife habitat, and use of two public roads 
that traverse the property. There is a proven track record of 
accommodating multiple uses of the property while fulfilling military 
training and mission needs.
    The MTNG is party to an existing agreement with the BLM and with 
Graymont Western US, Inc., the current mine operator. This agreement 
specifies the procedures that the parties follow to coordinate and 
deconflict their respective activities. As provided for in the 
legislation, the Army is prepared to enter into a new agreement to 
update those procedures during the withdrawal period. We do not foresee 
any difficulty in maintaining procedures to ensure that training and 
readiness are maintained while accommodating the needs of other 
parties.
    While the Army supports withdrawal of the property to enable its 
continued use for military training, the Army has significant concerns 
with certain language in the bill that would legislatively expand 
certain rights for mineral disposition or exploration. The Army opposes 
inclusion of Subsection 4(a)(3), which would provide an opportunity for 
certain mining claimants to amend or relocate mining claims and to 
reinstate expired claims. This provision would give unprecedented 
latitude to these claimants, which could impact land required for 
military training--including live fire impact areas. This would 
severely limit the ability of the Army to plan and conduct training on 
the property.
    The Army supports allowing existing mining claims to proceed to 
development in accordance with previously approved plans of operations 
and in accordance with applicable law and regulation. However, the Army 
strongly objects to this Subsection as it would grant particular mining 
claimants the ability to operate without regard for the withdrawal and 
reservation. There is no clear precedent for this provision, which 
stands in opposition to the normal purpose and effect of military land 
withdrawals. By granting unique privileges to certain mining claimants, 
this provision is also contrary to the normal operation of mining laws 
and regulations, which provide equal treatment for all claimants who 
are similarly situated.
    The LHTA is an important asset for the readiness of the armed 
forces. If the land is not withdrawn, Limestone Hills will be returned 
to the BLM and the MTNG would be forced to conduct its primary training 
events at other locations. Changing training venues could markedly 
increase the costs to the MTNG over current expenditures. Additionally, 
UXO contamination would need to be mitigated if the range were closed. 
Since funding for UXO removal from active ranges is controlled and 
prioritized differently from funding for cleanup of closed ranges, if 
the range is closed, Army priorities and schedules for UXO removal 
would be affected. We appreciate the effort to keep this important 
training asset open and available.
    Noting the strong objection to Subsection 4(a)(3), we support S. 
1169 with the exclusion of that provision. The Department of Defense 
has submitted a legislative proposal to the Congress for consideration 
that would also address the withdrawal requirements for LHTA. The 
proposal, introduced as S. 1309, is fully coordinated and agreed to 
within the Administration, and would provide urgent and necessary 
authority to continue training and operations.
S. 753, a bill to provide for national security benefits for White 
        Sands Missile Range and Fort Bliss
    The other legislation I would like to discuss is S. 753, which 
involves the withdrawal of 42,700 acres of public lands in New Mexico 
and reservation of 5,100 of those acres for use by the Department of 
the Army. The bill would also transfer administration of 2,050 acres 
from the Army to the Department of Interior. These lands are directly 
adjacent to Fort Bliss and the White Sands Missile Range (WSMR). As the 
two largest military installations in the United States, Fort Bliss and 
WSMR consist of nearly 5,000 square miles of land that accommodates 
military training, research, development, and test and evaluation. In 
addition to Army test activities, WSMR hosts several other federal 
tenants, including NASA and the National Reconnaissance Office (NRO).
    A portion of the withdrawal, totaling 37,600 acres, is adjacent to 
the Dona Ana tank gunnery and artillery range complex at Fort Bliss. 
Training in this location can generate significant noise, vibration, 
and dust, which can all migrate off the installation. Army analysis has 
determined that noise levels occurring in the area to be withdrawn are 
higher than is recommended for various categories of use and 
development. The Army is concerned that residential and commercial 
development may occur in that area. The legislation would ensure that 
incompatible development does not occur in that area. In doing so, the 
legislation would establish an enduring buffer for the live-fire ranges 
in the Dona Ana training area.
    A separate 5,100 acre portion of the land that would be withdrawn 
by this legislation is adjacent to tenant operations at WSMR: the NASA 
White Sands Test Facility; the NASA Goddard Space Flight Center 
Tracking and Data Relay Satellite Systems facility; and the NRO 
Aerospace Data Facility--Southwest. These operations are co-located and 
have special security and safety requirements. The land set aside for 
their use, while large enough to handle the mission, no longer resides 
in a remote location. As with many locations in the southwest, this 
area has seen a large increase in population in recent years. The 
facilities sit close to the border of a public access area, and a 
number of security incidents in the area have highlighted the value of 
having a controlled stand-off area. This legislation would reserve for 
military control a one-mile stand-off area between those tenant 
activities and the public access area, which would improve the security 
for these facilities.
    The bill would also return administration of a small area at Fort 
Bliss from the Department of the Army to the Department of the 
Interior. The 2,050 acre parcel, previously withdrawn for military use, 
would be transferred to the BLM. This parcel has relatively limited 
training value for Fort Bliss due to its limited access from the 
installation. The Army does not object to the return of this land to 
BLM, but we offer one technical comment on the provision. Since the 
parcel was originally withdrawn by Public Land Order 833, a partial 
legislative revocation of that Public Land Order would ensure a clear 
interpretation of congressional intent.
    The Army has worked cooperatively with the Bureau of Land 
Management and other neighbors and stakeholders in addressing land use 
issues in this area. We appreciate the cooperation and interest of all 
parties who support the various missions at Fort Bliss and WSMR. The 
Army supports this legislation, which would protect those important 
national security missions.
    Thank you for the opportunity to discuss these topics, I look 
forward to any questions you have.

    Senator Manchin. Thank you so much.
    I might state that I'm so sorry that I did not introduce 
your full title: Assistant Secretary of the Army, Installations 
of Energy and Environment, Office of the Assistant Secretary of 
the Army, U.S. Army.
    Thank you so much.
    At this time we're going to hear from the Hon. Roger 
Natsuhara. He's the Acting Assistant Secretary of the Navy.

STATEMENT OF ROGER M. NATSUHARA, ACTING ASSISTANT SECRETARY OF 
   THE NAVY (ENERGY, INSTALLATIONS AND ENVIRONMENT) U.S. NAVY

    Mr. Natsuhara. Thank you, Mr. Chairman, and members of the 
subcommittee. I want to thank you for holding this hearing.
    I'm pleased to appear before you today to discuss the 
Department of Navy's need for the Land Withdrawal legislation 
addressed in S. 1309.
    I also want to thank Senator Wyden for introducing the bill 
on behalf of the Administration.
    I would like to make just a couple brief comments about why 
we need this legislation. Thank you, Mr. Chairman, for entering 
my full written statement into the record.
    The existing military land withdrawals for Naval Air 
Weapons Station China Lake and the Chocolate Mountain Aerial 
Gunnery Range expire in October 2014 and require congressional 
action. Signed legislation is required this year to preserve 
the very important testing, development, and training missions 
we conduct at those bases.
    The proposed expansion of Twentynine Palms is critical to 
national defense. Although Twentynine Palms has served the 
Marine Corps well since in 1940s, lack of sufficient training 
space inhibits us from properly training Marine Expedition 
Brigades today and in the future.
    The preferred alternative identified in the February 2013 
Record of Decision on Twentynine Palms represents the minimum 
area required to support MEB training and is a product of 
extensive public outreach efforts that incorporated public 
input.
    Thank you for the opportunity to testify before you today. 
I welcome your questions.
    [The prepared statement of Mr. Natsuhara follows:]

Prepared Statement of Roger M. Natsuhara, Acting Assistant Secretary of 
      the Navy (energy, installations, and environment) U.S. Navy
    Chairman Manchin, Ranking Member Barrasso, and members of the 
Subcommittee, I am pleased to appear before you today to discuss the 
continuing need for the Department of the Navy's land withdrawals in 
the Southwest.
    A number of Department of Navy installations are located wholly or 
partially on public lands that have been withdrawn from the public 
domain for military purposes. Since the passage of the Engle Act, such 
military land withdrawals exceeding 5,000 acres must be authorized in 
statute. The military land withdrawals for Naval Air Weapons Station, 
China Lake and the Chocolate Mountain Aerial Gunnery Range expire next 
year and can only be renewed by an Act of Congress. China Lake supports 
the Navy's research, development, acquisition, testing and evaluation 
of cutting edge weapons systems for the warfighter. It consists of over 
1.1 million acres of land of which over 90 percent are withdrawn public 
lands. The installation supports approximately 9000 hours of aircraft 
and weapons training annually and is of critical importance in 
maintaining national military readiness. The Department has no viable 
alternative location where it can perform the testing, training and 
operations that are conducted at China Lake.
    The aerial gunnery range located in the Chocolate Mountains 
consists of about 459,000 acres of which approximately 227,000 acres 
are withdrawn public lands. The range supports Marine Corps, Navy, and 
Air Force aircrew training in air combat maneuvering and tactics; 
airborne laser system operations; air-to-air gunnery and air-to-ground 
bombing, rocketry, and strafing. The range is the primary range for the 
Marine Corps' advanced aviation tactics school, serves east coast 
Marine aviation units by providing capability not available on the east 
coast, and is the primary ``backyard'' range for the 3rd Marine 
Aircraft Wing. Navy Special Warfare units also use this gunnery range 
to conduct ground combat training.
    In addition to the renewal of existing military land withdrawals at 
China Lake and the Chocolate Mountains, the Department of Navy requests 
a new land withdrawal at Marine Corps Air Ground Combat Center in 
Twenty-nine Palms, CA to meet current and future training requirements. 
Although ground operations are winding down in Afghanistan, the world 
is still a very uncertain place, with the threat environment only 
growing more complex. As the Nation's premier ``first responders'' in 
conflict, the Marine Corps must remain nimble and flexible enough to 
engage the enemy with the appropriately sized and right mix of forces 
on the battlefield.
    This withdrawal is required to expand the existing training 
environment and provide sufficient maneuver area, both land and 
airspace, to conduct sustained, combined arms, live-fire and maneuver 
field training for Marine Expeditionary Brigade (MEB)-sized Marine Air 
Ground Task Forces (MAGTF). A MEB-the primary forcible entry 
contingency response force-consists of three battalion task forces and 
associated command, aviation, and combat logistics support elements.
    MEBs must be capable of performing a variety of missions throughout 
the spectrum of conflict because they will encounter complex situations 
containing asymmetric threats, nonlinear battlefields, and unclear 
delineation between combatants and noncombatants. To overcome these 
challenges and operate effectively, MEBs must train in a realistic 
setting, which the current installation configuration cannot provide. 
Twenty-nine Palms, established in the 1950s and sized for the weapons 
and tactics of the time, is simply not big enough to accommodate the 
way the Marine Corps must train to fight today's battles.
    To accomplish this, the Department intends to purchase private and 
state lands adjacent to the Combat Center, pursue the establishment and 
modification of Special Use Airspace through the Federal Aviation 
Administration and request a military land withdrawal of additional 
public lands. Because of the amount of acreage being requested, this 
land withdrawal also requires an Act of Congress. We recognize the 
public's keen interest in retaining access to Johnson Valley for 
recreational purposes. Our land withdrawal request-developed through 
public input-preserves public access to Johnson Valley, the area prized 
by the off-highway vehicle recreation enthusiasts due to its unique 
terrain features. Our withdrawal request represents a reasonable 
solution for preserving public access while providing space for 
required military training.
    As required by the current law, the Department has worked with the 
Department of Interior, the Bureau of Land Management, and the Federal 
Aviation Administration in preparation for these withdrawals over the 
last several years. The Administration has submitted a legislative 
proposal through which these land withdrawals would be enacted as part 
of Fiscal Year 2014 National Defense Authorization Act.
    The need to enact legislation and authorize these withdrawals is 
urgent. As our Department of Defense colleagues have stated in previous 
testimony earlier this year, the consequences of failing to enact 
withdrawal legislation could, in some of these instances, cause severe 
impacts on DOD and the military Services if we are forced to stop 
training and testing. In all cases, DOD has a compelling need for the 
withdrawn land in order to successfully conduct its testing, training, 
missions and operations with the capabilities and competence that it 
must maintain.
    Our Nation's Navy and Marine Corps operate globally, which includes 
having the ability to project power, effect deterrence, and provide 
humanitarian aid whenever and wherever needed to protect the interests 
of the United States. To do this, however, requires forces who train as 
they would fight and weapons that deliver as promised. We ask for your 
support in giving our men and women what they need to prevail. I look 
forward to working with you to sustain the war fighting readiness and 
quality of life for the most formidable expeditionary fighting force in 
the world. Thank you for the opportunity to testify before you today 
and I welcome your questions.

    Senator Manchin. Thank you so much, sir.
    Now we have Mr. Ned Farquhar--pretty close--Deputy 
Assistant Secretary, Land and Minerals Management, Department 
of the Interior.
    Thank you, sir.

STATEMENT OF NED FARQUHAR, DEPUTY ASSISTANT SECRETARY, LAND AND 
        MINERALS MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Farquhar. Thank you very much, Mr. Chairman, and 
members of the subcommittee. We appreciate the opportunity to 
testify today on behalf of the Department of Interior Bureau of 
Land Management. I'm going to very briefly summarize our 
position on 8 bills and submit my statements for the record.
    The first is that the department supports S. 37, the Jobs 
and Recreation Act, and S. 364, the Rocky Mountain Front 
Heritage Act, as they apply to lands administered by the BLM. 
We defer to the Department of Agriculture Forest Service as 
these bills apply to the National Forest system lands as well.
    Both of these bills provide conservation designations for 
special areas in the State of Montana. Permanent designation in 
these lands ensures that hunters, hikers, anglers, and other 
recreationists will continue to enjoy these areas of 
southwestern Montana and the Rocky Mountain Front.
    On S. 1300, this stewardship bill, we would extend BLM 
stewardship contracting authority, which expires this year. 
This important authority allows the BLM to efficiently and 
flexibly accomplish needed restoration work in concert with 
local agencies and organizations.
    The department supports the extension and would support the 
bill if amended to address some technical concerns.
    On S. 343, the Three Kids Mine, the Secretary would be 
directed to convey 948 acres of Federal land at the abandoned 
Three Kids Mine site to the Henderson Redevelopment Agency in 
Nevada. In exchange, Henderson would pay the United States for 
the value of this land minus the estimated cost of cleanup and 
adjacent private parcels. Henderson would then be responsible 
for cleanup at the site.
    The department supports the goals of 343 and welcomes the 
opportunity to work with the committee to make modifications to 
the bill as outlined in our fuller testimony.
    On H.R. 507, the Pascua Yaqui bill, which provides for the 
conveyance of 20 acres of public land near Tucson for the 
Pascua Yaqui Tribe, the department supports holding the lands 
in trust for the tribe, but has concerns about provisions 
regarding a private lease on unrelated lands and its 
implications for the Secretary to exercise the trust 
responsibilities that the Interior Department has with tribal 
partners. We look forward to resolving this and other issues in 
the bill.
    We appreciate the importance of the military installations 
that we're talking about today for the security of the Nation, 
and we support the multiple missions of our Armed Forces. We're 
proud to work closely with the Department of Defense and the 
branches represented today to offer public lands to support 
military readiness, training, and testing, and assist the 
military in meeting its mission needs.
    The main bill today, S. 1309, the Military Land Withdrawals 
Act introduced by Senator Wyden at the administration's 
request, reflects our 2014 National Defense Authorization Act 
legislative proposal for the 3 public land withdrawals in 
California and the one in Montana. We urge the Senate to pass 
this bill because these withdrawals are expiring soon.
    We also support S. 753, Senator Heinrich's bill for the 
White Sands Missile Range in Fort Bliss in New Mexico. We'd 
like to work with the subcommittee and the sponsor on some 
technical modifications.
    The administration supports the continued use of the 
Limestone Hills training area in Montana by the Army. We have 
some concerns as expressed by our partners in the Army about 
some of the language in S. 1169 related to location and 
maintenance of mining claims. We look forward to working with 
you on those as well.
    Thank you for inviting us to be here today and to testify. 
We'll be happy to answer your questions.
    [The prepared statement of Mr. Farquhar follows:]

Prepared Statement of Ned Farquhar, Deputy Assistant Secretary, Land & 
            Minerals Management, Department of the Interior
                                on s. 37
    Thank you for inviting the Department of the Interior to testify on 
S. 37, the Forest Jobs and Recreation Act. The Bureau of Land 
Management (BLM) supports the wilderness designations on BLM-managed 
lands included in S. 37.
    The vast majority of the designations and other substantive 
provisions of S. 37 apply to activities on National Forest System 
lands. We defer to the Department of Agriculture on those provisions.
Background
    The southwestern corner of Montana is a critically important 
biological region. Linking the Greater Yellowstone Area and the 
Bitterroot Mountains of Idaho and Montana, these areas include 
important wildlife corridors that allow natural migrations of wildlife 
and help prevent species isolation. The Centennial Mountains are 
particularly noteworthy in this regard. The diversity of wildlife 
throughout this area is a strong indicator of its importance. Elk, mule 
deer, bighorn sheep, and moose, as well as their predators, such as 
bears, mountain lions and wolves, travel through this corner of 
Montana.
    Outstanding dispersed recreational opportunities abound in this 
region as well. A day's hunting, hiking or fishing may be pursued in 
the splendid isolation of the steeply forested Ruby Mountains or in the 
foothill prairies of the Blacktail Mountains, areas largely untouched 
and pristine. For the more adventurous, Humbug Spires offers 65 million 
year-old rocks now eroded into fanciful spires, appreciated both for 
their climbing challenges as well as their scientific value.
S. 37
    Title I of S. 37, applies solely to National Forest System Lands. 
Accordingly the Department of the Interior defers to the Department of 
Agriculture on those provisions. The majority of the designations in 
Title II of the bill are also on National Forest System Lands, and 
again we defer to the Department of Agriculture.
    Section 203(b) of S. 37 designates five wilderness areas on lands 
administered by the BLM in southwestern Montana: the Blacktail 
Mountains Wilderness (10,675 acres), Centennial Mountains Wilderness 
(23,700 acres), Humbug Spires Wilderness (8,900 acres), East Fork 
Blacktail Wilderness (6,125 acres), and Ruby Mountains Wilderness 
(16,300 acres). The BLM supports these designations and we appreciate 
the Sponsor and the Committee working with us over the last year to 
refine these boundaries. All of these areas meet the definitions of 
wilderness in that they are areas where the land and its community of 
life are untrammeled. These areas have retained their primeval 
character and have been influenced primarily by the forces of nature, 
with outstanding opportunities for primitive recreation or solitude. We 
continue to encourage the Sponsor and the Committee to consider 
expanding the boundaries of the Centennial Mountains Wilderness in 
order to protect this area as a single coherent corridor, thereby 
providing enhanced benefit for the genetic diversity of the fauna 
inhabiting the Greater Yellowstone Area and the Bitterroot Range.
    Furthermore, we support the transfer of administrative jurisdiction 
over the 660-acre Farlin Creek area to the Forest Service for inclusion 
in the adjoining 77,000 acre East Pioneers Wilderness Area.
    Section 205 of S. 37 proposes to fully release four BLM-managed 
wilderness study areas (WSAs) in Beaverhead and Madison counties from 
WSA management thereby allowing the consideration of a full range of 
multiple uses. In addition, in five other WSAs, some areas would be 
released from WSA status and other areas would be partially designated 
as wilderness, as noted above. In all, over 66,000 acres of WSAs are 
proposed for release, and nearly 66,000 acres are proposed for 
wilderness designation; we support these provisions.
Conclusion
    Thank you for the opportunity to testify. We look forward to 
working cooperatively with the Congress to designate these special and 
biologically significant areas in this dramatic corner of Montana as 
wilderness.
                               on s. 343
    Thank you for the opportunity to testify on S. 343, the Three Kids 
Mine Remediation and Reclamation Act. Over the past several years, the 
Bureau of Land Management (BLM) has worked with the City of Henderson, 
Nevada, and other Nevada governmental entities in search of 
administrative remedies to redevelopment challenges at the abandoned 
Three Kids Mine. The Department of the Interior (Department) supports 
the goals of S. 343, which aims to provide legislated solutions to the 
issues surrounding the Three Kids Mine area and clears the way for its 
eventual redevelopment. However, the BLM would prefer that the 
Committee consider H.R. 697 as introduced, which the Department 
supported in testimony on March 21, 2013.
Background
    The Three Kids Mine is an abandoned manganese mine and mill site on 
314 acres of private land located along the south side of Lake Mead 
Drive, across the highway from Lake Las Vegas, in Henderson, Nevada. 
The mine and mill operated from 1917 through 1961, in part providing 
steel-strengthening manganese to the defense industry and contributing 
to the United States' efforts in World War I and II. Federal manganese 
reserves were stored in the area from the late 1950s through 2003. 
Approximately five years ago, the City of Henderson and Lakemoor 
Canyon, LLC, approached the BLM with a plan for redevelopment of the 
area if the site could be remediated.
    S. 343 directs that 948 acres of public lands adjacent to the 
private site be conveyed to the Henderson Redevelopment Agency, 
bringing the total size of the redevelopment project area to 1,262 
acres. Of the 948 acres of public lands, 146 acres are contaminated and 
will require mine reclamation and environmental remediation. The most 
severe contamination appears to be on the 314 private acres where the 
mine and mill were located. No viable former operator or responsible 
party has been identified to remediate and reclaim the abandoned mine 
and mill site. Today, the site's deep open pits, large volumes of mine 
overburden and tailings, mill facility ruins, and solid waste disposal 
areas pose risks to public safety and to human health and the 
environment. The Nevada Division of Environmental Protection (NDEP) 
identified the Three Kids Mine site as a high priority for the 
implementation of a comprehensive environmental investigation, 
remediation, and reclamation program. Representatives of the BLM, the 
Bureau of Reclamation, and the Department of the Interior Solicitor's 
Office have worked with the City of Henderson and representatives of 
developer Lakemoor Canyon to find solutions to the complex challenges 
of remediating this site.
S. 343
    S. 343 designates the combined 314 acres of private land and 948 
acres of public land as the 1,262-acre ``Three Kids Mine Project Site'' 
and provides for the conveyance of the public lands to the Henderson 
Redevelopment Agency. The legislation provides that fair market value 
for the Federal lands to be conveyed should be determined through 
standard appraisal practices, and that, subsequent to the 
determination, the Secretary of the Interior (Secretary) should 
determine the ``reasonable approximate estimation of the costs to 
assess, remediate, and reclaim the Three Kids Mine Project Site.'' The 
fair market value would be adjusted by deducting the cost estimate 
prepared by the Secretary. The Henderson Redevelopment Agency would pay 
the adjusted fair market value of the conveyed land to the United 
States, if any.
    The bill makes the conveyance of the land conditional upon the 
State of Nevada executing a mine remediation and reclamation agreement 
that obligates a party to perform the cleanup and which must be backed 
up by financial assurances. While the BLM has not established a range 
for the cost of cleanup, a proponent of the transaction estimated the 
cost of remediating the public and private lands at between $300 
million and $1.3 billion. While it is possible that the cost of 
remediating and reclaiming the entire project area might exceed the 
fair market value of the Federal land to be conveyed, the cost of the 
transaction will be known only after the Secretary completes the 
appraisal and remediation cost estimate process as outlined in the 
legislation.
    The Department supports innovative proposals to address the cleanup 
of the Three Kids Mine. We support the goals of S. 343, and prefer that 
the Committee consider H.R. 697 as introduced, which the Department 
supported in testimony on March 21, 2013.
Conclusion
    Thank you for the opportunity to present testimony on S. 343.
                                 s. 364
    Thank you for the invitation to testify on S. 364, the Rocky 
Mountain Front Heritage Act which designates approximately 208,000 
acres of Federal land in Montana as the Rocky Mountain Front 
Conservation Management Area. S. 364 primarily affects lands managed by 
the United States Forest Service (FS). The Department of the Interior 
defers to the Department of Agriculture regarding designations on lands 
managed by the FS. Over 13,000 of the acres proposed for special 
designation under the bill are managed by the Bureau of Land Management 
(BLM). The Department of the Interior supports the designation of the 
BLM lands as part of the Rocky Mountain Front Conservation Management 
Area (CMA).
Background
    A unique and stunningly beautiful area in west-central Montana, the 
Rocky Mountain Front is located within Pondera, Teton, and Lewis and 
Clark Counties and contains unparalleled cultural, recreational, 
scenic, and biological resources. The lands administered by the BLM are 
dominated by massive limestone cliffs rising to an elevation of 7,700 
feet and include grasslands, shrub lands, and limber and white-bark 
pine forests. Numerous wildlife and fish populations are supported by 
the highly varied topography and diverse vegetation that for 
generations has provided an outstanding experience for hunters, anglers 
and other recreationists. Huntable populations of elk, mule deer, big 
horn sheep, mountain goats and black bear all occur within the area 
being considered in the proposed legislation. In addition, threatened 
species including grizzly bear, Canada lynx, and bull trout are found 
on these BLM-managed lands.
    Congress recognized this priceless region in 2006 when it included 
the withdrawal of the entire area from new mining claims and mineral 
leasing in section 403(a) of Public Law 109-432. The BLM currently 
manages these lands for their important resource values as 
administratively-designated Outstanding Natural Areas (Blind Horse, Ear 
Mountain, Chute Mountain and Deep Creek-Battle Creek).
S. 364
    S. 364 designates over 200,000 acres of federal land in Montana's 
Rocky Mountain Front as the Rocky Mountain Front Conservation 
Management Area. Approximately 13,000 acres of public land managed by 
the BLM would be included in that designation. Running along the 
eastern edge of the CMA, the lands managed by the BLM are largely 
closed to motorized access and include a trail system popular with 
those seeking a wilder recreational experience.
    The overall management scheme envisioned for the CMA is consistent 
with current BLM management of these lands. Under the provisions of S. 
364, motorized vehicles within the CMA would be limited to roads and 
trails designated for their use and grazing would be allowed to 
continue where it currently exists.
    The BLM recommends that the bill be amended to specify that the 
BLM-managed lands within the CMA be included in the BLM's National 
Landscape Conservation System (NLCS). The CMA is very similar to BLM's 
National Conservation Areas (NCAs) and inclusion in the NLCS is 
appropriate.
Conclusion
    Thank you for the opportunity to testify in support of S. 364 as it 
applies to lands managed by the BLM.
                               on s. 1300
    Thank you for the opportunity to testify on S. 1300, the 
Stewardship Contracting Reauthorization and Improvement Act. This 
legislation would provide for the reauthorization of stewardship 
contracting authority for the Bureau of Land Management and the U.S. 
Forest Service. The Department supports the reauthorization of 
stewardship contracting authority, would support this legislation if 
amended, and would appreciate the opportunity to work with the sponsor 
to address a few technical concerns.
Background
    Stewardship contracting authority was established for the BLM in 
the FY 2003 Omnibus Appropriations Act and expires at the end of FY 
2013. The authority allows the BLM to award contracts for forest health 
and restoration treatments, including hazardous fuels reductions, for a 
period of up to ten years and to use the value of timber or other 
forest products removed as an offset against the cost of services 
received. The BLM has enjoyed many successes in using stewardship 
contracting authority, thereby achieving goals for forest and woodland 
restoration and conducting both hazardous fuels reduction and habitat 
restoration treatments. In addition, stewardship contracts create jobs 
and revenue growth for local communities and help to protect local 
communities from wildland fire. From 2003 through 2012, the BLM entered 
into over 400 stewardship contracts on approximately 108,000 acres of 
BLM-managed lands. The BLM's future strategy for stewardship projects 
includes increasing the size and duration of these projects.
S. 1300
    S. 1300 extends until 2023 the authorization of stewardship 
contracting to achieve land management goals. The BLM supports 
stewardship contracting authority, as it provides the BLM with needed 
flexibility to work with contractors to achieve the agency's land and 
forest health goals, and saves taxpayer resources because the value of 
forest products removed are used to offset the cost of the management 
action. In addition, changing the requirement to obligate cancellation 
costs upfront is inconsistent with budgeting principles and would 
understate the Government's liability under the contract. Finally, the 
Administration has concerns about broad waivers of long-standing 
acquisition laws.
Conclusion
    The Department looks forward to working with the sponsor and the 
Subcommittee on technical amendments. Thank you again for the 
opportunity to testify, and I would be glad to answer any questions.
                              on h.r. 507
    Thank you for the opportunity to testify on H.R. 507, which 
provides that certain public lands in the Tucson, Arizona, area are 
declared to be held in trust by the United States for the benefit of 
the Pascua Yaqui Tribe (Tribe), subject to valid existing rights and to 
additional restrictions in the legislation. The Department of the 
Interior (Department) supports holding the lands in trust for the 
Tribe, but has concerns that the legislation makes the trust 
declaration subject to an additional, unrelated restriction.
Background
    The Tribe's lands are located in Pima County, near Tucson, Arizona, 
and are a combination of lands held in trust by the United States and 
lands purchased and held in fee by the Tribe. Some of these fee lands 
are the subject of pending ``fee-land-to-trust-land'' applications with 
the Department. The Tucson Unified School District (District) operates 
the Hohokam School on private lands adjacent to the tribal lands.
    The Tribe is interested in acquiring two parcels of public land 
totaling approximately 20 acres. One parcel is an undeveloped, isolated 
10-acre tract of land administered by the Bureau of Land Management 
(BLM). The second is a tract of approximately 10 acres that was 
patented under the Recreation and Public Purposes Act (R&PP) to the 
District, but never developed.
H.R. 507
    H.R. 507 declares that approximately 20 acres of public land are to 
be held in trust by the United States for the benefit of the Tribe, 
subject to valid existing rights, following the approval of a private 
lease agreement by the Secretary of the Interior (Secretary). The lands 
include one 10-acre parcel of BLM-managed land (designated in the 
legislation as ``Parcel A'') and one 10-acre parcel patented to the 
District under the R&PP (designated ``Parcel B''). Parcel B's trust 
status is deferred under the bill (Sec. 3(b)) subject to the District 
relinquishing its R&PP patent. In addition, under the bill (Sec. 3(c)), 
neither Parcel A nor Parcel B can be declared held in trust until the 
Secretary or a delegate approves and records a private lease agreement 
between the Tribe and the District for the operation of a regional 
transportation facility serving the Hohokam School located on 
restricted Indian land of the Tribe. The lease agreement pertains to 
lands unrelated to Parcel A or Parcel B.
    H.R. 507 references a map titled: PYT Land Department and dated 
Jan. 15, 2013. The BLM would welcome the opportunity to work with the 
bill sponsor and committee on a new land status map to accompany the 
legislation.
    The Department supports holding these two tracts of public land in 
trust for the Tribe. The Department has concerns that the additional 
requirement in Sec. 3(c), that the Secretary approve a private lease, 
on Tribal lands, for the District and the Tribe, as a precondition to 
holding in trust Parcel A and Parcel B--unrelated lands--may have 
implications for the Secretary's exercise of trust responsibility to 
the Tribe.
    Finally, the Department notes that section 5 of H.R. 507 addresses 
the treatment of water rights that may be associated with the land to 
be taken into trust for the benefit of the Tribe. The Department has 
concerns regarding Section 5's restriction on its ability to assert 
reserved water rights that the Tribe may have or claim on the two 
tracts of public land because it could restrict the ability of the 
Tribe and of the United States as trustee on behalf of the Tribe from 
fully asserting and protecting the water rights of the Tribe.
Conclusion
    H.R. 507 represents an opportunity to improve land use for both the 
Tribe and the District on two isolated tracts of public land. Thank you 
for the opportunity to testify. I will be glad to answer any questions.
                         on s. 1169 and s. 1309
    Thank you for the opportunity to present testimony on three public 
land withdrawal bills, S. 753, S. 1169, and S. 1309. S. 753 seeks to 
achieve boundary solutions at White Sands Missile Range (WSMR) and Fort 
Bliss in New Mexico. The Administration supports S. 753, but would like 
to work with the Subcommittee and the sponsor on technical 
modifications to the bill. S. 1169, the Limestone Hills Training Area 
Withdrawal Act, would withdraw approximately 18,644 acres of public 
land for use by the Department of the Army (Army) in Montana. The 
Administration supports the continued use of the lands identified in S. 
1169 by the Army, but has concerns with the provision related to the 
location and maintenance of mining claims. We look forward to working 
with the Subcommittee and the sponsor on modifications to address these 
concerns. S. 1309, the Military Land Withdrawals Act, was introduced at 
the Administration's request. The bill reflects the Administration's FY 
2014 National Defense Authorization Act (NDAA) legislative proposal for 
three public land withdrawals in California and one in Montana. The 
Administration urges the Senate to pass S. 1309 to support military use 
of the lands at Chocolate Mountain Aerial Gunnery Range (CMAGR), Naval 
Air Weapons Station (NAWS) China Lake, Marine Corps Air Ground Combat 
Center (MCAGCC) Twentynine Palms, and Limestone Hills Training Area.
Background
    Public lands are managed by the Department of the Interior (DOI) 
through the Bureau of Land Management (BLM). Public land withdrawals 
are formal lands actions that set aside, withhold, or reserve public 
land by statute or administrative order for public purposes. 
Withdrawals are established for a wide variety of purposes, e.g., power 
site reserves, military reservations, administrative sites, recreation 
sites, national parks, reclamation projects, and wilderness areas. 
Withdrawals are most often used to preserve sensitive environmental 
values and major Federal investments in facilities or other 
improvements, to support national security, and to provide for public 
health and safety. Withdrawals of public lands for military use require 
joint actions by DOI and the Department of Defense (DOD). DOD has a 
number of installations, training areas, and ranges that are located 
partially or wholly on temporarily or permanently withdrawn public 
lands. Many of these withdrawals support installations that are 
critical to the nation's ability to provide for the readiness of the 
Armed Forces. Approximately 16 million acres of public lands are 
withdrawn for military purposes.
    There was no limit on the amount of public land that could be 
withdrawn administratively at a single location for military use until 
1958 when the Engle Act (P.L. 85-337) became law. The Engle Act 
requires an Act of Congress to authorize military land withdrawals 
aggregating 5,000 acres or more for any one defense project or 
facility. Similarly, there was no limit on the time period of 
administrative withdrawals until 1976 when the Federal Land Policy and 
Management Act (FLPMA) (P.L. 94-579) became law. FLPMA allows the 
Secretary of the Interior to administratively make withdrawals 
aggregating 5,000 acres or more for purposes other than military use, 
for a period of not more than 20 years. Legislative military 
withdrawals have traditionally included time limits, with renewal 
required every 15, 20, or 25 years, depending on the terms in the 
legislation.
    DOI appreciates the importance of military installations for the 
security of the Nation and supports the multiple missions of our Armed 
Forces. We are proud to be able to offer public lands to support 
military readiness, training, and testing, and are proud to be able to 
assist the military in meeting its mission needs. Throughout the 
country we have established productive partnerships and other working 
arrangements with the military and we intend to continue these mutually 
beneficial arrangements. We are especially appreciative of the 
military's stewardship of the withdrawn lands they manage. These 
arrangements have worked out well for all concerned and should 
continue.
    The Administration believes that the traditional, periodic review 
that is a part of the legislative withdrawal process is vital to 
promoting the highest quality stewardship and management of the public 
lands proposed for withdrawal in these bills. This process provides 
opportunities for DOD and the military branches to evaluate their 
continued use of the lands and obtain the participation and assistance 
of DOI in sound management, for DOI to ensure that the lands are being 
managed in ways that could allow their eventual return to the public 
domain for broader public use, and for the Congress and the public to 
provide input and oversight.
S. 753, Boundary Solutions at White Sands Missile Range (WSMR) and Fort 
        Bliss
    WSMR is a test range of approximately 2.2 million acres in parts of 
five counties in southern New Mexico, making it one of the largest 
military installations in the United States. WSMR is contiguous to Fort 
Bliss to the south, which is used for military training. The majority 
of the lands that comprise both WSMR and Fort Bliss, over 2.4 million 
acres, are public lands withdrawn and reserved for the use of the Army 
under Public Land Order (PLO) 833 and by Public Law 106-65.
    S. 753 seeks to achieve boundary solutions at WSMR and Fort Bliss. 
First, the bill would withdraw and reserve approximately 5,100 
additional acres for use by the Army at WSMR, to allow for an 
additional buffer area between the current public access areas and 
operations of several WSMR tenants, such as the NASA White Sands Test 
Facility and the NASA Goddard Space Flight Center Tracking and Data 
Relay Satellite Systems Facility. The Administration supports the goal 
of allowing the use of the lands by the Army. However, these lands 
receive significant public use, mainly in the form of hunting and 
livestock grazing. Because the introduced bill does not address 
grazing, the reduction in the existing grazing permit and removal of 
any authorized range improvements within these lands would be carried 
out in accordance with BLM's grazing regulations at 43 C.F.R Part 4100.
    S. 753 would also withdraw approximately 37,600 acres of public 
lands from the operation of certain public land laws, in order to 
establish a zone to buffer the noise, dust and vibrations from the live 
fire training activities on the adjoining Dona Ana tank gunnery and 
artillery range complex at Fort Bliss. These lands would remain under 
the full management of the Department of the Interior, but they would 
be withdrawn from the public land laws, the mining laws, and the 
mineral leasing, mineral materials, and geothermal leasing laws. The 
Administration supports the withdrawal of these lands, consistent with 
a similar provision included in the Administration's FY 2014 NDAA 
legislative proposal.
    Additionally, S. 753 would transfer to the Secretary of the 
Interior administrative jurisdiction over approximately 2,050 acres of 
public lands previously withdrawn and reserved for the Army's use under 
PLO 833. The lands are part of an area known as Filmore Canyon, and are 
adjacent on two sides to the BLM's Organ Mountains Area of Critical of 
Environmental Concern (ACEC). Filmore Canyon is adjacent to the 
community of Las Cruces and includes hunting opportunities and scenic 
lands that are popular for year-round hiking. The BLM manages the Organ 
Mountains ACEC for significant scenic values and endangered wildlife 
species, and the ACEC contains cultural sites eligible for listing on 
the National Register of Historic Places. The Administration supports 
the return of these lands to full management by the Department of the 
Interior as part of a cohesive boundary solution at WSMR and Fort 
Bliss. We would like to work with the Subcommittee and the sponsor on 
technical modifications.
S. 1169, Limestone Hills Training Area Withdrawal Act
    The Limestone Hills Training Area consists of 18,644 acres of 
public lands in Broadwater County, Montana that have been used for 
military training since the 1950s. In 1984, the BLM issued the Army a 
right-of-way formally permitting use of the training area for military 
purposes. The current right-of-way expires on March 26, 2014. The 
Montana Army National Guard is the primary DOD user of the training 
area, which is also used by reserve and active components from all 
branches of the military services for live fire, mounted and dismounted 
maneuver training, and aviation training. The withdrawal of the 
Limestone Hills Training area is necessary because the BLM has 
determined that it no longer has the authority to permit the use of the 
lands for military maneuvers under a right-of-way instrument.
    S. 1169 would withdraw and assign general management of the 
training area to the Army, but would keep management of grazing and 
mineral resources with the BLM. This arrangement is consistent with the 
Administration's FY 2014 NDAA legislative proposal, and the 
Administration supports the goal of allowing the use of the lands by 
the Army under a withdrawal and reservation. However, the introduced 
bill contains a provision related to the location and maintenance of 
mining claims that is at odds with the Administration's legislative 
proposal, and with which the Administration has concerns.
    Section 4 of S. 1169 would legislatively expand certain rights for 
mineral disposition or exploration. It would set a new precedent for 
public land withdrawals by allowing the opportunity to cure 
discrepancies in the original location or the failure to maintain 
several hundred mining claims in the Indian Creek mine area for the 
duration of the withdrawal. The legislative language could be 
interpreted to allow mining claimants to take in new land under 
existing claims, which could impact land required for military 
training--including live fire impact areas. By granting unique 
privileges to certain mining claimants, this provision is contrary to 
the normal operation of mining laws and regulations, which provide 
equal treatment for all claimants who are similarly situated. The 
Administration looks forward to working with the Subcommittee and the 
sponsor on modifications to address these concerns and on more 
technical changes to incorporate general provisions from the FY 2014 
NDAA legislative proposal.
S. 1309, the Military Land Withdrawals Act
    S. 1309, the Military Land Withdrawals Act, represents the 
Administration's legislative proposal to enact four public land 
withdrawals as part of the FY 2014 NDAA. This proposal was jointly 
prepared by DOD and DOI and represents extensive discussions and 
consensus building between the two agencies to achieve common goals. 
Presently, the two existing withdrawals for NAWS China Lake, 
California, and CMAGR, California, enacted in the California Military 
Lands Withdrawal and Overflights Act of 1994 (1994 California Act) 
(P.L. 103-433), will expire on October 31, 2014. Additionally, the 
Marine Corps seeks a new withdrawal of public lands at MCAGCC 
Twentynine Palms, California, to expand its training areas to support 
increased requirements. Finally, the Army needs to convert its use of 
public lands at the Montana Army National Guard, Limestone Hills 
Training Area, from a BLM issued right-of-way to a legislative 
withdrawal.
    Unlike prior legislative withdrawals which were uncodified, stand-
alone provisions of law, the withdrawals made under S. 1309 would be 
codified in a new chapter of title 10, United States Code. This would 
make the withdrawal process substantially more efficient for both the 
Executive and Legislative branches by providing commonality among the 
withdrawal provisions, placing them in a location that is easy to find 
and refer to, and, if used for future withdrawals, reducing the need to 
reconsider and revise ``boilerplate'' provisions with each proposal. 
Also, this codification would allow changes to withdrawal provisions 
without having to wait the decades that might pass before the next 
withdrawal took place. This new flexibility would greatly aid the 
ability of DOD, DOI, and Congress to soundly manage withdrawn lands.
    S. 1309 includes many general provisions applicable to all four of 
the withdrawals. Among these are provisions for: the development of 
maps and legal descriptions; access restrictions; changes in use; 
authorizations for non-defense-related uses; management of range and 
brush fire prevention and suppression; on-going decontamination; water 
rights; hunting, fishing, and trapping; limitations on extensions and 
renewals; application for renewal; limitation on subsequent 
availability of lands for appropriation; relinquishment; interchanges 
and transfers of Federal lands; delegability of certain 
responsibilities by the Secretary of the Interior; and immunity of the 
United States. Most of these general provisions are similar, if not 
identical, to previously applied provisions in existing withdrawal 
statutes.
    The interchanges and transfers provision is included to address 
boundary management issues involving both withdrawn public lands and 
acquired real property. For example, there is a need for boundary 
adjustment on the northern side of CMAGR to address uncertainties and 
resource management conflicts associated with the BLM-managed Bradshaw 
Trail. The Bradshaw Trail is popular with off-highway vehicle users, 
and is, in part, maintained by the local government, in coordination 
with the BLM. However, the trailhead and some of the trail's length 
currently crosses acquired real property administered by the Department 
of the Navy (Navy) and the Marine Corps. In the case of the expansion 
of MCAGCC Twentynine Palms, the Navy will likely seek to purchase 
various inholdings within the proposed withdrawal boundary. It could be 
beneficial to both departments if these inholdings could be converted, 
by interchange or transfer, to BLM public lands. In any case, the 
interchange provision is limited to acre-for-acre in order to avoid 
expanding the footprint of DOD lands. The transfer provision is limited 
to the Engle Act 5,000 acre limit (total) for any one installation over 
the 25-year life of the withdrawal. These provisions are designed to 
allow for small administrative adjustments to promote sound land 
management without impinging upon the role of Congress in managing 
Federal lands.
Naval Air Weapons Station (NAWS) China Lake, California
    NAWS China Lake consists of over 1.1 million acres of land in Inyo, 
Kern, and San Bernardino Counties, California, of which 92 percent are 
withdrawn public lands. Under a Memorandum of Understanding between the 
Navy and DOI, the Commanding Officer of NAWS China Lake is responsible 
for managing the withdrawn land. The installation is home to 
approximately 4,300 DOD personnel and its primary tenant is the Naval 
Air Warfare Center Weapons Division. The current 20-year legislative 
withdrawal expires on October 31, 2014.
    The 25-year renewal included in S. 1309 is modeled on the current 
successful management scheme instituted as part of the 1994 California 
Act, which allows the DOD and DOI to combine their unique capabilities 
and assets for the benefit of the resources and the public by 
cooperatively managing natural and cultural resources, recreational 
resources, grazing, wild horses and burros, and geothermal resources. 
For example, the Navy manages the wild horses and burros on-the-ground 
at NAWS China Lake and the BLM manages the gathering, holding and 
adoption of the animals. In addition, the BLM and NAWS China Lake have 
a unique agreement to collaboratively produce geothermal energy at the 
installation, which currently produces over 150 megawatts of power.
Chocolate Mountain Aerial Gunnery Range (CMAGR), California
    The CMAGR was established in 1941. The range consists of about 
459,000 acres in Imperial and Riverside Counties, California, of which 
approximately 227,000 acres are withdrawn public lands under the co-
management of the Marine Corps and the BLM. The remaining lands are 
under the administrative jurisdiction of the Department of the Navy. 
The two sets of lands form a checkerboard pattern of administrative 
jurisdiction. The Marine Corps primarily uses the lands for aviation 
weapons training, including precision guided munitions and Naval 
Special Warfare training. The current 20-year withdrawal is set to 
expire on October 31, 2014.
    S. 1309 provides for a 25-year renewal and would allow the BLM and 
Navy to institute the same type of cooperative management that has been 
successful at China Lake. The Chocolate Mountain range is home to a 
number of species such as desert tortoise and big horn sheep, and 
contains a wide range of archeological resources.
Marine Corps Air Ground Combat Center (MCAGCC) Twentynine Palms, 
        California
    MCAGCC Twentynine Palms currently consists of 596,000 acres of land 
in San Bernardino County, California. In 1959, approximately 443,000 of 
those total acres were administratively withdrawn and reserved for the 
use of the Navy under PLO 1860. DOD is now seeking to expand this 
installation with the withdrawal of approximately 154,000 acres of 
public lands adjacent to MCAGCC. The added training lands would create 
a training area of sufficient size with characteristics suitable for 
the Marine Corps to conduct Marine Expeditionary Brigade (MEB) level 
training. MEB training requires sustained, combined-arms, live-fire and 
maneuver training of three Marine battalions with all of their 
associated equipment moving simultaneously toward a single objective 
over a 72-hour period.
    S. 1309 meets the important training needs of the Marines, and, 
recognizing that there will be impacts to public access, also includes 
a unique management structure to mitigate some of the loss of access to 
lands popularly used for off-highway vehicle (OHV) recreation. The bill 
provides for continued, year-round public access to the western third 
of the Johnson Valley OHV area. In addition, a shared use area of about 
43,000 acres of the withdrawn lands would be available for OHV use for 
ten months out of the year, when there is no active military training.
Limestone Hills Training Area, Montana
    As previously stated, the legislative withdrawal of the Limestone 
Hills Training area is necessary because the BLM has determined that it 
no longer has the authority to permit the use of the lands for military 
maneuvers under a right-of-way instrument. Under S. 1309, general 
management of the training area would be assigned to the Army, but the 
BLM would retain management of grazing and mineral resources for the 
lands withdrawn and reserved.
Conclusion
    Thank you for inviting our testimony on S. 753, S. 1169, and S. 
1309. The Department of the Interior, which has always been part of the 
Nation's national defense team, is committed to supporting military 
missions and training needs, while protecting natural resources and 
other traditional uses of the public lands. I would be happy to answer 
your questions.

    Senator Manchin. Thank you, sir.
    At this time, we will have Ms. Leslie Weldon, Deputy Chief, 
Forest Service, Department of Agriculture.

   STATEMENT OF LESLIE WELDON, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Ms. Weldon. Thank you, Mr. Chairman, and members of the 
subcommittee. Thanks for the opportunity to share the 
administration's views on bills we have before us today.
    We'd like to express our appreciation to Chairman Manchin 
and the committee for their continued interest in natural 
resources management.
    S. 37, the Forest Jobs and Recreation Act of 2013 would 
direct the Secretary of Agriculture to develop and implement 
forest and watershed restoration projects on 70,000 acres of 
the Beaverhead-Deerlodge National Forest and 30,000 acres of 
the Kootenai National Forest within 15 years of enactment.
    The bill describes treatment methods, annual acreage 
targets, standardized criteria to prioritize areas for 
restoration, and hazardous fuels reduction projects.
    It also requires consultation with an advisory committee or 
collaborative group for each restoration project implemented, 
and calls for monitoring.
    The bill designates 24 wilderness areas totaling over 
666,000 acres, 6 recreation areas totaling over 289,000 acres, 
and 3 special management areas of over 80,000 acres.
    The administration supports S. 37 and looks forward to 
working with the committee and sponsor on the bill to develop 
modifications that could provide greater opportunities to 
accomplish the shared goals of restoration, recreation, and 
economic development.
    S. 364, the Rocky Mountain Heritage Act, would establish 
the Rocky Mountain Front conservation management area in 
Montana. The department supports the designation and 
establishment of the Rocky Mountain Front Heritage Act of 2013. 
S. 364 would address noxious weeds, nonmotorized recreation, 
road construction and decommissioning, and designate additions 
to the National Wilderness Preservation system for the Bob 
Marshall and Scapegoat Wilderness. We would like to work with 
the sponsor and the committee to define and clarify questions 
of scope and timing for noxious weed management and the 
nonmotorized recreation plans.
    S. 509, the Fruit Heights Land Conveyance Act, would 
require the Secretary of Agriculture to convey without 
consideration approximately 101 acres of land from the Uinta-
Wasatch-Cache National Forest in Fruit Heights City, Utah, for 
public purposes.
    While supportive of the city's desire to expand public 
purposes, the department does not support S. 509. It is 
longstanding policy that the United States receive market value 
for any conveyance of National Forest system land.
    The parcel to be conveyed was purchased by the United 
States in 2002 for $3.2 million for the purposes of securing an 
important North-South route of the Bonneville Shoreline Trail 
and to protect valuable winter range for mule deer. We would 
like to work with the bill sponsors, Fruit Heights City, and 
the committee to explore alternatives to this conveyance 
without consideration to achieve the goals of the city.
    S. 1300, the Stewardship Contracting Reauthorization and 
Improvement Act, would repeal the existing stewardship 
contracting authority in Section 347 of the Department of 
Interior and Related Agencies Appropriation Act of 1999 and 
replace it with a provision that would be added to the Healthy 
Forest Restoration Act of 2003. The Forest Service supports 
reauthorization of stewardship contracting and could support S. 
1300, if amended.
    The legislation would reauthorize stewardship contracting 
for 10 years and provide authority that is substantially the 
same as the existing authority with a few exceptions. The bill 
contains new authority that would clarify a contracting 
procedure, modify a requirement on potential cancellations, 
modify fire liability, and provide flexibility and offset 
funding.
    Stewardship contracting is a critical tool that allows the 
Forest Service to more efficiently complete restoration 
activities. The Forest Service supports efforts to increase the 
amount of forest restoration work on National Forest System 
lands, and we would like to work with the committee on several 
aspects of the language, including the offset for stewardship 
contracts and agreements in this bill, cancelation costs, and 
fire liability.
    S. 1301, the Oregon Eastside Forest Restoration Act of 
2013, would provide for restoration of forest landscapes and 
management on National Forests in the Eastside Forest in the 
State of Oregon. The administration supports S. 1301, and we 
want to continue to work with the committee and chairman on 
some aspects of this legislation.
    This legislation would authorize the Secretary to select 
all or part of one or more National Forests in Oregon and the 
Secretary would then be directed to carry out landscape-scale 
planning, prioritize vegetation treatments, and hazardous fuels 
reduction.
    There are numerous concepts in the legislation that the 
department strongly supports, including expanding collaborative 
restoration efforts, efficient implementation of the National 
Environmental Policy Act, greater dialog over areas of conflict 
prior to decision, and monitoring to track our results on the 
ground.
    We believe we are well-positioned to meet the intent of the 
bill.
    H.R. 404 would amend the Washington State Wilderness Act of 
1984 to allow for the operation and maintenance of the Green 
Mountain Lookout. The department supports this bill.
    This legislation provides sufficient latitude to the 
Secretary of Agriculture to consider appropriate management 
strategies for the future, including removal of the lookout to 
a different location if conditions of the facility or use in 
the area warrant such action.
    H.R. 862 is a bill designated to correct an erroneous 
private survey on the Coconino National Forest in Arizona. The 
department supports this bill.
    The bill provides a flat rate of compensation for land to 
be conveyed rather than the market value of the property. We 
would like to work with the sponsor and the committee on this 
issue, but otherwise, it's a great efficiency for us.
    Finally, the Idaho Wilderness Water Resources Act, the 
department continues to support the objectives of this 
legislation to assure the permitting of land management of the 
water facilities within the Frank Church Wilderness.
    This concludes my statement, and I would be pleased to 
answer any questions for you.
    [The prepared statement of Ms. Weldon follows:]

  Prepared Statement of Leslie Weldon, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture
                                on s. 37
    Mr. Chairman, Members of the Committee, I am Leslie Weldon, Deputy 
Chief, National Forest System, U.S. Forest Service, United States 
Department Of Agriculture. Thank you for the opportunity to share the 
Department of Agriculture's views on S. 37, the `Forest Jobs and 
Recreation Act of 2013.'
    S. 37 directs the Secretary of Agriculture to develop and implement 
forest and watershed restoration projects on 70,000 acres of the 
Beaverhead-Deerlodge National Forest and 30,000 acres of the Kootenai 
National Forest within 15 years of enactment. The bill prescribes 
treatment methods, annual acreage targets, and standardized criteria to 
prioritize areas for restoration and hazardous fuel reduction projects. 
It also requires consultation with an advisory committee or 
collaborative group for each restoration project implemented by the 
Secretary, and calls for a monitoring report every five years. The bill 
designates twenty-four wilderness areas totaling approximately 666,260 
acres, six recreation areas totaling approximately 288,780 acres, and 
three special management areas totaling approximately 80,720 acres. 
Some of the designations apply to lands managed by the Bureau of Land 
Management and we defer to the Department of the Interior on those 
provisions.
    The Department (USDA) supports S. 37 and looks forward to 
continuing to work with the Committee and Sponsor to develop 
modifications to the bill that could provide greater opportunities to 
accomplish the shared goals of restoration, recreation and economic 
development.
    The concepts embodied in this legislation, collaboratively 
developed landscape scale projects, increased use of stewardship 
contracting, and the importance of a viable forest products industry in 
restoring ecosystems and economies are fundamentally sound. USDA does 
have reservations about legislating forest management decisions and 
would hope that the work the Forest Service is doing to increase the 
pace and scale of forest restoration and management of the National 
Forests will make this type of legislation unnecessary in the future. 
In fact, the Forest Service is currently engaged in numerous programs 
and activities on the National Forests of Montana and around the nation 
that embrace the concepts in this bill.
    Examples of the work we are carrying out in the spirit of this 
legislation are underway as large-scale restoration projects on the 
national forests of Montana include: the Larry Bass Stewardship Project 
on the Bitterroot National Forest where we are completing hazardous 
fuel reduction work and are re-investing stewardship receipts to 
accomplish hazardous fuel/bark beetle work within and around a popular 
ski area on the forest; Sparring Bulls and Young Dodge, two large 
landscape projects on the Kootenai National Forest developed with a 
local collaborative group; and the Southwestern Crown of the Continent 
project, which will treat close to 200,000 acres on the Lolo, Flathead 
and Helena National Forests with funding provided under the 
Collaborative Forest Landscape Restoration Program.
    Planned projects are increasingly focused on large landscape 
ecosystems to address shared issues across forest boundaries. For 
example, the Boulder Vegetation Project and a complex of projects 
planned on the Helena National Forest that focus on bark beetle 
infestations occurring on the two forests.
    Efforts such as these have helped the agency and stakeholders gain 
experience in identifying the factors necessary for the success of 
large-scale restoration projects, and I acknowledge the Senator's 
incorporation of their input into this legislation. I offer our 
continued support for further collaboration on addressing remaining 
concerns to ensure that it can serve as a model for similar efforts 
elsewhere.
    We recognize that the proposed bill is the product of a 
collaborative effort. Such efforts are critically important to 
increasing public support for needed forest management activities, 
particularly in light of the bark beetle crisis facing Montana and 
other western states. We believe these efforts can significantly 
advance forest restoration, reduce litigation surrounding restoration 
where parties are willing to collaborate, and make it easier to provide 
jobs and opportunities in the forest industry for rural communities. 
While we have seen significant successes from collaboration in some 
parts of the country, there are areas where groups are not interested 
in collaboration and continue to use appeals and litigation as methods 
to delay or stop forest treatments that restore resilient forests, 
reduce severe wildfire potential and other objectives. Montana in 
particular continues to see substantial litigation activity.
    As noted above, USDA is concerned about legislating forest 
management direction or specific treatment levels on a site-specific 
basis. USDA wants to work with the Committee to ensure that this does 
not negatively impact other Forest Service priorities in Region 1 or 
draw important resources from priority work on other units of the 
National Forest System. We also would like to work with the Committee 
and sponsor on other aspects of the bill such as defining mechanical 
treatments, establishing reporting requirements, and provisions 
effecting other funds and road-density standards found in Title I.
    Regarding the land designations in Title II that pertain to lands 
under the jurisdiction of the Forest Service, we support the wilderness 
recommendations made in each Forest's land and resource management plan 
given the depth of analysis and public collaboration that goes into 
them. Regarding the input from the Department that the Senator has 
incorporated, there are two items in S. 37 for which I would like to 
express the Department's appreciation in particular: (1) the 
adjustments to wilderness area designations in Title II, which more 
closely reflect the extensive collaboration, analysis and resulting 
recommendations of the Beaverhead-Deerlodge 2009 Forest Plan and other 
forest plans; and (2) the incorporation of the CFR 212.1 definitions of 
``designated road, trail or area'' in the bill provides for consistency 
of implementation.
    In closing, I want to thank Senator Tester once again for his 
strong commitment to Montana's communities and natural resources. We 
appreciate the close work of the Senator's staff with the Forest 
Service to refine legislation that would provide a full suite of 
significant benefits for the people, economy, and forests of Montana 
and the nation. The continuing commitment to bring diverse interests 
together to find solutions that provide a context for restoration, 
renewal, and sustainability of public landscapes and to foster healthy 
rural economies is evident in the legislation being considered by this 
Committee today.
    We want to underscore our commitment to the continuing 
collaboration with the Senator and his staff, the Committee, and all 
interested stakeholders in an open, inclusive and transparent manner to 
provide the best land stewardship for our National Forest System Lands.
    This concludes my prepared statement, and I would be pleased to 
answer any questions you may have.
                               on s. 364
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today and provide the Department of 
Agriculture's views regarding S. 364, the ``Rocky Mountain Front 
Heritage Act of 2013'', which would establish The Rocky Mountain Front 
Conservation Management Area in Montana.
    The Department supports S. 364 and would like to work with the 
Committee to define and clarify questions of scope and timing for the 
noxious weed management and the non-motorized recreation opportunities.
    The Rocky Mountain Front area of Montana on the Lewis and Clark 
National Forest lies just to the south of Glacier National Park and the 
Blackfeet Indian Reservation. It is an area where the plains meet the 
great continental divide. The area is marked by spectacular scenery and 
lush grasslands and that is home to a broad range of Montana's fauna 
and flora. The west side of the area is adjacent to the 1.5 million 
acre Bob Marshall Wilderness Complex most of which was designated by 
the original 1964 Wilderness Act. The east side of the area is bordered 
by vast private ranchlands that have helped define Montana's western 
heritage.
    S. 364 would designate approximately 195,000 acres of Federal land 
managed by the Forest Service and approximately 13,000 acres of Federal 
land managed by the Bureau of Land Management (BLM) as the Rocky 
Mountain Front Conservation Management Area (CMA). The bill would also 
designate additions to the National Wilderness Preservation System of 
approximately 50,400 acres to the Bob Marshall Wilderness and 
approximately 16,700 acres to the Scapegoat Wilderness; both areas 
would be managed by the Forest Service. The Department defers to the 
Department of the Interior on the designation of lands managed by the 
Bureau of Land Management (BLM).
    The Rocky Mountain Front CMA would be managed to conserve, protect, 
and enhance its recreation, scenic, historical, cultural, fish, 
wildlife, roadless, and ecological values. Within the CMA, S. 364 would 
permit the use of motorized vehicles only on existing roads, motorized 
trails and designated areas. S. 364 would allow for the construction of 
temporary roads as part of a vegetation management project in any 
portion of the CMA not more than 1/4 mile from designated roads. The 
bill also would authorize the use of motorized vehicles for 
administrative purposes including noxious weed eradication or grazing 
management. Livestock grazing would continue within the Conservation 
Area and Wilderness Areas where established prior to the date of 
enactment.
    S. 364 would require the Secretary to prepare a comprehensive 
management strategy for the Rocky Mountain Ranger District on the Lewis 
and Clark National Forest to prevent, control, and eradicate noxious 
weeds. The Secretary also would be required to conduct a study to 
improve non-motorized recreation trail opportunities.
    For decades, the Forest Service has worked in partnership with 
landowners to protect the economic and social value of the land 
considered for designation as the CMA. There are 21 Federal land 
grazing allotments in the CMA. The landscape also provides some of the 
best backcountry recreation experiences in the world. Because of the 
popularity of the area, Federal and private land managers have realized 
that there must be specific management emphasis placed on how the lands 
are used and protected. As more people enjoy and use this area, 
influxes of noxious weeds have occurred that could change the native 
ecosystem structure and function and seriously impact the private 
ranches. S. 364 calls for measures that would direct Federal agencies 
to work with State and private organizations to implement projects that 
concentrate on the prevention, control and eradication of invasive 
plants such as spotted knapweed (Centaurea maculosa Lam.) that are 
threatening to change the ecosystem. The Lewis and Clark National 
Forest routinely works with other agencies and land owners to address 
noxious and invasive weed concerns. The Lewis and Clark National Forest 
is in the process of developing a memorandum of understanding with the 
U. S. Department of Agriculture Natural Resources and Conservation 
Service (NRCS) that addresses how the agencies will work together 
regarding noxious weed control measures on the interface between 
private and Federal lands.
    The Department supports the intent described in the bill to address 
noxious weeds. The Department also supports the National Forest System 
lands identified for motorized and non-motorized recreation use, 
including mountain biking, in the conservation areas. The provisions in 
S. 364 are consistent with the current travel management plan for the 
Rocky Mountain Ranger District. The travel management plan was approved 
by the Lewis and Clark National Forest Supervisor in October of 2007 
after extensive public participation. Approximately 67,000 acres of 
land are identified in the forest plan for the Lewis and Clark as 
either recommended to Congress for wilderness designation or for 
further study for their potential as wilderness. The Department 
supports the wilderness designations included in this bill.
    The Department recognizes the management of vegetation along 
current motorized forest roads is an important component of this bill. 
Public safety is an important consideration in an area that is impacted 
by mountain pine beetle, which has created physical risk to the 
roadways and possible increased fire risk due to ignitions from road 
users. The Beaver-Willow Road, a previously established road, crosses 
through the Bear-Marshall-Scapegoat-Swan inventoried roadless area. As 
we understand the bill, the road's location in an inventoried roadless 
area would not preclude timber harvest within 1/4 mile of the Beaver-
Willow Road.
                               on s. 404
    S. 404, ``To Preserve the Green Mountain Lookout in the Glacier 
Peak Wilderness of the Mount Baker-Snowqualmie National Forest'', would 
amend the Washington State Wilderness Act of 1984 (Public Law 98-339; 
98 Stat.300; 16 U.S.C. 1131 note) by inserting language that would 
allow for the operation and maintenance of Green Mountain Lookout. The 
Department supports the bill.
    The Green Mountain Lookout represents a slice in time of the 
history of the area, and is a feature that is appreciated by many 
visitors. S.404 would provide the opportunity for future wilderness 
visitors to see how human influence has shaped our wildlands. This 
legislation provides sufficient latitude to the Secretary of 
Agriculture to consider appropriate management strategies for the 
future, including removal of the lookout to a different location if the 
condition of the facility or use in the area warrants such action.
    The Lookout was built in 1933 for fire detection on Green Mountain 
in what is now known as the Mt. Baker-Snoqualmie National Forest. In 
1968 the Glacier Peak Wilderness Area was expanded by Congress to 
include a portion of the lookout site. In 1984 Congress passed the 
Washington Wilderness Act which designated the remainder of the peak as 
wilderness. In 1988 Green Mountain lookout was listed on the National 
Register of Historic Places. The Forest Service regularly staffed the 
lookout through 1984, and subsequently it was used for fire detection 
on an as-needed basis. It was closed in 1995 due to its deteriorating 
condition which posed a safety hazard to the public.
    The 1990 Mt.Baker-Snoqualmie National Forest Land and Resource 
Management Plan (Forest Plan) designated Green Mountain Lookout as a 
special wilderness allocation that accepted the non-conforming use of 
the lookout along with direction to ``stabilize and preserve'' the 
structure. An analysis using a categorical exclusion which did not 
analyze alternatives for dealing with the lookout was prepared under 
the National Environmental Policy Act (NEPA) and a decision memo was 
completed in September 1998 which authorized the use of a helicopter 
and mechanized tools to rehabilitate the lookout. Rehabilitation 
efforts, including replacement of the deteriorated substructure, 
occurred from 1999 to 2001 with the help of grant money and the 
contribution of thousands of volunteer hours. Heavy snow during the 
winter of 2002 resulted in damage to the new foundation. Later that 
year, after consultation with the Washington State Historic 
Preservation Officer, the Forest Service authorized the dismantling and 
removal of the structure to a temporary site outside of Wilderness on 
the Mt. Baker-Snoqualmie National Forest. In doing so, each piece was 
identified and individually tagged so that it could be reassembled and 
restored to its exact original location and position, retaining those 
features which convey its historical significance. All work on the 
lookout was done in conformance with the Secretary of the Interior's 
Standards and Guidelines for Rehabilitation of Historic Properties.
    Many volunteer workshops over the years repaired and custom-
manufactured missing parts to the original specifications. The lookout 
foundation was prepared on-site in 2009 and the disassembled lookout 
was flown back to Green Mountain and reassembled on the new 
substructure.
    A complaint was filed in the United States District Court by 
Wilderness Watch during the fall of 2010, alleging the repairs violated 
the NEPA and the Wilderness Act. In March, 2012, the District Court 
issued a decision in favor of the plaintiff. The Court determined that 
the Forest Service failed to justify an exception to prohibited conduct 
in a wilderness area with the 2002 decision to rehabilitate and 
reconstruct the lookout using helicopters and mechanized tools. The 
Court also found a NEPA violation based on the failure to conduct an 
Environmental Assessment, an Environmental Impact Statement, or, at a 
minimum, a reassessment of whether a categorical exclusion intended for 
repair and maintenance of recreation sites and facilities was 
applicable to the plans to dismantle, restore, and reconstruct the 
lookout in a wilderness area. In September 2012, the Court directed the 
Forest Service to determine how to move forward.
    The Forest Service is currently implementing the Court's order. The 
initial steps have been taken to prepare the plan and draft an 
Environmental Impact Statement that will determine the specific action 
to be taken. A final decision is expected by June 2014. Should the bill 
become law, the Forest Service will use the planning and EIS process to 
consider appropriate management strategies for the future, including 
removal of the lookout to a different location if the condition of the 
facility or use in the wilderness area warrants such action.
                               on s. 509
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify on S.509, the `Fruit Heights Land Conveyance 
Act.'
    S. 509 would require the Secretary of Agriculture to convey without 
consideration approximately 101 acres of land from the Uinta-Wasatch-
Cache National Forest to Fruit Heights City, Utah for public purposes. 
While supportive of the City's desire to expand for public purposes, 
the Department does not support S. 509.
    It is long standing policy that the United States receive market 
value for the sale, exchange, or use of National Forest System land. 
This policy is well established in law, including the Independent 
Offices Appropriation Act (31 U.S.C. 9701), section 102(9) of the 
Federal Land Policy and Management Act (43 U.S.C. 1701), as well as 
numerous land exchange authorities.
    The parcel to be conveyed was purchased by the United States in 
2002 using appropriated Land and Water Conservation Act funds 
appropriated for the purpose of securing an important North-South route 
for the Bonneville Shoreline Trail and to protect valuable winter range 
for mule deer. The land was acquired from a willing seller at market 
value for $3,244,000 with the assistance of the Trust for Public Land.
    The parcel was conveyed to the United States subject to valid 
existing rights, and the conveyance of the parcel by the United States 
and subsequent development by the City would be subject to the same 
rights. Specifically, the mineral estate is owned by a third party and 
there are easements for power lines, two buried irrigation pipelines, 
and access easements for multiple private homes.
    Under S.509, the conveyance would also be conditioned upon the City 
using the conveyed land for public purposes. If the land is ever used 
for anything other than public purposes, the land would revert to the 
United States at the election of the Secretary. Public purposes are not 
defined and could cover a vast array of land uses including municipal 
waste treatment facilities and industrial parks. This lack of public 
purpose definition could cause future management conflicts with 
adjacent National Forest System land.
    Although the Department does not support S.509, we are willing to 
work with the Bill sponsors, Fruit Heights City, and the Committee, to 
explore alternatives to this conveyance without consideration to 
achieve the goals of the City.
    This concludes my statement and I would be happy to answer any 
questions you may have.
                               on s. 1300
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
(USDA) regarding S. 1300, the ``Stewardship Contracting Reauthorization 
and Improvement Act.'' The Forest Service supports reauthorization of 
stewardship contracting and could support the bill if amended.
    Stewardship contracting is a critical tool that allows the Forest 
Service to more efficiently complete restoration activities. 
Reauthorizing stewardship contracting authority and expanding the use 
of this tool are crucial to our ability to restore landscapes 
collaboratively. The authority allows the government to carry out 
restoration work at a reduced cost by offsetting the value of the 
services received with the value of forest products removed. In fiscal 
year 2012, approximately 25 percent of all timber volume sold on 
National Forest System lands was under a stewardship contract. The 
stewardship contracting authority has proved to be a valuable tool in 
many locations to implement restoration activities and meet multiple 
land management objectives including hazardous fuels reduction, 
wildlife habitat improvement, forest health improvement, and non-native 
invasive plant species control.
    S.1300 would repeal the existing stewardship contracting authority 
in section 347 of the Department of the Interior and Related Agencies 
Appropriations Act, 1999 and replace it with a provision that would be 
added to the Healthy Forests Restoration Act of 2003. That provision 
would reauthorize stewardship contracting for 10 years and provide 
authority that is substantively the same as the existing authority with 
a few exceptions. The bill contains new authority that would:

  <bullet> Clarify the contracting procedure for stewardship 
        contracting by making clear that the various statutes that 
        apply to normal Federal procurement actions do not apply these 
        activities;
  <bullet> Modify the requirement to obligate funds to cover any 
        potential cancellation or termination costs to allow the 
        obligation of funds in economically or programmatically viable 
        stages, providing advance notification of Congress and OMB;
  <bullet> Require the Chief and Director to modify the fire liability 
        provisions for all stewardship contracts and agreements to 
        mirror the fire liability provisions currently contained in the 
        Forest Service Integrated Resource Timber Contract and Forest 
        Service Timber Sale contracts which limit the contractor's 
        liability for non-negligent fire. Allow the Chief and the 
        Director to use excess receipts to satisfy outstanding 
        liabilities for cancelled stewardship agreements and contracts; 
        and
  <bullet> Allow the Chief and Director to offset spending on 
        stewardship contracting using any additional amounts that may 
        be made available to the Chief or the Director for the 
        applicable fiscal year.

    Consistent with the purposes of S. 1300, the Forest Service 
supports efforts to increase the amount of forest restoration work on 
NFS lands. However, the Forest Service would like to work with the 
Committee on several aspects of the language related to the offset for 
stewardship contracts and agreements in this bill as well as to rethink 
provisions that would waive current acquisition laws and practices and 
not require potential termination and cancellation costs to be fully 
funded.
    I want to thank the Committee for its interest, leadership, and 
commitment to stewardship contracting, our national forests and their 
surrounding communities. This concludes my prepared statement and I 
would be pleased to answer any questions you may have.
                               on s. 1301
    Mr. Chairman, and Members of the Subcommittee, I am Leslie Weldon, 
Deputy Chief for the U.S. Forest Service. Thank you for the opportunity 
to share the Administration's views on S. 1301, Oregon Eastside Forests 
Restoration, Old Growth Protection and Jobs Act of 2013. We would like 
to express our appreciation to Chairman Wyden for the leadership, 
energy and effort that went into developing this legislation and for 
his work to bring diverse interests together.
    The Administration supports S. 1301; however, we are concerned that 
the agency may not have the capacity required to achieve the management 
targets prescribed in the bill. We want to continue to work with the 
Committee and the Chairman on this and other issues. USDA also has 
reservations about legislating forest management decisions and would 
hope that the work the Forest Service is doing to increase the pace and 
scale of forest restoration and management of the National Forests will 
make this type of legislation unnecessary in the future.
    There are numerous concepts in the legislation that the Department 
strongly supports including: conducting assessments at a broad 
landscape scale to focus our efforts to achieve restoration results on 
the ground, reducing our road system to what is needed, maintaining a 
much needed wood products industry and infrastructure, promoting 
sustainable use of biomass as an energy source, and collaborating with 
interested parties. We recognize the need to substantially increase the 
number of treatment acres for ecological reasons. We look forward to 
working with the Chairman and the Committee to ensure good alignment 
between the legislation and our current efforts to achieve our common 
goal of restoration that provides ecological, social and economic 
benefits.
    S. 1301 would authorize the Secretary to select all or part of one 
or more National Forests in Oregon as part of the Initiative. The 
provisions of the bill would apply to the covered area selected by the 
Secretary for a period of 15 years. In the covered area, the Secretary 
would be directed to seek accomplishment of certain land management 
goals, consider opportunities to carry out certain objectives, use 
landscape scale planning, prioritize vegetative management and 
hazardous fuel reduction to achieve performance goals, and carry out 
projects that would, to the maximum extent practicable, mechanically 
treat not less than 60,000 acres in the first fiscal year following 
enactment, not less than 80,000 acres in the second fiscal year; and 
not less than 100,000 acres in each of the subsequent years.
    S. 1301 also would direct the Secretary to delineate areas of 
aquatic and riparian resources in the covered area and would provide 
that vegetative management projects in the delineated areas protect and 
restore those resources and comply with aquatic and riparian protection 
requirements in the existing land management plans. The Secretary would 
be directed to have an advisory panel prepare a restoration report of 
the covered area to establish land management goals and carry out 
ecological restoration projects including projects at a landscape 
scale.
    In implementing these provisions, the Secretary would seek advice 
from the scientific advisory panel established under the bill. The 
Secretary also would consult with collaborative groups. On National 
Forests in Oregon and Washington, we are currently engaged in an 
eastside restoration strategy and are engaged in numerous efforts to 
encourage and expand programs and activities that embrace many of the 
concepts in this legislation.
    When Secretary Vilsack articulated his vision for America's 
forests, he underscored the overriding importance of forest restoration 
by calling for complete commitment to restoration. He also highlighted 
the need for pursuing an ``all-lands'' approach to forest restoration 
and for close coordination with other landowners to encourage 
collaborative solutions.
    To that end, the President's FY 14 budget proposal includes a $757 
million Integrated Resource Restoration line-item. This integrated 
funding approach will allow the Forest Service to apply the landscape 
scale concept, similar to the landscape scale efforts envisioned in 
this bill, across the entire National Forest System. In addition, the 
FY 14 budget provides $40 million, the full authorized amount, for the 
Collaborative Forest Landscape Restoration Program (CFLRP).
    Three notable and selected CFLRP projects in eastern Oregon include 
the Skyline Project, the Lakeview Stewardship Project, and the Southern 
Blue Mtn. Projects. These three projects represent over 1,600,000 acres 
of landscapes in eastern Oregon in desperate need of restoration work, 
which has begun. On all three projects, the Forest Service is working 
with the associated collaboratives to prioritize accomplishment of 
restoration work. CFLRP funding for these three projects is over $5 
million dollars per year for the next 8 years. This funding is combined 
with matching National Forest System funding to increase the pace of 
restoration implementation in the project areas and doubles the amount 
of acres we can restore.
    The Forest Service is very interested in expanding collaborative 
restoration efforts within the State of Oregon and throughout the 
country. We are focusing on advancing several principles we believe are 
paramount to accomplishing restoration on the entire National Forest 
System. These principles include collaboration with diverse 
stakeholders, efficient implementation of the National Environmental 
Policy Act, greater dialogue areas of conflict prior to the decision, 
ensuring opportunities for local contractors, expansion of the use of 
stewardship contracting if reauthorized, and monitoring to track our 
results on the ground.
    As Secretary Vilsack has noted previously, the Forest Service has 
reservations about legislating specific treatment levels and other 
aspects of our forest plans and identified several items of concern 
with the legislation. However, the Senator's office, Committee staff, 
and the Forest Service worked together and made significant progress in 
addressing these concerns. The Agency has a meaningful national 
approach to management of the national forests that takes into account 
local conditions and circumstances through the development and 
implementation of Land and Resource Management Plans. Achieving 
performance levels proposed in this bill may be outside agency current 
capacity. USDA wants to ensure that this does not negatively impact 
other Forest Service priorities in Region 6 as well as shift funds from 
other areas of the country where high priority work is also underway 
and important to achieve. In addition, specific levels of treatment may 
also result in unrealistic expectations on the part of the communities 
and forest product stakeholders that the agency would accomplish the 
quantity of treatment required. In addition, we have various 
corrections, clarifications, and modifications to suggest and would be 
happy to work with the Committee staff to address these matters. They 
include the number of forests covered by this legislation, suggested 
planning area acres thresholds, the setting of age limits for harvest, 
compatibility with PACfish and Infish, Environmental Impact Statement 
timelines, and budgets.
    We have a strong interest in accelerating our restoration 
activities to achieve resilient landscapes and ecologically and 
economically healthy communities and we look forward to working with 
you to achieve these common objectives.
    I want to again thank Chairman Wyden for his leadership and strong 
commitment to Oregon's national forests, their surrounding communities, 
and forest products infrastructure. I look forward to working with the 
Senator, his staff, and the Committee, and all interested stakeholders 
to help ensure sustainable communities and provide the best land 
stewardship for our national forests. This concludes my prepared 
statement and I would be pleased to answer any questions you may have.
                              on h.r. 862
    Chairman Manchin and members of the Subcommittee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views on H.R. 862, a bill designed to correct an 
erroneous, private survey on the Coconino National Forest in Arizona.
    The Department supports this bill.
    In 1960-61, privately contracted surveyors surveyed two sections of 
land in what is now known as the Mountainaire Subdivision, which 
largely abuts the Coconino National Forest. Both surveys were found to 
be inaccurate when the Bureau of Land Management conducted a survey in 
2007. The BLM survey correctly re-established the boundary of the 
National Forest System lands.
    Because of the erroneous private surveys, approximately 19 parcels 
totaling 2.67 acres of National Forest System land now have structures 
built on them. Although the Forest Service has authority under the 
Small Tracts Act (Public Law 97-465) to sell this land to the 
homeowners, H.R. 862 would more quickly and efficiently resolve the 
issue with all property owners at the same time.
    Section 1(c) of the bill would provide for consideration in a fixed 
amount of $20,000. To ensure that appropriate compensation for the land 
to be conveyed is recovered on behalf of the American taxpayer, an 
appraisal should be done consistent with Federal appraisal standards 
and the homeowner would pay the appraised value. The bill should also 
provide that the homeowner should bear other administrative costs 
associated with the conveyance.
    I would be happy to answer any questions you may have.
                              on h.r. 876
    Mr. Chairman, and Members of the Committee, thank you for the 
opportunity to share the Administration's views on H.R. 876, the `Idaho 
Wilderness Water Resources Protection Act.'
    The U.S. Forest Service supports H.R. 876. The bill authorizes the 
issuance of a special use permit for the continued use of water 
storage, transport, or diversion facility located on National Forest 
System lands in the Frank Church-River of No Return Wilderness and the 
Selway-Bitterroot Wilderness in Idaho. The permits will only be issued 
to the water system owners of the water systems identified within these 
two wilderness areas and if certain conditions are met. We would like 
to work with the committee and the sponsor to locate on a map the water 
facilities authorized under this bill.
    Currently, there are over 20 water developments within the Frank 
Church-River of No Return and Selway-Bitterroot Wilderness Areas that 
predate establishment of the wilderness, in some cases by decades.
    These developments include hydropower developments, irrigation, and 
domestic water uses. The legislation establishing both wilderness areas 
did not address these pre-existing water developments. H.R. 876 would 
direct the Forest Service to issue special use authorizations, if the 
Secretary makes the following determinations: the facility was in 
existence when the wilderness area on which the facility is located was 
designated as part of the National Wilderness Preservation System; the 
facility has been in substantially continuous use to deliver water for 
the beneficial use on the owner's non-Federal land since the date of 
designation; the owner of the facility has a valid water right for use 
of the water on the owner's non-Federal land under Idaho State law, 
with a priority date that pre-dates the date of designation; and it is 
not practicable or feasible to relocate the facility outside the 
wilderness and achieve the continued beneficial use of water on non-
Federal land. We understand that the bill does not create any rights 
beyond what is provided in the special use permit and that both 
maintenance responsibilities and liabilities continue with the permit 
holder, and not the Federal government.
    This concludes my prepared statement and I would be pleased to 
answer any questions you may have.

    Senator Manchin. Thank you.
    At this time, I will start the questioning and then we'll 
go back and forth through our Senators up here for further 
questions.
    First of all, this will be to Ms. Katherine Hammack.
    You mentioned that the Army has significant concerns with 
language in Senator Baucus's bill--that's S. 1169--relating to 
the activities of the limestone mine operator. I understand 
there's an existing agreement that specifies how the mine and 
the military training will coexist.
    Why is there now a conflict? Is the current operating 
agreement with the mine no longer adequate?
    Also, I think in this question, do you know if the Governor 
of the State of Montana is an agreement with the proposed 
withdrawal language from the Montana National Guard, since the 
Governor would be the commander in chief for the National Guard 
in Montana.
    Ms. Hammack. In regards to the first question, we are in 
support of the existing mining claims in the existing 
agreement. Unfortunately, the language expands that to claims 
that have been closed or retired, and allows additional claims 
to be allowed. So it goes beyond the existing mining claims.
    So that is our objection. It's going beyond the existing 
agreement, the existing mining claims, essentially opens up the 
whole area.
    Senator Manchin. Can I ask a question, the limestone mining 
in that region, is it by law required to reclaim that land for 
use? I would think if it would be reclaimed properly, you would 
still have adequate use of it.
    Ms. Hammack. The concern in the legislation is it opens up 
the aperture beyond the existing agreements, which have been in 
place for many years and are regularly reviewed.
    Senator Manchin. I mean, the land that they've already 
mined, is it usable after they get done with it?
    Ms. Hammack. There is an agreement by which it is restored 
to a point where there can be multiple uses of the land whether 
it is by the Army, grazing, timber, or other areas.
    Senator Manchin. So there's reclamation. Is reclamation 
part of this?
    Ms. Hammack. That is my understanding, yes, sir.
    Senator Manchin. Do you know if the Governor is in 
agreement?
    Ms. Hammack. My understanding is that the Governor is in 
agreement with the withdrawals as specified in S. 1309, which 
is the administration's proposal.
    Senator Manchin. This question will be to Mr. Natsuhara. In 
1309, the military land withdrawals, are the military land 
withdrawals for the China Lake and Chocolate Mountain sites 
simply renewals of existing authority or are they changing 
current uses?
    Mr. Natsuhara. They are essentially the same. There is some 
additional training, the number of evolution, but the training 
and testing are the same in both locations.
    Senator Manchin. Also, you discuss the proposal of new 
military land withdrawal at Twentynine Palms to be used for 
marine field training and noted the area is also popular for 
off-road vehicle recreation.
    What steps are you taking to avoid conflict between the 
military and the recreational use?
    Mr. Natsuhara. We work very closely with the public through 
the Environmental Impact Statement process. In fact, the 
alternative we selected was a new alternative developed during 
that process with the off-road vehicle community, and over a 
third of the land withdrawals that we're requesting would be 
available for 10 months of the year. So it would be shared to 
use with them.
    Senator Manchin. My final question goes to Ms. Leslie 
Weldon. On S. 37 and S. 364, I have a question about those 2 
Montana bills, the Forest Jobs and Recreation Act and the Rocky 
Mountain Front bill.
    What will be the effect of the wilderness and conservation 
designations on existing hunting and fishing uses on those 
National Forest lands?
    Ms. Weldon. Thank you. The designation of those areas as 
wilderness will allow hunting and fishing to continue. That 
hunting and fishing----
    Senator Manchin. Is there agreement for that, because 
usually, with the wilderness designation, that doesn't happen?
    Ms. Weldon. What is interesting about these areas is they 
have already been through a public process with the S. 37 that 
have them as part of forest plans. The difference would be just 
the ability and type of access, but these are already 
backcountry areas. So we don't think there would be much 
difference.
    Senator Manchin. So, basically, the hunters and sportsmen 
will still have access?
    Ms. Weldon. Yes.
    Senator Manchin. Be able to use the lands being used?
    Ms. Weldon. Yes.
    Senator Manchin. Are they able to do any habitat 
rehabilitation, or is it going to be all natural?
    Ms. Weldon. Within wilderness, we would favor more natural 
through wildfire, compared with other more intensive 
mechanical-type treatments.
    Senator Manchin. OK, I have no further questions at this 
time.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman, and I thank the 
witnesses.
    Mr. Farquhar, with regard to S. 1300, you mentioned that 
you would support, if there were a couple of amendments to the 
legislation. Can you describe those? What do you need in order 
for the BLM to support?
    Mr. Farquhar. Senator Flake, the stewardship contracting 
tools that are provided right now don't have the same ceiling 
provisions, and there's kind of a technical budget issue there 
that we're concerned about in the administration.
    The BLM actually doesn't exercise that very often itself, 
because our contracts are smaller and not over as long a term. 
But we do think, along with the Forest Service, that that 
provision would need to be changed.
    Senator Flake. OK, assuming that that could rectified, then 
you would be able to support?
    Mr. Farquhar. Senator, we're very enthusiastic about 
stewardship contracting, very grateful that you've introduced 
this bill.
    Senator Flake. OK, thank you.
    Ms. Weldon, can you speak to that as well? I know there are 
concerns for the offsets, but we have to deal with that anyway 
here. So assuming that that can be fixed, you'd be OK as well?
    Ms. Weldon. Yes, we are quite enthusiastic about the 
prospect of having this reauthorized for 10 years. We believe 
that there's some opportunity for us to work through the issues 
that are there, and we would really appreciate continuing to 
work with you on those.
    Senator Flake. Thank you. I know that there was some 
concern on the ceiling.
    Ms. Weldon. Yes.
    Senator Flake. Flexibility there. If you look in other 
areas, flexibility in this ceiling is used in the Department of 
Defense as well.
    In fact, in 1998, Jack Lew, who was then acting OMB 
Director, issued a memorandum encouraging agencies to look at 
cancellation ceiling flexibility to enter into these contracts 
with energy efficiency.
    They said that out-year costs and potential cancellation 
charges are not required to be financed upfront. So what we're 
looking at here, which I think everyone has identified as a 
potential obstacle--not a potential obstacle, has been an 
obstacle, some of these long-term contracts. We see it in other 
areas or other agencies being used. So we hope that we're able 
to come to an agreement there.
    Ms. Weldon. Yes, we're very encouraged to see some other 
examples that could hopefully be used as a model here as well.
    Senator Flake. Thank you. I don't need to tell you how 
desperate we are in Arizona to----
    Ms. Weldon. Yes.
    Senator Flake [continuing]. To ramp up this process and to 
treat more acreage. We've seen over the past 10 years 2 once-
in-a-lifetime fires. We burned nearly a million acres. About a 
fourth of our entire forests in Arizona have gone up in smoke 
and more are threatened certainly unless we move ahead and go 
beyond just the wild land-urban interface but get deep into the 
forest.
    We believe that this will allow us to move more quickly, 
and we would greatly appreciate your input as we go along, and 
your support for this legislation.
    So thank you so much.
    Ms. Weldon. Thanks very much.
    Senator Manchin. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman, and I want to thank 
my colleague from Arizona as well for his work on stewardship 
contracting. That's critically important.
    I want to thank Assistant Secretary Hammack for being here 
today to provide the Department of Defense's thoughts and 
perspectives on our legislation in New Mexico, and to 
articulate why these land boundary adjustments are so important 
for the military training in the region.
    I want to say upfront that I look forward to working with 
Deputy Secretary Farquhar to address the technical issues that 
you referenced. We're more than happy to make that happen.
    This is a very important bill for southern New Mexico and, 
frankly, an important bill for our national security. So I 
appreciate the subcommittee's work today.
    Assistant Secretary Hammack, in your testimony, you kind of 
describe how the Dona Ana tank gunnery and artillery range 
complex at Fort Bliss can generate an awful lot of noise and 
vibration and dust. Can you go into a little greater detail 
about why the withdrawal is so important for the future of Fort 
Bliss and military training in the region as a whole?
    Ms. Hammack. Certainly. What we are seeing on our bases 
throughout the United States is encroachment, and encroachment 
from residential housing, from commercial enterprises can 
conflict with the training activities that occur.
    In this area on the southern boundary of Fort Bliss where 
we do a lot of our training and it is one of our national 
training centers, we are concerned that the continued 
encroachment of the city could cause additional conflict. The 
withdrawal of these lands as boundary conditions are really 
acting as a compatible use buffer. We do not have intention of 
doing training on them but preserving them from development so 
that the mission of the base can be preserved.
    Senator Heinrich. In a related question, S. 753 transfers 
jurisdiction over about 5,100 acres from the BLM to the Army, a 
little over 2,000 acres from the Army to the BLM, and then this 
buffer area, just over 35,000 acres that you referenced, and 
keeps the BLM from disposing or developing that particular 
part.
    Can you talk a little bit to the committee about why it's 
important to do these 3 things together as opposed to a more 
piecemeal approach?
    Ms. Hammack. They all have the same impact, and that's a 
very good point. The impact is buffer.
    We are not going to do training on them. We're not going to 
do live-fire training on them. But it preserves the security 
mission.
    The 5,100-acre portion that is withdrawn for the benefit of 
NASA and the NRO Aerospace Data Facility is a mission that's 
close to the boundary. We have security issues. We've already 
seen some security issues there, because of the close proximity 
to public access.
    So giving us this standoff of 5,100 acres still reserves 
the lands for use by missions that are not conflicted. So it's 
wildlife sustainment, endangered species, et cetera. But it 
gives us a physical security boundary to ensure that we don't 
have trespassers that could inhibit the mission that we are 
doing there.
    Binding these all together, they all have the same reason. 
It's a buffer that we need for the military.
    Senator Heinrich. Better stated than I could have myself, 
so thank you.
    I did want to ask, Deputy Assistant Secretary Farquhar, on 
the 35,000 acres that basically becomes a buffer under this 
legislation, would any of the current uses in that area, the 
multiple uses that exist there today under Bureau of Land 
Management management, be prohibited if this bill is passed?
    Mr. Farquhar. Senator Heinrich, I'm not aware of any uses 
that would be prohibited, but I'd rather get back to you with 
more detail and a correct answer.
    Senator Heinrich. Thank you. I appreciate your time.
    Thank you, Chairman.
    Senator Manchin. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I wanted to ask Deputy Chief Weldon, first of all, thank 
you so much for your testimony in support of S. 404. I wanted 
to just clarify.
    The Forest Service, were you looking to remove or destroy 
this lookout prior this court decision?
    Ms. Weldon. We were not. We were actually looking at 
restoring it and having it continue to occur within the area.
    Senator Cantwell. OK. Have you talked to people in the 
local community? What have they said about it?
    Ms. Weldon. There's good support for having it retained as 
a historic part of the landscape there within the wilderness.
    Senator Cantwell. OK, so if this legislation was passed 
this year, the lookout would still be preserved in that time 
period?
    Ms. Weldon. I believe we would need to finish some analysis 
to allow us to do the complete job of the restoration work we 
want to do there. But that is something that doesn't require an 
extensive NEPA process. We think it could be done relatively 
soon, but I'm not sure if it would be within the year.
    Senator Cantwell. OK, my point was if this legislation, 
404, passed by the end of the year, you wouldn't be destroying 
the lookout tower before then, is my point.
    Ms. Weldon. No, we would not.
    Senator Cantwell. OK, all right.
    Thank you, Mr. Chairman.
    Senator Manchin. Are there any more questions from the 
Senators?
    If not, we're going to in recess just for a minute. Senator 
Barrasso is coming back. He had to go to another committee 
hearing. Then he had a few questions to ask, if you could just 
remain where you are now, we'll be right back with you.
    Thank you.
    [Recess.]
    Senator Manchin. Senator Barrasso will not be able to make 
it back, so at this time, the committee stands adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Leslie Wallace to Questions From Senator Barrasso
    Question 1a. I would like to inquire about the budget and resource 
capacity for the two bills, S. 37 and S. 1301. As I stated in my 
opening, I appreciate the concern with the status quo on our forests 
and the desire to get more timber produced. I also recognize that for 
the foreseeable future the Forest Service budget will be severely 
constrained.
    In your past testimony from May 18, 2011 on S.220, a similar 
version of S. 1301, the Forest Service said:

    ``Achieving performance levels proposed in this bill is outside 
agency current capacity and could result in the shifting of funds from 
other areas of the country where high priority work is also underway 
and important to achieve.''
    Now this time your testimony changes slightly to ``may be outside 
current capacity'' and
    ``USDA wants to ensure that this does not negatively impact other 
Forest Service priorities in Region 6 as well as shift funds from other 
areas of the country . . . ''

    This language about USDA concerns also appears in your testimony 
regarding S. 37.
    It seems this is a distinction without a difference. Does the 
Forest Service still have the same basic concerns about these bills?
    Answer. Yes. Funding issues are still a concern.
    Question 1b. If these bills are signed into law, as currently 
written, does the agency have the money needed to implement all of the 
timber work without negatively impacting other priorities?
    Answer. At the current budget level, no.
    Question 1c. If increased funding is necessary but not provided by 
Congress to accomplish the performance levels in these bills, will the 
Forest Service direct funds from other forests or regions to accomplish 
them?
    Answer. It would depend on the language in the bill, and on our 
priorities as determined at the time.
    Question 1d. How will the USDA ensure that these bills don't result 
in shifting of funds from other areas of the country?
    Answer. It is true that USDA may need to shift funds from other 
areas. Depending on the language in the bill we will continue to 
evaluate needs in all national forests and allocate funds accordingly.
    Question 2. Both S. 37 and S. 1301 legislate forest management 
direction and, in some cases, specific treatment levels or harvest 
mandates that apply on a state or forest-specific basis. From your 
testimony it appears that you believe this is a poor idea.
    As a land management agency, do you support Congress legislating 
management prescriptions on a state-by-state and forest-by-forest 
basis?
    Answer. As a general rule, we don't support legislating 
prescriptions on a state- by-state or forest-by-forest basis, as new 
research and data often suggest new management approaches. In addition, 
site specific attributes need to be considered in developing optimum 
prescriptions to meet the objectives for individual analysis areas.
    Question 3a. I'd like to clarify some specifics in S. 1301 that may 
have policy implications nationwide.
    Last Congress's version of this bill would have sunset after 15 
years, this version permanently legislates management for the Eastside 
Forests including legislating diameter caps and age limits for tree 
harvest.
    Congress has never legislated diameter caps or age limits on tree 
harvest. That would be a significant new precedent.
    Does the Forest Service support legislating diameter caps on tree 
harvest?
    If yes, Will you provide me the scientific basis for this 
precedent?
    If no, Why not?
    Answer. No. Site specific attributes and best available science 
needs to be considered in developing optimum prescriptions to meet the 
objectives for individual areas.
    Question 3b. Does the Forest Service support legislating age limits 
on tree harvest?
    If yes, Will you provide me the scientific basis for this 
precedent?
    If no, Why not?
    Answer. No. Site specific attributes need to be considered in 
developing optimum prescriptions to meet the objectives for individual 
analysis areas. In addition, the age of a tree cannot be discerned with 
a visual inspection, necessitating boring of the tree, which is time 
consuming and can be harmful to the tree.
    Question 4a. Section 4(e)(2)(C)(i) references the Decision Notice 
establishing the 21'' diameter ``eastside screens'' prohibitions as an 
alternative to the 150 year old age prohibition included in Section 
4(e)(1). However, Section 4(e)(2)(C)(ii) maintains a prohibition on 
cutting any live tree over 150 years of age. Please provide the 
following information:

    What purpose does the Forest Service see for the exception to use 
the 21 ``eastside screens located at 4(e)(2)(C)(i) if it is still 
prohibited from harvesting any tree older than 21'' (150 years).
    Answer. The proposed text appears to try to give some flexibility 
to cut trees greater than 21 inches as long as they are less than 150 
years old. This would be hard to implement, though, because one cannot 
use visual inspections to determine the age of a tree, and boring trees 
can be harmful and be quite time consummg.
    Question 4b. By including a reference to the eastside screens 
decision notice in legislation, would the Forest Service be barred from 
administratively changing the eastside screens requirement in future 
forest plan revisions?
    Answer. Possibly. We need to do a more thorough legal analysis of 
this issue.
    Question 5. This year there is a new provision in S. 1301, an 
earmark carve out of 5 percent of the national funds for the `Forest 
Health-Federal Lands' budget line item under the State and Private 
Forestry appropriation which would provide approximately $2.4 million 
of national funding to just three forests in Oregon.
    How would this carve out affect other national forests and your 
program priorities nationally that receive funding from this 
appropriation program account?
    Answer. It would reduce the amount available to other regions and 
forests.
    Question 6a. S.404 is a great example of how broken our legal 
system really is with respect to implementation of environmental laws. 
In this case, it's the Wilderness Act. First, the Forest Service as I 
understand it made 65 helicopter trips to repair and restore a lookout 
tower in a wilderness. Now, the Forest Service is being told by a 
judge, who agreed with an environmentalist lawsuit, to remove the 
historic lookout tower built in 1933.
    This one example of an unintended consequence is why many people 
are so skeptical of wilderness designations. Today we have legislation 
before us to preserve a man-made historical structure that the 
Wilderness Society calls a ``local wilderness treasure.''
    Answer. The flight costs were approximately $100,000. The cost to 
rebuild the structure was approximately $108,000.
    Question 6b. How much did thelitigation cost the Forest Service? 
Were any legal fees requested to be reimbursed by the plaintiffs? If 
so, how much?
    Answer. The Forest Service does not collect data on Forest Service 
costs for litigation. For the Plaintiffs, the legalfees requested were 
$89, 392 and the final dollar amount awarded was $70,804.19.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                        Montana Forest.org,
                                                     July 26, 2013.
Hon. Ron Wyden,
Chairman, Committee on Energy & Natural Resources, 221 Dirksen Senate 
        Office Building, Washington, DC.
Hon. Lisa Murkowksi,
Ranking Member, Committee on Energy & Natural Resources, 709 Hart 
        Senate Office Building, Washington, DC.
Hon. Joe Manchin,
Chairman, Subcomittee on Public Lands, Forests & Mining, 306 Hart 
        Senate Office Building, Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands, Forests & Mining, 307 
        Dirksen Senate Office Building, Washington, DC.
    Dear Mr. Chairmen and Ranking Members,

    We write as representatives of a diverse Montana coalition who 
strongly support S. 37, Senator Tester's Forest Jobs and Recreation 
Act. Thank you for scheduling a hearing on this legislation, and we 
look forward to working with you on this important bill.
    As business owners, loggers, conservationists, sportsmen and 
sportswomen, we have worked hard to put aside our differences to ensure 
that: rural Montana has a healthy economic future, we restore fish and 
wildlife habitat, and protect some of the state's most deserving wild 
places. Collaboration is a common buzzword meaning different things to 
different people. To us, it means sitting down with our neighbors and 
sometime adversaries long enough to get to know one another and 
discover the values that we share as Montanans. It means respecting one 
another and forging a common vision for our communities' future. We 
have done this in laying the foundation for the Forest Jobs and 
Recreation Act.
    It wasn't easy. Montana's history of disputes over natural 
resources management and land protection is long and bitter. Over time, 
we've realized these fights haven't produced any winners. Our way of 
life and outdoor heritage has suffered as a result.
    The timber industry and some native trout populations have both 
been in decline and are just hanging on. Iconic elk populations in the 
state saw their vital habitat continually fractured by road building. 
Some of Montana's pristine--and popular--backcountry never got the 
protection it deserved, costing us precious wilderness quality lands. 
Passage of S. 37 moves us beyond this divisive past.
    Combining a solid plan for forest stewardship with the protection 
of key public lands will help to ensure Montana's future economic 
prosperity. Montana's outdoor heritage makes our state unique, and our 
public lands are an important economic driver. Many businesses and 
individuals come to Montana because of the high quality of life 
associated with abundant public lands and outdoor recreation, bringing 
jobs, investment, and economic development to our communities.
    As you are aware, the Forest Jobs and Recreation Act advances four 
major goals:

  <bullet> Maintain a healthy timber industry that provides wood 
        products and jobs in rural Montana communities.
  <bullet> Improve degraded but important fish and wildlife habitat.
  <bullet> Protect public land to ensure access for future generations.
  <bullet> Support a robust recreation economy including both motorized 
        and non-motorized use.

    The bill achieves these goals by:

  <bullet> Designating 677,000 of wilderness across western Montana.
  <bullet> Implementing forestry projects designed to reduce fuel loads 
        in fire-prone areas, decrease road densities, and produce wood 
        products.
  <bullet> Designating national recreation and special management areas 
        to provide a variety of outdoor recreation opportunities.

    By achieving these goals, Congress will help advance Montana's 
economic development by:

  <bullet> Providing direct jobs in the timber industry, and the 
        communities that rely on it;
  <bullet> Expanding economic opportunities through restoration 
        activities as well as increased recreation and tourism;
  <bullet> Providing a desirable place to live and work that will help 
        attract new businesses and jobs.

    This legislation will help to resolve forest management conflicts 
that have remained unresolved for decades. Much of the measure focuses 
on one primary outcome: protecting and restoring critical watershed and 
forest health and function.
    Some parts of Montana's national forests are impaired by previous 
management, beetle and disease infestations, and excessive fire 
suppression. High road densities, clogged culverts, and compromised 
forest stand structure have altered wildlife habitat and water quality. 
Our wood products infrastructure--the very tools necessary for 
restoration--is at risk of disappearing. This legislation aims to 
increase the pace and scale of restoration of forestlands, while 
reducing the Forest Service's road maintenance costs, leading to 
important improvements in ecosystem health.
    Many years of hard work created this legislation. Montana's 
forests, wood products industry, communities, fish and wildlife 
populations deserve a chance to see it enacted. We welcome the 
opportunity to work with you and our entire congressional delegation to 
achieve passage of a bill that rewards the promise of so many working 
together for a common goal.
    Thank you for your leadership and for considering our support for 
this important legislation.
            Sincerely,
                                            Sherm Anderson,
                                               Sun Mountain Lumber.
                                              Barb Cestero,
                                     Greater Yellowstone Coalition.
                                                Robyn King,
                                        Yaak Valley Forest Council.
                                              Peter Aengst,
                                            The Wilderness Society.
                                              Brian Sybert,
                                    Montana Wilderness Association.
                                                  Dan Daly,
                                          Roseburg Forest Products.
                                                  Ed Regan,
                                                         RY Timber.
                                                Tom France,
                                      National Wildlife Federation.
                                             Bruce Farling,
                                           Montana Trout Unlimited.
                                                Loren Rose,
                                           Pyramid Mountain Lumber.
                                               Wayne Hirst,
                                        Wayne Hirst and Associates.
                                               Tim Linehan,
                                        Linehan Outfitting Company.
                                                Nick Gevok,
                                       Montana Wildlife Federation.
                                 ______
                                 
       Statement of Three Rivers Challenge Partnership, Troy, MT
                                on s. 37
    It humbles us for the Senate committee to receive this testimony 
about our small but vital place-based peace proposal. With all the 
pressing domestic obligations of the Senate, we are keenly aware of the 
time demands upon the committee's members.
    The immensity of the domestic concerns of the day are familiar to 
us. Our own domestic issue is important to us-it is as vital to us at a 
local level as it is to all the rest of the country, shared 
stakeholders in these public lands, whether they ever visit or use 
these lands directly or not, and passage of this bill will bring peace, 
solace, and solitude to future generations, and will preserve a way of 
life in northwest Montana that is otherwise fast-vanishing, but we will 
get to the specifics of that momentarily. We first wish to thank our 
Senators for their leadership, and the committee, with its oversight on 
these beloved federal lands upon which so many of these diverse 
interests take place.
    Although our issue is smaller than the federal deficit, smaller 
than immigration, smaller than global warming-smaller, perhaps, than 
anything else you will look at this year-and how odd, for such a state 
as Montana to submit so compact and modest a proposal-it is huge in our 
hearts. In the Yaak Valley of extreme northwest Montana, up on the 
Canadian and Idaho borders, we have been waiting for over 45 years for 
such a proposal, and quite frankly, the success of this venture came 
only when the local environmental community stopped exclusively 
pressing for what it wanted and needed, and thought to ask what it was 
their opposition wanted-what they were for, rather than simply what 
they were against-that the Three Rivers Challenge's various interest 
groups first began to consider what useful and effective collaboration 
might create a map of common ground, and the value such a map would 
hold for land managers.
    In this regard, though our proposal is an extremely local 
suggestion for a relatively small portion of one ranger district on one 
National Forest, the much-beleaguered Kootenai-we hope there might be 
larger benefits and implications for polarized communities who seek to 
choose collaboration over the gridlock and crippling social and 
economic and ecologic effects of unthinking and ceaseless war. We hope 
and believe the success of our project can serve as a model for the 
rest of the West, and the country-or any community, anywhere-on any 
issue, with our mapping of common ground.
    Our meetings have been open to the public, with an invitation to 
any and all who are interested in coming up with positive solutions for 
the creation of such a map-such an experiment-and through hundreds of 
meetings over the last five years we have performed extensive outreach 
to not only local individuals and groups, but state and regional and 
national interests as well. Our supporters are comprised of a gold-
standard mix of what were once the most unlikely of allies, and include 
representatives from hunting and fishing guides, local snowmobile 
clubs, the local ATV club, stewardship forestry contractors, loggers, 
roadbuilders, local and state and regional environmental groups, school 
boards, and the general business community.
    In a nutshell, with regard to the Three Rivers (``Yaak'') portion 
of Senator Tester's and Senator Baucus' bill, the following goals are 
accomplished: wilderness and special areas are protected in the Yaak; 
overstocked forests will be treated to reduce fire risk and to help 
provide a sustainable flow of fiber for the local and regional wood 
products industry; forest restoration needs will be accomplished, 
resulting in healthier watersheds and wildlife habitat, and local 
employment; and the needs of motorized as well as nonmotorized 
recreation are addressed. Guides and outfitters benefit as well from a 
healthier local economy and by being able to provide wilderness and 
backcountry experiences to their clients, and by the retention of trout 
and elk populations.
    Please accept our general testimony above, and the specific 
testimony below.
    Wildlife.--Hand-crafted over six years, contour by contour, in 
consultation with state and federal biologists, the Three Rivers 
Challenge protects-and increases-critical grizzly bear habitat. It 
protects the headwaters of the imperiled inland redband trout, a 
species whose habitat local conservation groups are working to improve 
in order to recover the species, hopefully without the expense of an 
Endangered Species listing. The Yaak Valley is about more than 
grizzlies, trout and wolverine, however-it is home to salamanders, 
frogs, vireos in the springtime, carnivorous sundews, ferns and 
orchids, and protecting some of the wildest and farthest reaches of the 
valley will help ensure protection for the habitat of these and so many 
other species. The Forest Jobs and Recreation Act, and the Three Rivers 
Challenge component within that bill, is good for wildlife, and the 
state's rod and gun clubs, and guides and outfitters, ask you to 
support it.
    Timber Industry.--The timber industry in Lincoln County and the 
West is dying. Slower growth rates that elsewhere in the country, 
diminishing ecological thresholds, at-times overzealous litigation, 
unfair foreign competition, dramatic increases in labor-saving 
technology, the bursting of the housing bubble, increased insurance 
costs, fluctuating interest rates, and other factors, all in play even 
before the recession hit, have resulted in one mill after another 
closing. Particularly hard hit are the independent family-owned mills. 
Not only are we losing good-paying manufacturing jobs that are the 
backbone of many families' existence in our community, we are also 
quickly losing the infrastructure and skillsets required for forest 
management in sensitive and overstocked areas-next to towns and homes-
at the precise time when we can least afford it, as many forests begin 
to collapse from fire suppression, heat, drought, and insects.
    The Forest Jobs and Recreation Act, and the Three Rivers Challenge 
component within it, is good for what little remains of the Montana 
timber industry, and the Three Rivers Challenge asks you to support it.
    Community Dynamics.--Success for local forest collaboration and 
more effective execution of land management prescriptions rests upon 
the success of Senator Tester's and Senator Baucus' Forest Jobs and 
Recreation Act, as does the hope that future political leaders will, 
with positive reinforcement, match their courage on this measure that 
has been decades in the making. Multigenerational conflict and 
hostilities so deepset and established that their reasons or causes are 
sometimes not even remembered are fading quickly now, as a result of 
the fledgling trust and shared hopes of the parties involved in this 
historic proposal. The decades of polarization-and their associated 
lack of productivity-will be a thing of the past, with the passage of 
this relatively small but landmark legislation.
    Wilderness.--The Forest Jobs and Recreation Act, and the Three 
Rovers Challenge component within it, protects the first wilderness 
area in the Yaak ever, since the Yaak's first omission from wilderness 
designation in 1964, when the Wilderness Act was originally passed. The 
Yaak Valley is one of Montana's wildest and most biologically diverse; 
it is the only valley in the Lower 48 for which it can be said no 
species has gone extinct since the end of the last Ice Age. The Yaak 
has been identified by the public as well as the U.S. Forest Service as 
the most under-represented forest-type in the National Wilderness 
Preservation System in Region One, and some of the lands protected in 
the Three Rivers Challenge agreement within this legislation contain 
lands that received the highest wilderness capacity rating of any place 
on the Kootenai National Forest.
    Further, passage of the Forest Jobs and Recreation Act will help 
through its collaborative nature to detoxify the concept of wilderness 
in the region, which can only help the concept and future of wilderness 
in Montana. The Forest Jobs and Recreation Act, and the Three Rivers 
Challenge component within it, is good for wilderness, and we ask you 
to support its passage, after 45 years of waiting.
    Recreation Community.--The Forest Jobs and Recreation Act will 
protect access for motorized as well as nonmotorized recreation 
opportunities, providing permanent access to current existing use by 
snowmobiles in portions of the Northwest Peaks, Buckhorn Ridge, and Mt. 
Henry Roadless areas, while identifying adjacent areas to be set aside 
for wildlife displacement. The needs of primitive campers and 
backcountry skiers have also been identified and provided for in our 
agreement. As well, our agreement calls for a study to help identify 
noncontroversial loop routes for ATV usage. By codifying existing usage 
and identifying protected areas, wise allocation of various 
noncompatible resource use is established, and recreational interests 
are rewarded and encouraged.
    We thank you again the committee for your kind attention to this 
matter on which we have labored with such diligence and commitment for 
so long-nearly half a century, in some instances-and we look forward to 
the positive community and cultural changes that will be accomplished 
at the state and regional level, and we wish to reiterate, again, our 
gratitude to our Senators for their bold leadership, which we hope the 
committee will fully support.
    Three Rivers Challenge Partnership Representatives: Wayne Hirst, 
Hirst and Associates Robyn King, Yaak Valley Forest Council Jerry 
Wandler, member, Troy Snowmobile Club Joel Chandler, member, Kootenai 
Ridge Riders Tim Linehan, Linehan Outfitting Company Donna O'Neil, 
member, Lincoln County Sno-Kats Rick Bass, Yaak Valley Forest Council
                                 ______
                                 
 Statement of Scott Morris, President, Darrington Historical Society, 
                             Darrington, WA
    Greetings from the Pacific Northwest,
    Thank you for the opportunity to testify about an issue that is 
very dear and personal to my community. My name is Scott Morris, and I 
am the president of the Darrington Historical Society. On behalf of the 
Historical Society, as well as many friends and neighbors, I 
respectfully request that the honorable members of this Subcommittee 
support S. 404 to preserve the Green Mountain Lookout in the Glacier 
Peak Wilderness. The lookout is threatened by a lawsuit that is 
attempting to remove it from the wilderness.
    Green Mountain Lookout is a symbolic icon for our small town in the 
North Cascades. It was built in 1933 with a strategic and expansive 
view of the forests up the Suiattle River and on the flanks of Glacier 
Peak's volcanic ridges. In World War II it served as part of the early 
warning network of lookouts designed to spot aerial invasions of the 
West Coast.
    In the 1960s, it survived, avoiding the fate of most of its 
counterparts, which were burned and dismantled by the Forest Service. 
Fear of liability and the advent of airplanes spelled doom for most 
lookouts. Today, only 16 remain of the more than 90 that were built in 
northwest Washington state.
    A few of those, such as Green Mountain Lookout, found themselves 
inside wilderness boundaries after passage of the Wilderness Act in 
1964 and subsequent wilderness expansions. In some cases, Congress has 
specifically exempted a few key lookouts from the law's requirement 
that structures be left to rot naturally in the wilderness. 
Unfortunately, in 1984 when the Glacier Peak Wilderness was expanded to 
include Green Mountain's summit, Congress did not make such an 
exemption for that lookout. I suspect the reason is simply because 
nobody could have foreseen that anybody would take issue with a 
historic restoration of the lookout two decades later. The lookout was 
placed on the National Register of Historic Places in 1987.
    Indeed, as the members of the Historical Society and the Darrington 
community came together during the 1990s to dream up and carry out the 
eventual historic restoration, the comments received by the Forest 
Service about the project were overwhelmingly supportive, with little 
or no opposition.
    The restoration that began in the late 1990s was completed on the 
mountaintop following appropriate environmental and historical 
restoration procedures, with a minimum of helicopter support. But by 
the summer of 2002, it became apparent that the foundation design was 
faulty. The lookout was leaning badly from heavy snows the previous 
winter. It was in clear danger of falling off the summit to its 
destruction under the weight of the next winter's snows.
    Faced with a difficult decision, the Forest Service decided to 
remove Green Mountain Lookout, taking care to number and label the 
boards and windows so they could be reassembled in their proper places 
on a new, stronger foundation.
    Extreme floods and road washouts delayed the restoration until 
2009, when the lookout was finally restored atop Green Mountain. In 
2010, an out-of-state, hardline group called Wilderness Watch sued the 
Forest Service, alleging that the restoration violated the Wilderness 
Act. A U.S. District Court judge in Seattle agreed in 2012 and ordered 
the Forest Service to remove the lookout. Later, the judge remanded the 
issue to the Forest Service as to how to comply with his order, and 
those who sued are pressuring the agency to remove the lookout as soon 
as this summer.
    Obviously time is of the essence. We are grateful to this 
subcommittee for giving this bill a hearing. A companion bill is 
already moving in the House. I testified in person last week at the 
House subcommittee hearing. Fortunately, fixing this problem is easy--
Congress can simply exempt Green Mountain Lookout from the Wilderness 
Act and allow the Forest Service to maintain and restore it. Indeed, 
Wilderness Watch and U.S. District Judge John C. Coughenour each 
pointed out that Congress has done so in other instances, including the 
Evergreen Mountain Lookout in the new Wild Sky Wilderness to the south 
of us.
    The legislation that our Washington state delegation in Congress 
was kind enough to move forward is a modest proposal, designed to build 
widespread, bipartisan support. We are not asking for a far-reaching 
bill that substantially changes the Wilderness Act. The exemption of 
Green Mountain Lookout does not represent some kind of camel's nose in 
the tent that would somehow lead to resurrecting a bunch of long-dead 
lookouts in wilderness areas. The historical trend is that we are 
losing most of the CCC-era lookouts, and thus, Green Mountain Lookout 
merits an exemption.
    But don't just take our word for it. We have a long list of 
supporters for this bill. The Wilderness Society, notably, supports S. 
404. They see the lookout as enhancing the public's enthusiasm for 
wilderness areas. The Nature Conservancy also supports this bill. A 
broad range of local, state and national groups and legislators have 
joined with us to protect Green Mountain Lookout, from the National 
Trust for Historic Preservation (and its state affiliate), to the 
Forest Fire Lookouts Association, the Snohomish County Council and the 
Darrington Town Council, among others. Support among legislators is 
bipartisan--Republicans and Democrats alike stand behind this bill. The 
Everett Herald and Seattle Post-Intelligencer have each editorialized 
in favor of protecting the lookout.
    In the end, though, the reason so many of us feel strongly about 
this simple 14-by-14-foot mountaintop cabin is the sense of magic it 
conveys. I had the great fortune to visit Green Mountain Lookout last 
summer, and I was lucky enough to see firsthand the classic North 
Cascades lookout sunrise, with clouds filling the valleys, and only the 
tallest mountaintops peeking through while the sun turned everything 
pink. Standing on the catwalk, Green Mountain Lookout felt like a time 
machine, taking us back to the 1930s. It was easy to understand what 
drove the first generation of men and women in the Forest Service to 
staff these lookouts. Today, we face a vocal, extreme minority with no 
imagination who don't get it. But for the rest of us, we have a legacy 
we are asking you to protect. Thanks for your time, and thanks for 
supporting S. 404.
    Sincerely,
                                 ______
                                 
Statement of Michael R. Brown, Director Operations, Western US Region, 
                        Graymont Western US Inc.
                         on s. 1169 and s. 1309
    Graymont Western US Inc is a member of the Graymont family of 
companies.
    Graymont is the second largest producer of lime in North America 
with facilities across Canada and the United States and a partnership 
with Grupo Calidra, the largest lime producer in Mexico. Graymont is a 
family owned company committed to improving our world by responsibly 
meeting society's needs for quality lime and stone products.
    Graymont takes a long term view of its business and the lime 
industry, where investments are made based upon decades of expected 
production. Graymont has been in the lime business for over 50 years 
and operates facilities on sites that have been in operation for up to 
200 years. Graymont is among the leaders in the industry in adding new 
efficient plants and equipment and operates some of the most modern 
facilities on the continent.
    Graymont would be directly impacted by S. 1169 and S. 1309 as these 
bills would authorize a withdrawal of public lands which includes the 
entire mine associated with the Graymont Indian Creek facility. 
Graymont supports S. 1169 as introduced by Senator Baucus and notes 
that this bill (and the related House of Representatives bills) is the 
only Limestone Hills withdrawal bill supported by the full Montana 
Congressional delegation. Graymont does not support S. 1309; specific 
comments on the two bills follow.
Comments Specific to S. 1169
    The language in S. 1169 related to the protection of Graymont's 
rights is similar to the Limestone Hills withdrawal language in H.R. 
1672 and H.R. 1960, both of which Graymont supports. While Graymont 
prefers the language in the House bills we appreciate the work of 
Senator Baucus and Senator Tester (cosponsor of S. 1169) and Graymont 
supports S. 1169 as currently drafted.
    In the written testimony received by the Subcommittee from the 
Department of the Army in connection with Subsection 4(a)(3) of S. 1169 
it was stated that ``the Army strongly objects to this Subsection as it 
would grant particular mining claimants the ability to operate without 
regard for the withdrawal and reservation.'' In addition, oral 
testimony on this issue was provided by Ms. Katherine Hammack at the 
July 30, 2013 hearing in response to a question from Chairman Manchin 
on the Subsection 4(a)(3) language. Ms. Hammack stated that:

          `` . . . we are in support of the existing mining claims and 
        the existing agreement . . . the language expands that to 
        claims that have been closed or retired and allows additional 
        claims to be allowed. So, it goes beyond the existing mining 
        claims and so that is our objection is going beyond the 
        existing agreement, the existing mining claims; essentially 
        opens up the whole area.''

    Graymont appreciates that the Army supports the existing mining 
claims and the existing agreement among Graymont, the BLM, and the 
Montana Army National Guard.
    However, the stated concern that the Subsection 4(a)(3) language 
allows Graymont to establish additional mining claims inside the entire 
withdrawal area is not supported by the language in S. 1169. Subsection 
4(a)(3) does not mention additional claims and the Opportunity to Cure 
is clearly restricted to the land area subject to the approved plan of 
operations. There are 1,940 acres included in the approved plan of 
operations compared to a total of 18,644 acres included in the 
Limestone Hills withdrawal. Thus, in stark contrast to the provided 
testimony, 90% of the withdrawal area is unaffected by the language in 
Subsection 4(a)(3).
    Graymont submits that it has properly secured exclusive possession 
and enjoyment of its mining claims. Without the language of Subsection 
4(a)(3) Graymont's ability to maintain its existing mining claims under 
the Mining Law could potentially be adversely impacted by the 
withdrawal.
    Any legislative language that causes a reduction in Graymont's 
rights must be evaluated as a cost of the withdrawal. Graymont's mining 
operations began before the issuance of the improperly issued right-of-
way and must be fully protected as a part of the withdrawal 
legislation.
Comments Specific to S. 1309
    The language contained in S. 1309 mirrors the Administration's 
proposal as part of the Senate National Defense Authorization Act 
(NDAA), or S. 1034. Graymont does not support the S. 1309 (and related 
S. 1034) language.
    Graymont is concerned with the attempt to include the Limestone 
Hills Withdrawal as a part of a group of multiple withdrawals. The 
situation in the Limestone Hills is quite unique and does not lend 
itself to inclusion with other, more `traditional' withdrawals. There 
is no other place in the United States where the military is proposing 
that a withdrawal surround a large existing mining operation with valid 
existing rights.
    More specifically, there is a significant inconsistency between the 
General Provisions language in Section 2933(a) being proposed for the 
group of several withdrawals and provisions unique to the Limestone 
Hills. Section 2933(a) would give the Secretary concerned the ability 
to unilaterally ``require the closure to the public of any road, trail, 
or other portion of the lands withdrawn and reserved by a subchapter of 
this chapter, the Secretary may take such action as the Secretary 
determines necessary or desirable to effect and maintain such 
closure.'' (Emphasis supplied). This is in conflict with the language 
of Section 2957d(a) which states: ``The Secretary of the Army shall 
make no determination that the disposition of or exploration for 
minerals as provided in the approved plan of operations is inconsistent 
with the defense-related uses of the lands covered by the military land 
withdrawal.''
    It is not realistic for Graymont to conduct its mining operations 
if the company was constantly exposed to the possibility that the 
Secretary could close the area of the withdrawal to mining operations 
simply because it was determined to be desirable.
    Graymont also has a concern that S. 1309 lacks the level of 
specificity regarding the issues to be included in the Implementation 
Agreement for Mining Activities (Subsection 2957d(d) of S. 1309 
compared to Section 4(c) of S. 1169. S. 1309 also lacks reference to 
continuing the existing 2005 Memorandum of Agreement signed by 
Graymont, the BLM, and the Montana Army National Guard until the 
Implementation Agreement is executed.
    Finally, Section 2961c(b) includes language specific to the 
Twentynine Palms, California withdrawal. However, this section includes 
puzzling language which states that the Secretary of the Army may pay 
Broadwater County, Montana $1,000,000 to offset the 25-year loss of 
payments in lieu of taxes for lands included in the Limestone Hills, 
Montana withdrawal. In contrast, S. 1169 at Section 7 provides that the 
withdrawn lands will remain eligible for payments in lieu of taxes 
citing ``section 6901 of title 31, United States Code.'' Graymont is 
unclear if this language in S. 1309 was included in error or why the 
language related to a Montana withdrawal has been included in the 
details of a California withdrawal.
    Due to the above issues, Graymont requests that the current 
Limestone Hills withdrawal language be removed from S. 1309 and the 
language of S. 1169 be adopted as a separate withdrawal without 
amendment.
Background Information on Graymont's Limestone Hills Montana Operations
    Graymont's Montana facility is the Indian Creek plant located near 
Townsend, Montana. The plant is just north of the Limestone Hills and 
is connected to the mine by a conveyor belt. Graymont currently 
employees 34 full-time employees in both the mine and the processing 
plant. In addition, there are 11 persons on the contract mining crew 
that works predominantly in the mine. These are stable, high paying 
mining jobs that are vital to the economy of Townsend, Broadwater 
County, and the State of Montana.
    Under its previous name of Continental Lime, Inc., Graymont began 
its activity in the Limestone Hills in 1979 when the first unpatented 
mining claims were located. In 1981 Continental Lime obtained Bureau of 
Land Management (BLM) approval of its first plan of operations and 
mining in the Limestone Hills has been continuous since that date. 
Under the Mining Law of 1872 (30 U.S.C. Sec.  26.), in order to conduct 
its operations a mining claimant ``shall have the exclusive right of 
possession and enjoyment of all of the surface included within the 
lines or their locations.'' Maintaining exclusive possession and 
enjoyment of the area of its operations is critical to Graymont.
    In October 2010 the BLM and the Montana Department of Environmental 
Quality approved Graymont's most recent life-of-mine plan of operations 
covering a total land area of 1,940 acres.
    Lime is produced at the Indian Creek plant in two coal/coke fired 
preheater kilns. The plant is equipped with lime sizing and storage 
facilities allowing Graymont to produce and store a full range of bulk 
quicklime products. High purity limestone from the quarry is trucked to 
a crushing plant where it is sized and conveyed to a large storage pile 
adjacent to the preheater kilns. Bulk truck loading facilities are 
provided at the plant site and rail loading is available through a 
terminal located on the Montana Rail Link line in Townsend.
Value of the Graymont Indian Creek Facility
    The Final Legislative Environment Impact Statement prepared by the 
Montana Army National Guard and the Bureau of Land Management in 2008 
in connection with the Limestone Hills Training Area Land Withdrawal 
contains, as an appendix, a report titled ``Geology, Mineral 
Occurrences and Economic Resources Potential of the Limestone Hills 
Training Area.'' The report contains an economic evaluation of the 
Indian Creek Mine. Subsequent to the time the report was prepared 
Graymont has obtained the approval of both the BLM and The Montana 
Department of Environment Quality for the ``life-of-mine'' expansion 
described in the report. Therefore, Graymont has the needed life-of-
mine permit to continue its operations as far south as the area 
identified in the report as the Southeastern Extension Zone.
    Page 48 of the geologic report notes that the value of the material 
quarried at Indian Creek is between $9 and $12 per ton of material 
quarried. The report also estimates approximately 121 million tons of 
quarry reserves under the ``Moderate Mining Scenario''. Thus, a very 
rough calculation yields an economic value of the mineable resource of 
at least $1.1 billion.
    It is Graymont's position that any language that is contained in 
the withdrawal legislation which results in a taking of Graymont's 
existing rights will be actionable and should be calculated and used in 
scoring the proposed legislation.
History of Montana Army National Guard Activity
    The Montana Army National Guard has conducted training activities 
in the Limestone Hills for over 50 years. In the early days those 
training activities were conducted pursuant to periodically issued BLM 
special land use permits. All special land use permits expired prior to 
1984. The Guard currently conducts its training activities under a 30 
year right-of-way issued to the State of Montana effective on March 26, 
1984. By its terms the right-of-way is both ``nonexclusive'' and 
``nonpossessory.'' Neither a special land use permit nor a right-of-way 
prevents the location of mining claims.
    By letter dated January 15, 1993 the BLM informed the Guard that 
``a 20,080 acre training range is beyond the scope of activity to be 
authorized by a right-of-way and your current use is not properly 
authorized according to the IBLA decision.'' (Emphasis supplied). The 
letter went on to say: ``Therefore, we are requesting the MTARNG to 
submit an application for withdrawal of the Limestone Hills training 
range by the end of 1993, and to take all possible action toward 
securing a withdrawal by the end of 1997.'' The suggested withdrawal is 
the subject matter of the present proposed legislation. The Guard has 
continued to conduct its operations under the terms of the unauthorized 
right-of-way pending the action by Congress on the withdrawal 
application. The right-of-way will terminate on March 26, 2014 and the 
BLM has indicated it will not be extended.
Cooperative Relationship
    The BLM's 1993 letter was, in part, in response to a Graymont 
application to expand its mining operations further into the area where 
the Guard was conducting training activities. The BLM was concerned for 
public safety and liability issues given the joint activities in the 
area. Following extensive negotiations in 1997, the BLM, Guard and 
Graymont agreed that continued multiple use of the Limestone Hills area 
was possible. The parties arrived at a consensus as to how the joint 
use could occur.
    Subsequently the three parties have worked cooperatively to ensure 
that joint operations can occur while protecting public safety and 
appropriately allocating liability. The most recent confirmation of 
that relationship is contained in a Memorandum of Agreement among the 
three parties dated in February, 2005.
    Graymont looks forward to continuing the joint use of the Limestone 
Hills in a manner that will allow both Graymont and the Department of 
the Army to accomplish their respective missions.
                                 ______
                                 
                             Greater Yellowstone Coalition,
                                                     July 29, 2013.
Hon.  Ron Wyden,
Chairman, Committee on Energy & Natural Resources, 221 Dirksen Senate 
        Office Building, Washington, DC.
Hon. Lisa Murkowksi,
Ranking Member, Committee on Energy & Natural Resources, 709 Hart 
        Senate Office Building, Washington, DC.
Hon. Joe Manchin,
Chairman, Subcommittee on Public Lands, Forests & Mining,306 Hart 
        Senate Office Building, Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands, Forests & Mining, 307 
        Dirksen Senate Office Building, Washington, DC.
RE: Greater Yellowstone Coalition Support for the Forest Jobs and 
Recreation Act

    Dear Mr. Chairmen and Ranking Members,

    Thank you for the opportunity to offer written testimony for the 
record on S. 37--the Forest Jobs and Recreation Act.
    The Greater Yellowstone Coalition, representing 40,000 members and 
supporters from across the country, strongly supports S. 37, the Forest 
Jobs and Recreation Act of 2013. As a regional conservation 
organization, the Coalition's mission is to protect the lands, waters 
and wildlife of the Greater Yellowstone Ecosystem now and for future 
generations. The protection, restoration and stewardship of southwest 
Montana's public lands which will result from this bill's passage will 
substantially benefit the Greater Yellowstone Ecosystem. Because of 
their proximity to Yellowstone National Park, these lands are of 
national significance and critically important to the long-term 
conservation of the Greater Yellowstone Ecosystem. The bill's passage 
will benefit the American people as well as future generations by 
protecting and restoring important habitats that safeguard the region's 
iconic fish and wildlife.
    The people of Montana strongly support of this legislation. The 
bill has united diverse interests to work together toward better 
conservation of our public lands. For this reason, the Forest Jobs and 
Recreation Act enjoys broad, bi-partisan support from across the state.
Conservation Benefits:
    This bill will protect and restore Greater Yellowstone's natural 
heritage. Wilderness designations in Greater Yellowstone--the Snowcrest 
and Centennial Mountains, the Ruby Mountains, additions to the Lee 
Metcalf Wilderness, and the Blacktail range--protect some of the last 
and best unroaded backcountry habitats in the Montana part of the 
ecosystem. These core habitats are vital to the ecosystem's iconic 
wildlife. These wilderness areas also protect the headwaters of many of 
Greater Yellowstone's most famous rivers, including the Ruby, Missouri, 
Jefferson, and Madison. Further west, designations in the Pioneers, the 
Big Hole, Italian and Lima Peaks and Sapphires will protect important 
linkage habitats, ensuring wide-roaming species continue to disperse 
across southwest Montana's landscape. Such dispersal is essential for 
maintaining the long-term genetic viability of sensitive species such 
as grizzly bears and wolves.
    The restoration and stewardship projects provided for in the bill 
will heal lands damaged by past practices, restoring fish passage in 
cold water streams and reducing road densities that diminish habitat 
quality for a variety of species. These restoration activities will 
become increasingly important to ensure our fish and wildlife 
populations are resilient in the face of a changing climate.
Broad Coalition and collaboration
    The Forest Jobs and Recreation Act is the result of three place-
based collaborations that brought diverse interests together to solve 
the challenges confronting Montana's national forests. As a regional 
conservation organization, focused on only a portion of Montana, the 
Greater Yellowstone Coalition was not a part of these original 
collaborations. In July, 2009, because of the benefits to the Greater 
Yellowstone Ecosystem resulting from S. 37, we joined the coalition 
supporting this legislation. Our involvement and input has been 
welcomed by all of the diverse partners. Key components of the bill, 
particularly the inclusion of the Bureau of Land Management Wilderness 
Study Areas, reflect the responsiveness of the original collaborations 
and Senator Tester to our input.
    The collaboration that forms the foundation of the bill has 
continued throughout the bill's legislative journey. Senator Tester 
hosted numerous public meetings to gather feedback from diverse 
Montanans. He used that input, as well as his work with the Forest 
Service to address their concerns, to strengthen the bill which is 
reflected in the version introduced to the 113th Congress. The Greater 
Yellowstone Coalition is committed to the continued collaboration 
necessary to both pass and implement the Forest Jobs and Recreation 
Act.
    We greatly appreciate the hard work of Senator Tester and his staff 
on S. 37 and urge the subcommittee to support its passage.
Wilderness designations
    Approximately 170,000 acres of the almost 670,000 acres of 
wilderness proposed in the Forest Jobs and Recreation Act lie within 
Southwest Montana's portion of the Greater Yellowstone Ecosystem. 
Places such as the Ruby and Centennial Mountains, the additions to the 
Lee Metcalf Wilderness and the Snowcrest Range are hidden gems in 
Greater Yellowstone where Montana families and visitors hunt, fish, 
hike and camp. These lands provide important wildlife habitat for big 
game, rare predators and other wildlife that roam across the landscape. 
In particular, these areas boast some of the state's largest elk herds, 
longest antelope migrations, and most robust moose populations. Given 
these wildlife values, it is no surprise that 50 percent of the state's 
elk harvest comes from this part of Southwest Montana.
    Wolverine, grizzly bears and wolves also depend upon these wild 
lands for core, secure habitat far from roads as well as important 
linkage habitats that ensure they can roam the landscape. The wild 
lands protected under S. 37 which lie beyond the Greater Yellowstone 
Ecosystem serve as vital stepping stones, keeping Greater Yellowstone 
connected to central Idaho wildlands and the northern Continental 
Divide ecosystem, ensuring wildlife can continue to disperse across 
southwest Montana. Such dispersal and migration is essential for the 
long-term genetic health of these rare, crucial and vulnerable species. 
For these reasons, we support all of the wilderness designations 
contained in the Forest Jobs and Recreation Act.
    We offer the following specific comments regarding several of the 
proposed wilderness areas of particular importance to the Greater 
Yellowstone Ecosystem.
Mount Jefferson
    This 4,500 acre proposed wilderness on the Beaverhead-Deerlodge 
National Forest generates passionate attention from many constituents 
and vocal opposition from snowmobile interests. Mount Jefferson 
deserves wilderness protection both on its own merits and to protect 
the integrity of the adjacent BLM Centennial Mountains wilderness, also 
included in S. 37. The wilderness boundary as proposed in S. 37 should 
remain intact for the following reasons:

          1. High conservation value.--The Mount Jefferson proposed 
        wilderness includes Hellroaring Creek basin, the farthest and 
        highest headwaters of the Missouri River. Contiguous with the 
        proposed BLM Centennial Mountains wilderness, the two areas 
        combined create almost 30,000 acres of wilderness on the north 
        side of the Centennial Mountains.

          Mount Jefferson and the Centennials provide secure habitat 
        for Greater Yellowstone's most valued and iconic wildlife. 
        Moose winter among the sub-alpine fir along Hellroaring Creek. 
        The area provides important security cover for elk in the fall 
        during big game hunting seasons in both Montana and Idaho. 
        Grizzly bears and wolverine, both icons of wildness that need 
        remote backcountry to survive, use the Hellroaring drainage as 
        important habitat.
          As a rare east-west trending mountain range, Mount Jefferson 
        and the Centennial Mountains function as an important linkage 
        between the Greater Yellowstone Ecosystem and the wildlands of 
        central Idaho. Wide-ranging species such as wolves, bears and 
        wolverines use this important corridor. Ensuring this region 
        can still function as a linkage requires protecting large 
        chunks of public land from habitat fragmentation.
          The new wilderness proposed in S. 37 is adjacent to federally 
        designated wilderness on the Red Rock Lakes National Wildlife 
        Refuge, a 32,350-acre wetland wilderness in the heart of the 
        Centennial Valley. Over 20,000 acres in conservation easements 
        protect private lands surrounding the wildlife refuge. Thus, 
        the wilderness designations included in S. 37 add to a 
        remarkable conservation legacy--resulting in over 80,000 acres 
        of protected land--in an ecologically important part of Greater 
        Yellowstone.

          2. Montana jobs and economic opportunity

          Locally owned Montana businesses depend upon the quiet 
        recreation opportunities found on the Montana side of the 
        Centennial Mountains. Hellroaring Ski Adventures based in West 
        Yellowstone, operates a backcountry hut and guided ski touring 
        business in the Hellroaring Creek drainage. This is the only 
        such operation in this part of Montana, providing a unique 
        experience for the public on BLM and National Forest lands.
          In the summer and fall, Centennial Outfitters, in Lima, MT, 
        offers backcountry pack trips and fishing adventures in the 
        area. Both of these businesses are negatively impacted by 
        increasing snowmobile use on the Montana side of Mount 
        Jefferson. Centennial Outfitters routinely finds broken 
        windshields, oil cans, pieces of rubber, and other debris from 
        snowmobiling. Hellroaring Ski Adventures' clients have 
        experienced direct conflicts with snowmobilers, including 
        noise, while seeking a quiet winter recreational experience. 
        Outdoor shops catering to quiet recreation in the communities 
        surrounding the Centennial Mountains support wilderness 
        designation for Montana's side of Mount Jefferson.

          3. Ensuring a balance of recreational opportunities in 
        Southwest Montana

          In addition to providing refuge for wildlife, Mount Jefferson 
        and the Hellroaring drainage offer outstanding opportunities 
        for quiet recreation in every season. Hunting, fishing, skiing, 
        hiking, camping and horse packing are all popular activities. 
        There is only very limited motorized access from the Montana 
        side of the Centennial Mountains. As a result, Mount Jefferson 
        and the northern Centennials are known as some of the wildest 
        backcountry in Montana, offering solitude and quiet for those 
        seeking a wilderness experience.
          With regard to winter recreation specifically, the 
        snowmobiling community's interest in continued access to 
        Montana's portion of Mount Jefferson must be understood in the 
        context of snowmobiling opportunities across the broader 
        landscape. To suggest that closing Montana's side of Mount 
        Jefferson to snowmobiling will negatively impact the economy of 
        communities in Eastern Idaho is inaccurate. In fact, leaving 
        the Montana side of Mount Jefferson open to snowmobiling 
        eliminates one of the few opportunities for quiet, human-
        powered winter recreationists to escape the din of snow 
        machines. Analysis of data for public lands within a 20-mile 
        radius of Island Park, Idaho shows that 98 percent of those 
        lands, or 297,933 acres, are currently open to snowmobiles. The 
        Forest Jobs and Recreation Act, by protecting the entire 
        Hellroaring basin and the Montana side of Mount Jefferson, 
        would reduce this acreage by a mere 2,344 acres, bringing the 
        percentage of public lands open to snowmobiles in the Greater 
        Island Park area to 97 percent. (See Attachments* A and B which 
        include maps depicting this analysis).
---------------------------------------------------------------------------
    * All attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
          On a broader scale, of the 3 million total acres on the 
        Caribou-Targhee National Forest, which surrounds Eastern 
        Idaho's communities, nearly 2.5 million acres are open to 
        snowmobiles while just 545,000 acres are protected for non-
        motorized winter activities. In Montana, on the Beaverhead-
        Deerlodge National Forest, 2,049,099 acres are open to 
        snowmobiling. Immediately north of the Centennial Mountains, 
        much of the Gravelly Range is open for winter motorized 
        recreation.
          Furthermore, the Idaho side of both Mount Jefferson and Rheas 
        Peak will remain open to snowmobiling, offering similar terrain 
        and high marking opportunities in the vicinity of Island Park. 
        (See Attachments C and D which include photos of these peaks).
          For Mount Jefferson and the Centennial Mountains, the 
        relevant compromise on land use was struck in 1991. Of the 
        93,000 acres in the Centennials evaluated for wilderness 
        suitability (including lands in both Idaho and Montana), the 
        BLM recommended 28,000 acres for wilderness designation in 
        Montana--including Mount Jefferson--and released 70 percent of 
        the study area for non-wilderness use. No adjacent lands in 
        Idaho were recommended for wilderness designation.

          4. A partial designation will not work: Over a decade of 
        experience managing the Hellroaring drainage to protect both 
        wilderness values and to allow snowmobiling access clearly 
        demonstrates that a partial wilderness designation for Mount 
        Jefferson will not work.

          Documented illegal snowmobile use in the BLM Centennial 
        Wilderness Study Area led the BLM to repeatedly request that 
        the Forest Service close the Mount Jefferson area to 
        snowmobiles. Since 2001, the Forest Service has partially 
        closed Forest Service lands in the Hellroaring basin to 
        snowmobiles. During the winter, routine agency patrols 
        consistently find evidence of trespass into both the BLM 
        Wilderness Study area and the portion of Forest Service land 
        closed to snowmobiles. Increased signage and patrols, aimed at 
        reducing violations, have met with little success. (See 
        Attachment E which provides photo documentation of snowmobile 
        trespass).
          In its final Forest Plan, the Beaverhead-Deerlodge National 
        Forest dropped the southern half of the Mount Jefferson/ 
        Hellroaring area from its list of recommended wilderness, 
        leaving it open to snowmobile access. This decision is 
        topographically unenforceable as the boundary between the open 
        and closed areas runs along an indistinct ridge from the summit 
        of Mount Jefferson. Although the closed area is well signed, 
        enforcement of the boundary continues to be extremely 
        difficult. Continued violations of the BLM Centennial 
        Wilderness are certain under a partial closure, leading to more 
        conflicts. (Attachment F includes a topographic map of the 
        area).
          Recognizing that this partial designation would create 
        ongoing enforcement challenges, the final Forest Plan commits 
        the Forest Service to monitoring, enforcement, and a 
        reassessment of the decision if illegal intrusions into closed 
        areas continue. Specifically, the Forest Plan Record of 
        Decision states:

          `` . . . The combination of uses allowed on Mt. Jefferson 
        under the Revised Forest Plan represents a management 
        challenge, because the boundary between the motorized and non-
        motorized use areas does not follow an effective topographical 
        barrier to illegal motorized entry . . . If monitoring reveals 
        that non-compliance is an issue, the decision to allow 
        snowmobiling on Mt Jefferson will be re-evaluated.''.p. 21, 
        Record of Decision, Beaverhead-Deerlodge National Forest 
        Revised Forest Plan)
          To protect the integrity of the proposed wilderness 
        designations for the Centennial, it will be imperative that the 
        Forest Service follows through on this management promise to 
        close the area to snowmobiling if trespass continues.
Snowcrest Mountains
    The Snowcrest Mountains proposed wilderness--the largest wilderness 
included in S. 37--represents a unique addition to the National 
Wilderness System. The Snowcrest Mountains, considered in conjunction 
with the adjacent Blacktail and Robb Ledford State Game Ranges, provide 
a large block of secure wildlife habitat at the western edge of the 
Greater Yellowstone Ecosystem. The Snowcrest Wilderness will protect 
unique and varied habitat types, including rolling sagebrush hills, 
whitebark pine stands, aspen, and alpine grasslands. The Snowcrests 
offer some of the highest quality wolverine habitat in southwest 
Montana. Wolves, bears, mountain lion and large elk herds roam these 
remote mountains. Due to the abundance of big game, the Snowcrest 
Mountains are among the most heavily hunted areas in Montana. Streams 
on the eastern side of the Snowcrest Mountains feed the famed Ruby 
River which is noted for both trout and grayling fisheries.
    Traditional ranching uses will continue in the Snowcrest Mountains 
under S. 37, and specific language in Section 204(m)(1-2) provides for 
continued motorized access to maintain existing water impoundments and 
to trail sheep across the range to summer pasture. We appreciate the 
improvements made in this section, especially language tying the 
continued trailing of sheep across the Snowcrests to the tenure of the 
grazing allotments in the Gravelly Mountains. We believe as currently 
written, this section captures a workable compromise that maintains the 
Forest Service's authority to appropriately manage grazing in 
Wilderness.
BLM Wilderness Study Areas
    The Greater Yellowstone Coalition specifically requested that 
administratively designated Wilderness Study Areas within the Dillon 
Resource Area be addressed by S. 37. These island mountain ranges 
provide important wildlife habitat and connectivity for wide-ranging 
species that reside in southwest Montana. We strongly support the 
proposed wilderness designations for portions of the Ruby, Blacktail 
and Centennial Mountains Wilderness Study Areas managed by the Bureau 
of Land Management. As wilderness, these lands will continue to 
function as refugia for critically important wildlife.
    We also strongly support the addition of the East Fork of Blacktail 
Wilderness Study Area to the BLM proposed wilderness areas. In earlier 
versions of the Forest Jobs and Recreation Act, this BLM WSA was slated 
to be released from wilderness study status. This WSA sits in the 
middle of a landscape managed for wilderness and conservation purposes 
because it is contiguous to the Forest Service Snowcrest proposed 
wilderness and adjacent to two Montana Fish, Wildlife and Parks 
Wildlife Management Areas. This WSA has significant value for the 
conservation of Greater Yellowstone's wildlife and fisheries, and will 
be an excellent addition to the National Wilderness Preservation 
System.
    GYC also recommends that the Peet Creek/Price Creek parcel in the 
western Centennial Mountains be added to the proposed Centennial 
Mountains Wilderness with a cherry stemmed boundary to accommodate the 
existing improved logging road in the E. Fork of Peet Creek. This is 
the largest of the five parcels recommended for release from the BLM 
Centennial Wilderness Study Area (approximately 3,800 acres). This 
parcel has significant conservation value for big game, wolverine, 
bears and westslope cutthroat trout. Its protection as wilderness 
enhances the Centennial Mountains wildlife linkage area and 
connectivity between Greater Yellowstone and Central Idaho.
Forest Management & Stewardship
    The Greater Yellowstone Coalition supports the restoration emphasis 
of S. 37. Using stewardship contracts to fund road rehabilitation, 
stream restoration and habitat revitalization will benefit native fish 
and wildlife. In the southwest Montana portion of Greater Yellowstone, 
there are areas, such as the West Fork of the Madison River and the 
southern Tobacco Root Mountains, that would benefit from the 
stewardship projects conducted under S. 37.
    The impact of this legislation on inventoried roadless lands on the 
Beaverhead-Deerlodge National Forest not recommended as wilderness is 
of particular importance to us. Three elements of the bill combine to 
sufficiently ensure these roadless lands will continue to provide core, 
secure habitat for fish and wildlife. The following elements of the 
bill must be retained in final legislation:

  <bullet> Section 104 (a)(4) of S. 37 directs the Secretary to 
        prioritize lands for stewardship projects which already have 
        road densities in excess of 1.5 miles per square mile; that are 
        within the wildland-urban interface; where habitat connectivity 
        is already compromised due to past practices; and where forests 
        are at high risk of severe wildfire. We believe this language 
        appropriately focuses stewardship logging and restoration 
        activities in previously roaded and developed areas of the 
        Beaverhead-Deerlodge National Forest.
  <bullet> All stewardship projects are to be conducted in accordance 
        with existing environmental laws, regulations and 
        administrative directives. Thus, the 2001 Roadless Area 
        Conservation Rule currently in effect in Region 1 of the U.S. 
        Forest Service will continue to apply to projects conducted 
        under the provisions of this bill.
  <bullet> Forest Plan designations of appropriate lands for timber 
        harvest will guide where stewardship projects occur. On the 
        Beaverhead-Deerlodge, lands designated as ``suitable for timber 
        production'' do not include any inventoried roadless lands. 
        Lands designated as ``timber harvest allowed to meet other 
        resource objectives'' do include inventoried roadless lands; 
        however, projects in this category must comply with national 
        roadless policies and directives.

    For these reasons, we believe S. 37 sufficiently protects the 
conservation values of inventoried roadless lands. We believe the 
Forest Jobs and Recreation Act will help improve the stewardship and 
management of national forest lands in Montana and benefit the 
northwest corner of the Greater Yellowstone Ecosystem.
Conclusion.--S. 37 is a balanced vision for protecting and restoring 
        public land
    The Greater Yellowstone Coalition strongly supports S. 37 and 
believes it provides a balanced approach to protecting and restoring 
public land in Montana. By protecting key public lands in southwest 
Montana, S. 37 contributes significantly to the long-term conservation 
of the Greater Yellowstone Ecosystem, an area of great importance to 
Montanans and all Americans. We appreciate the hard work that has gone 
into strengthening the bill since it was originally introduced in 2009. 
We look forward to working with the Subcommittee, the Forest Service, 
the Obama Administration, and everyone who shares the goals of this 
bill to continue to refine and implement this vision for protecting our 
most cherished lands, restoring our forests and sustaining our 
communities.
    We sincerely thank Senator Tester for his leadership in drafting 
this important legislation and his ongoing work to see it enacted. We 
also thank Senator Baucus for his co-sponsorship. This legislation 
enjoys unprecedented support across Montana as diverse interests unite 
behind our Senate delegation to protect and restore our treasured 
public lands.
    GYC supports S. 37 as a new way to do business for the Forest 
Service and for Montana. We urge the Subcommittee to approve the bill 
and forward it to the full Senate for its consideration.
    Sincerely,
                                             Caroline Byrd,
                                                Executive Director.
                                              Barb Cestero,
                                                  Montana Director.
                                 ______
                                 
                          Back Country Horsemen of America,
                                          Graham, WA, July 8, 2013.
Hon. Ron Wyden,
Chairman, U.S. Senate, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, U.S. Senate, Washington, DC.
Hon. Doc Hastings,
U.S. House of Representatives, Washington, DC.
Hon. Ed Markey,
U.S. House of Representatives Washington DC.
RE: Support for H.R. 908/S.404, the Green Mountain Lookout Heritage 
Protection Act

    Dear Chairman Wyden, Chairman Hastings, Ranking Member Murkowski 
and Ranking Member Markey,
    On behalf of Back Country Horsemen of America, I urge you to take 
timely action to consider HR 908/S.404, the Green Mountain Lookout 
Heritage Protection Act, introduced in February by Representatives 
DelBene and Larsen and Senators Murray and Cantwell.
    H.R. 908/S.404 would ensure the continued operation and maintenance 
of the historic Green Mountain fire lookout within Washington's Glacier 
Peak Wilderness Area. For decades, the Green Mountain lookout has been 
a popular destination for hikers seeking to enjoy impressive vistas, 
endless acres of wildflowers and the experience associated with 
visiting a historical fire lookout. Even though horse use is not 
allowed on the Green Mountain Trail, we nonetheless support H.R. 908/
S.404 as an important means to promote human use and enjoyment of 
wilderness.
    Built in 1933 by the Civilian Conservation Corps, the historic 
Green Mountain lookout is listed with the National Register of Historic 
Places. The Forest Service still utilizes Green Mountain as a 
functioning fire lookout as well as to house seasonal staff who provide 
educational information to wilderness visitors.
    The Green Mountain lookout provides important benefits to the 
preservation of the Glacier Peak Wilderness and the education of 
wilderness visitors. If Congress does not act, the lookout will be 
removed or destroyed and a local treasure will be lost. We urge you to 
ensure passage of the Green Mountain Lookout Heritage Protection Act to 
ensure the permanent preservation of this important resource. We stand 
ready to support you in this effort. Page 2 Green Mountain Lookout 
Heritage Protection Act HR 908/S.404July 8, 2013 Thank you for your 
efforts to preserve America's wilderness.
            Sincerely,
                                        Michael K. McGlenn,
                                               Past Chairman, BCHA.
                                 ______
                                 
         Statement of Andy Hafen, Mayor, City of Henderson, NV
Summary Overview
    The Three Kids Mine legislation is essential to the implementation 
of an innovative public/private partnership that the City and its 
Redevelopment Agency have pursued to resolve a longstanding blight in 
our community, namely, environmental contamination and public safety 
hazards associated with the abandoned Three Kids Mine.
    Henderson is located just south of the City of Las Vegas. From its 
origins as the townsite adjacent to a World War II-era federal 
magnesium production plant, Henderson has grown since its 1953 
incorporation to become the second largest city in Nevada, with over 
270,000 residents and encompassing over 100 square miles of land. 
Henderson has been nationally recognized for the quality of life 
oiTered to its residents as well as its favorable business climate. We 
are proud of our progressive approach to careful planning and 
sustainable development as well as our demonstrated commitment to the 
environment.
    The proposed remediation and redevelopment site consists of 
approximately 1,262 acres of Federal and private lands within the City. 
The Three Kids Mine was owned and operated by various parties, 
including the United States, as an open pit manganese mine and milling 
operation from approximately 1917 through 1961. The site also was used 
to store Federal manganese ore reserves until 2003. In the half century 
since mining operations ceased, residential development has occurred 
next to the site. The site today contains unstable open pits as deep as 
400 feet, large volumes of mine overburden and tailings, and mill 
facility foundations. Contaminants of concern include arsenic, lead and 
petroleum compounds.
    S. 343 would require the Secretary of the Interior to convey the 
948 acres ofFederallands at the overall 1,262-acre project site to the 
Henderson Redevelopment Agency or the responsible party designated by 
the Henderson Redevelopment Agency to complete assessment, remediation, 
reclamation and redevelopment of the Three Kids Mine Project Site. Fair 
market value would take into account the costs of investigating and 
cleaning up the entire mine and mill site, which includes 314 acres of 
now-private lands that were used historically in mine operations. Such 
costs would be calculated only after a comprehensive site assessment, 
and using nationally recognized remediation cost estimating 
methodologies. Finally, before the Federal lands are conveyed, the 
State must execute a comprehensive Mine Remediation and Reclamation 
Agreement with a private sector entity under which the cleanup of the 
entire site will occur. The enforceable agreement must include 
financial assurances to ensure timely performance and completion of the 
cleanup project. At this time, the City has an agreement in force with 
Lakemoor Development, known as the Master Development Planning 
Agreement that was executed on August 3, 2011.
    Reclaiming the Three Kids Mine site will require the management of 
at least 12 million cubic yards of mine residue. The proposed 
``Presumptive Cleanup Remedy'' is to use the existing onsite mine pits 
as permanent repositories for the mine residue, but only after site 
characterization, detailed engineering, and in accordance with a step-
by-step work plan that will be implemented pursuant to the required 
Mine Remediation and Reclamation Agreement. Complete, permanent, and 
protective cleanup of the site is a high priority for the Nevada 
Division of Environmental Protection as well as for the City and its 
residents. It is time to remove this blight from our community and it 
is for this primary reason that the City is engaged in this effort.
    There are two important aspects of this planned remediation project 
to be highlighted. First, the estimated 350 million dollar cleanup will 
be ilnanced with private capital and Nevada tax increment financing at 
no cost to the Federal Government. The Nevada Community Redevelopment 
Law allows the Henderson Redevelopment Agency to ilnance the cleanup of 
blight conditions such as an abandoned mine through use of an 
``increment'' of property taxes collected within a designated 
redevelopment area over a 30-year ``capture period.'' The ``increment'' 
is a portion of the assessed value of the property which increases in 
value following cleanup and as the subsequent commercial and 
residential redevelopment build-out occurs. Henderson annexed the Three 
Kids Mine site and placed it in the Lakemoor Canyon Redevelopment Area 
in 2009. The use of tax increment financing available through the 
Henderson Redevelopment Agency is critical to the long-term success of 
this project.
    Second, only through the assemblage of the 948 acres of Federal 
lands with the 314 acres of private lands can a cost effective and 
comprehensive cleanup be achieved. As the large pits suitable for use 
as mine residue repositories are located on the private lands, cleanup 
of the Federal lands without having the pits available as on-site mine 
residue repositories would require cost-prohibitive excavation, 
transportation and off site residue disposal at a permitted landfill. 
Cleanup solely of the private lands also is not a viable option because 
limiting the redevelopment area to only 314 acres would not generate 
sufficient tax increment to render cleanup and redevelopment 
economically feasible. In addition, it would be inappropriate for the 
City to authorize residential and commercial development on what 
effectively would be an ``island'' of property immediately abutting 
unremediated environmental and public safety hazards.
    In summary closing, enactment of S. 343 is essential for the City 
and its Redevelopment Agency to move ahead on this unique public/
private partnership strategy to clean up the Three Kids Mine site. For 
over four years, the City of Henderson has worked closely with 
stakeholders including the Department of the Interior and the Nevada 
Division of Environmental Protection to advance this project. While 
much work remains ahead, we are confident that the Three Kids Mine site 
can be successfully reclaimed through this program, ultimately 
resulting in the resolution of a longstanding environmental problem. We 
are working with the author to make some minor changes to clarify that 
the responsible party will be a private sector entity designated by the 
Henderson Redevelopment Agency to complete assessment, remediation, 
reclamation and redevelopment of the Three Kids Mine Project Site.
Policy Rationale for Adjustment of Fair Market Value
    The policy rationale behind the provision of the bill which would 
obligate the Secretary of the Interior to administratively adjust the 
fair market value of the 948 acres of Federal land proposed for 
conveyance based on a reasonable approximate estimation of the costs to 
investigate and remediate both the Federal land and the 314 acres of 
private land included in the overa11 1,262-acre project site.
    Manganese is essential to iron and steel production and during the 
1940s and 1950s, the Three Kids Mine was one of the primary domestic 
sources of manganese in the United States. Historical documents 
gathered from the National Archives indicate that the United States was 
integrally involved in mining and milling operations at the Three Kids 
Mine site during this period. In addition, the United States leased 
portions of the private land at the site until 2003 for the storage of 
Federal stockpiles of manganese.
    In 1942, the Defense Plant Corporation (DPC), a federal 
instrumentality, acquired from Manganese Ore Company surface rights to 
approximately 446 acres at the site, including most of the now-private 
land, for the development of an ore processing mill and related 
facilities. The DPC contracted with Manganese Ore Company to construct 
the mill. Title to the plant site and mill facilities was vested in the 
DPC.
    The DPC leased the plant site and mill facilities to another 
federal instrumentality, the Metals Reserve Company (MRC), which in 
turn entered into contracts with Manganese Ore Company for the 
procurement of crude ore, the operation of the mill, and the purchase 
of manganese nodule output for national defense purposes. The DPC and 
MRC contracts vested the Federal government with rights to approve all 
significant aspects of the construction and operation of the mine and 
mill, which included the use of large tailings ponds that today contain 
several million cubic yards of contaminated waste material up to sixty 
feet in depth.
    The WWII-era mill was deactivated in 1944, although Federal ore 
stockpiles remained at the site. The DPC interests transferred Erst to 
the War Assets Administration, which tried unsuccessfully to sell the 
mine facilities, and then to the General Services Administration. In 
the early 1950s, the mill was updated and the mine and mill were 
reactivated by Manganese, Inc. under contracts with the GSA. In 1955, 
Manganese, Inc. purchased the real property at the Site that had been 
under Federal ownership. Manganese, Inc. continued to mine and 
benef1ciate ore for the United States under the GSA contracts until 
closure of the mine and mill in 1961. In addition, until 2003 private 
land at the site was leased to the GSA and, later, the Defense 
Logistics Agency, for the storage of processed manganese nodules under 
the Federal strategic materials stockpile program. These mining, 
milling, stockpiling, and associated activities resulted in extensive 
environmental contamination of the project site, including most of the 
now-private land and substantial portions of the Federal land.
    In light of the extensive involvement of the United States in 
historical mine and mill operations on both the Federal and private 
lands at the site, Henderson believes it only appropriate for the 
estimated costs of cleaning up the entire site to be addressed by the 
Secretary of the Interior in administratively adjusting the fair market 
value of the 948 acres of Federal land as would be required under S. 
343. It is the assemblage of the Federal land with the private land as 
facilitated by the legislation that makes remediation of the entire 
site feasible and economically practicable.
                                 ______
                                 
Statement of Roger Natsuhara, Assistant Secretary of the Navy (Energy, 
            Installations & Environment) Department of Navy
    I write today to request that you introduce the Administration's 
legislative withdrawal proposal, which includes reauthorization of two 
existing Department of the Navy military land withdrawals, Chocolate 
Mountains Aerial Gunnery Range (CMAGR) and Naval Air Weapons Station, 
China Lake (NAWSCL), both of which are in California and will expire on 
October 31, 2014; and a withdrawal proposal to expand the training 
capacity and capability ofthe Marine Corps Air Ground Combat Center at 
Twentynine Palms, California.
    These withdrawals are critical to national defense. CMAGR is the 
Marine Corps preeminent aerial bombing range and their only aviation 
range capable of supporting precision guided munitions. It is also 
where Navy Special Warfare units complete their final complex pre-
deployment training. NAWSCL is the Navy's premier weapons test and 
evaluation center. The expansion of Twentynine Palms is necessary to 
address a critical and documented training and readiness shortfall. 
Although Twentynine Palms has served the Marine Corps well since the 
1940s, lack of sufficient training space inhibits us from properly 
training Marine Expeditionary Brigades, the Marine Corps' preeminent 
21st Century fighting force. Successful training ofthis highly 
specialized and complex war fighting unit of 15,000 Marines requires 
air-ground training on land dedicated to exclusive military use that 
allows for simultaneous air and ground live-fire.
    Under existing law, only Congress can withdraw public lands, 
exceeding 5,000 acres, from the public domain for defense purposes. The 
Administration's legislative proposal to extend the CMAGR and NAWSCL 
land withdrawals and to withdraw Department of Interior (Dol) lands in 
Johnson Valley to expand Twentynine Palms, was included in the 
Administration's Fiscal Year 2014 National Defense Authorization Act 
legislative proposal and is the joint product of a Department of 
Defense and Dol agreement after a more than two year collaborative 
process. Failure to withdraw these lands would materially affect 
military readiness.
    I look forward to working with you and your staff in pursuit of 
this important legislation. I pledge the full support of my staff 
should you need any information or assistance as this legislation is 
considered. Thank you for your continued support.
                                 ______
                                 
                            Montana Wilderness Association,
                                        Helena, MT, August 1, 2013.
Hon. Ron Wyden,
Chairman, U.S. Senate Committee on Energy & Natural Resources, 304 
        Dirksen Senate Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, U.S. Senate Committee on Energy & Natural Resources, 
        304 Dirksen Senate Building, Washington, DC.
    Dear Chairman Wyden and Ranking Member Murkowski,

    On behalf of the Montana Wilderness Association, and our more than 
5000 members, thank you for the opportunity to submit this written 
testimony in support of S. 364, the Rocky Mountain Front Heritage Act. 
I also want to express my deep gratitude to Senator Baucus for 
sponsoring the Heritage Act. For the record, the Montana Wilderness 
Association strongly and enthusiastically supports the Heritage Act.
About the Montana Wilderness Association
    The mission of the Montana Wilderness Association is to protect 
Montana's wilderness heritage, quiet beauty, and outdoor traditions, 
now and for future generations. Founded 53 years ago by Montana 
hunters, conservationists and small business owners, The Montana 
Wilderness Association was established to prevent further loss of 
Montana's wilderness heritage. Our founders were instrumental in the 
passage of the Wilderness Act of 1964, and the Montana Wilderness 
Association subsequently led the fight to win designation for virtually 
every wilderness area in the state, including the Scapegoat, Absaroka-
Beartooth, Rattlesnake, Lee Metcalf, Great Bear, and Welcome Creek, as 
well as Wild and Scenic designations for the Flathead and Missouri 
rivers.
    Our members view Montana's remaining wild country as a public trust 
that should be managed so Montanans will always have access to great 
hunting, fishing, camping under the stars, and quiet mountain trails.
The Rocky Mountain Front
    Known as the place in Montana where the Great Plains meet the Rocky 
Mountains and where grizzly bears still venture out onto their native 
prairie habitat, the Rocky Mountain Front is a wild and rugged land 
that provides clean water for nearby communities and habitat for prized 
big game animals such as elk and bighorn sheep. By providing some of 
the highest quality backcountry experiences and opportunities for 
solitude, the Rocky Mountain Front supports a way of life for many 
Montanans. Whether it be hunting, fishing, camping, hiking, or just 
watching wildlife, the Rocky Mountain Front holds the essence of that 
what defines Montana. To put it simply, Montana would not be Montana 
without the Rocky Mountain Front.
    The backcountry recreation opportunities provided by the Rocky 
Mountain Front also have a significant economic impact on local 
communities. According to data collected by Montana Fish Wildlife and 
Parks over the past five years, sportsmen have been spending $10 
million each year as they hunt along the Rocky Mountain Front. It is 
the local hotels, restaurants, taverns, grocery stores, and gas 
stations that feel the benefits of this $10 million pulse of economic 
activity. Protecting the Rocky Mountain Front so backcountry recreation 
opportunities remain tomorrow as they do today will ensure the economic 
impact of the Rocky Mountain Front is sustained and local communities 
benefit well into the future. Protecting the Rocky Mountain Front will 
maintain a lifestyle and quality of life that attracts people to 
Montana's communities to establish new businesses and raise families as 
well as contribute to the current and future economic.
The Rocky Mountain Front Heritage Act
    Often referred to as a ``made in Montana'' solution, the Heritage 
Act is the result of a five-year effort aimed at protecting the wild 
backcountry of the Rocky Mountain Front while ensuring livestock 
grazing opportunities and maintaining access for hunting, fishing, 
horseback riding, hiking, and camping. This effort required eight 
public meetings, countless kitchen table discussions, and small group 
meetings with local permittees, elected officials, and landowners. This 
locally driven collaborative effort resulted in many substantive 
changes being made to the Heritage Act. These changes to the Heritage 
Act ensure there is a place for a variety of uses and activities on the 
Rocky Mountain Front while still protecting the wild backcountry that 
makes the Front such a special place for both people and wildlife.
    The Heritage Act protects a substantial portion for the Rocky 
Mountain Front by designating approximately 67,112 acres of Lewis and 
Clark National Forest as additions to the Bob Marshall and Scapegoat 
Wilderness areas. In addition, the Heritage Act designates 208,160 
acres of Lewis and Clark National Forest and Bureau of Land Management 
lands as a Conservation Management Area. In this Conservation 
Management Area, The Heritage Act limits the construction of new roads 
while ensuring the public use of current motorized routes, which 
provide public access for hunting, fishing, biking, and grazing. These 
routes are also used to achieve vegetation management objectives such 
as thinning, post and pole, and firewood gathering.
    The Heritage Act also prioritizes the eradication and prevention of 
noxious weeds on approximately 405,272 acres of U.S. Forest Service and 
Bureau of Land Management lands along the Rocky Mountain Front. 
Prioritizing noxious weed eradication and prevention on public lands 
along the Rocky Mountain Front will help to protect adjacent private 
ranchlands and ensure important wildlife habitats remain intact.
    Through the designation of wilderness additions to the Bob Marshall 
and Scapegoat Wilderness Areas, the designation of a Conservation 
Management Area on U.S. Forest Service and Bureau of Land Management 
lands, and the prioritizing of the eradication and prevention of 
noxious weeds, the Heritage Act will maintain the wild backcountry and 
wildlife habitats that make the Rocky Mountain Front such a wild and 
special place to Montanans.
Conclusion
    The Rocky Mountain Front Heritage Act is a shining example of how 
Montanans can put their differences aside and work together to preserve 
our state's wild backcountry while meeting the needs of local 
communities. The Montana Wilderness Association strongly and 
enthusiastically supports S. 364, the Rocky Mountain Front Heritage 
Act, and the permanent protections it provides. We urge the Committee 
to approve the bill and send it to the floor for consideration by the 
Senate.
    Sincerely,
                                 ______
                                 
      Statement of Martin Nie, Professor, College of Forestry and 
            Conservation, University of Montana, on S. 1470
    I was asked by Senator Tester to provide written testimony on S. 
1470. I want to thank the Senator, and the Subcommittee on Public Lands 
and Forests, for the opportunity to do so. I am a professor of natural 
resource policy in the College of Forestry and Conservation at the 
University of Montana. The following testimony draws from my research 
on the problems and opportunities presented by ``place-based'' National 
Forest law. I write to neither support or oppose the Forest Jobs and 
Recreation Act (FJRA) as currently written. Instead, I ask a number of 
questions that deserve serious consideration by the Committee.
    There is increasing interest in ``place-based,'' or national 
forest-specific legislation. In several places divergent interests are 
negotiating how they would like particular forests to be managed. These 
proposals often include provisions related to wilderness designation, 
economic development, forest restoration, and funding mechanisms, among 
others. But unlike more typical collaborative efforts, some groups are 
interested in possibly codifying the resulting agreements.
    While S. 1470 has garnered national interest, there are place-based 
initiatives happening on other National Forests, including the Lewis 
and Clark, Colville, Clearwater and Nez Perce, Fremont-Winema, Tongass, 
and federal forests in Arizona, among others. Each initiative is 
different in significant ways. But all are searching for more durable, 
bottom-up, and pro-active solutions to National Forest management. Some 
negotiations, like that on Idaho's Clearwater and Nez Perce, may result 
in proposed legislation. But others, including arrangements on the 
Colville and Fremont-Winema, are not based on forest specific laws but 
instead operate through formalized agreements and protocols with the 
U.S. Forest Service. This bigger picture is important and I hope the 
Committee considers the possible impact of S.1470 on these other 
initiatives.
    S. 1470 is a bold and constructive response to a dysfunctional 
status quo. It advances the debate over National Forest management in 
significant ways, by forcing us to address several intractable system-
wide problems. Nonetheless, the legislated approach to National Forest 
management is a significant departure from the status quo and it raises 
several significant questions. Laid out below are some of the most 
important. They go beyond S. 1470, with the assumption that if enacted, 
similar place-based forest laws are forthcoming.
          1. Would a proliferation of place-based forest laws disunify 
        the relatively consistent mission and mandate of the USFS?

    If replicated more broadly, the place-based approach to forest 
management could further disaggregate the National Forest system. Law-
by-law, the National Forests could be governed by forest-specific 
mandates, not unlike the unit-specific enabling laws governing the 
National Parks and National Wildlife Refuges. A relatively consistent 
mission and mandate applicable to the National Forests would be 
replaced by more site-specific prescriptive laws detailing how 
particular forests must be managed. This might be good for some 
forests, but what effect would it have on the National Forest System?

          2. Will the FJRA conflict with preexisting Forest Service 
        mandates, environmental laws, and planning requirements?

    Forest-specific laws already codified, like the Tongass Timber 
Reform Act and the Herger-Feinstein (Quincy Library) Act, have 
engendered more conflict than consensus partly because of how these 
laws sometimes fail to fit into the preexisting legal and planning 
framework. In these and other cases the USFS is forced to walk a 
statutory minefield with legal grenades thrown from all directions. One 
way or another, the agency gets sued for either complying with existing 
environmental laws or for ostensibly subordinating the new place-based 
one. These cases show that the answer to forest management might not be 
another law placed on top of myriad others but rather an untangling or 
clarification of the existing legal framework.
    NEPA is one big unanswered question in S. 1470. The bill requires 
the USFS to satisfy its NEPA duties within one year. But without 
additional support it is hard to fathom the agency meeting this 
deadline, given that it takes the USFS about three years to complete an 
EIS. When it comes to meeting NEPA obligations, the USFS needs more 
funding, leadership, and institutional support, not more law.

          3. Can the FJRA be successfully implemented and how will it 
        be paid for?

    One purpose of S. 1470 is to generate a more predictable flow of 
wood products for local mills, thus the bill's timber harvest mandate. 
The probability of achieving community stability through forest 
management has been debated ad nauseum. Alas, most agree that there are 
simply too many uncontrollable impediments to achieving this objective, 
like fluctuating housing starts, cheap Canadian imports, vacillating 
court decisions, swings in agency budgets, and so on. Nonetheless, S. 
1470 is to be admired for its focus on sustainable forests and 
communities, and for understanding the benefits of having a functional 
timber industry in Montana.
    Before proceeding with a controversial legislated harvest mandate, 
lawmakers should consider some alternative ways to achieve greater 
predictability. This includes an innovative effort on the Colville 
National Forest to provide a steadier, sustainable, and less contested 
stream of timber for local mills, with accompanying restoration 
objectives. In this case, a collaborative group works with the agency 
to achieve its objectives via formalized agreement and a mutually 
agreed upon decision making protocol.
    S. 1470 would be primarily implemented and paid for by using 
stewardship contracting. This tool's popularity stems partially from 
the highly uncertain congressional appropriations process, a process 
that chronically underfunds the USFS and its non-fire related 
responsibilities and needed restoration work. But on the Beaverhead-
Deerlodge National Forest, there are serious questions as to whether 
there is enough economic value in this lodgepole pine-dominant forest 
to pay for the restoration work. As a safety valve, S. 1470 authorizes 
spending additional money to meet its purposes, but there is no 
guarantee that such funds will be appropriated, or if so, they would 
not come from another part of the agency's budget.
    The question, then, is what happens if such envisioned funds don't 
materialize? Will money be siphoned from other National Forests in 
order to satisfy the mandates of S. 1470? Consider, for example, the 
White Mountain stewardship project in Arizona. The Government 
Accountability Office (GAO) found that this project incurred greater 
costs than expected and such costs have ``taken a substantial toll on 
the forest's other programs.'' Furthermore, some other fuel reduction 
projects were not completed because their funding sources were being 
``monopolized'' by the White Mountain project. Other National Forests 
in the region also paid a price to service the terms of this contract, 
and ``[a]s the region has redirected funds toward the White Mountain 
project, these other forests have become resentful of the 
disproportionate amount of funding the project has received.''
    Several other budget related questions are raised by the possible 
replication of place-based forest laws. For example, might the approach 
move the National Forests closer to a National Park Service model, 
where congressional delegations exercise increased control over a unit 
via Committee and purse strings? Will senior congressional delegations 
be more successful in securing funding for place-based laws in their 
states? Will it create a system of ``haves'' and ``have nots'' in the 
National Forest system? And perhaps most important, would these 
budgetary situations benefit the National Forest system as-a-whole?

          4. What precedent will be set if the RJVA is enacted?

    There is a remarkable amount of interest in S. 1470. This is partly 
because of the precedent the bill would set by legislating management 
of particular National Forests, including a legislated timber supply 
requirement. The place-based initiatives referenced above could be 
impacted by S. 1470. If the bill passes in its current form, more 
groups will seek place-based forest laws in the future, and some of 
those proposals would undoubtedly contain some type of a legislated 
timber supply mandate. Thus, the FJRA has national implications, and 
for this reason it should be scrutinized carefully.
    Congress has a history of deferring to state congressional 
delegations in wilderness politics. So, for example, if one delegation 
defers to Montana's in passing S.1470, Montana's delegation will be 
asked to play by the same rules when a different wilderness bill is 
being considered. And recent history shows that those proposals may not 
be carefully crafted or in the national interest. Potential for abuse 
is even more acute if individual forest bills contain special 
privileges and exemptions that are not available elsewhere. In this 
regard, subsequent efforts in codifying place-based agreements could 
have a dangerous snowball effect.
    Also legitimate is the fear that if passed, S. 1470 creates a 
precedent and possible expectation that future wilderness bills must be 
packaged with economic development provisions (among other 
nonconforming uses within wilderness areas) if they are to be 
politically feasible. And special provisions are often replicated in 
wilderness law. Once used, provisions related to such matters as water 
rights and buffer areas are regularly stamped onto future wilderness 
bills as a matter of course.
    To be sure, compromise is inherent in the Wilderness Act, and all 
sorts of special exemptions and political deals are written into 
wilderness laws with some regularity. But trading wilderness for a 
timber harvest mandate is a different beast altogether. The real 
question here is not whether it is reasonable to require two National 
Forests to mechanically treat 100,000 acres over the next ten years; 
but rather what those numbers will look like in other states if all of 
a sudden harvest mandates are politically palatable.

          5. Why not experiment in more serious fashion?

    S. 1470 includes a vague reference to ``adaptive management,'' and 
thus an implicit acknowledgement that there are uncertainties inherent 
in the bill. In this vein, the bill sets up a monitoring program 
whereby the USFS will report to Congress on the progress made in (1) 
meeting the bill's timber supply mandate, (2) the cost-effectiveness of 
the restoration projects, and (3) whether or not the legislation has 
reduced conflict as measured by administrative appeals and litigation. 
Not included on the list are specific ecological (non-timber related) 
monitoring requirements.
    This is a good start. But given the importance of S. 1470, and the 
impact it could have on other place-based proposals, why not approach 
matters in a more deliberately experimental fashion? This could be 
accomplished in different ways but the principles would be the same: 
proceed cautiously, try different approaches in different places, 
carefully monitor the results, and go from there. These experiments 
could be housed within a more structured experimental framework, with 
appropriate legal sideboards and oversight, such as that provided by 
the recently enacted Collaborative Forest Landscape Restoration 
Program. Such a legislatively-created framework is one way of ensuring 
that future place-based proposals do not become used as a backdoor way 
of undermining environmental law and devolving federal lands to self-
selected stakeholders.
    If such a framework is not used, I recommend making the purpose of 
experimentation more central to S. 1470. This could be done by 
strengthening the bill's monitoring and evaluation requirements, to 
include other ecological and policy/process considerations. Ecological 
monitoring requirements should be mandated.
    Changes should also be made to S.1470 to ensure that its ecological 
restoration goals are achieved in tandem with its harvest mandate. I 
propose a reciprocal or staged stewardship contracting approach whereby 
future timber projects cannot proceed until certain restoration 
objectives are met; and once met, future timber is released in a sort 
of tit-for-tat sequence. This approach will alleviate widespread 
concerns that restoration will take a back seat to the bill's more 
clearly articulated timber supply mandate.
    Another possibility is to carve out some space in the bill to 
experiment with different ways of improving the forest planning and 
NEPA process. Why not try different approaches to its implementation 
and learn lessons from that experience? In doing so, S.1470 could teach 
valuable lessons that might be tried elsewhere, and the USFS could be 
brought into the process as partners, rather than subjects.
    With a more deliberately experimental design, S. 1470 could inform 
a larger system-wide look at National Forest law and management. All 
sorts of ways in which to reform National Forest management have been 
proposed in the past, and most of those proposals focus on systemic 
measures imposed on all forests from the top-down. Rarer are proposals 
seeking to learn lessons from the bottom-up, and S. 1470 offers such an 
opportunity. So do the other place-based initiatives referenced above. 
All of these efforts are admirable in their goals to secure broader-
based solutions and conservation strategies. It is my hope that 
lawmakers and others carefully study these place-based initiatives as 
part of a more structured and comprehensive review of National Forest 
law and management.
                                 ______
                                 
   Statement of Thomas J. Cassidy Jr., Vice President for Government 
     Relations and Policy, National Trust for Historic Preservation
    On behalf of our 700,000 members and supporters we respectfully 
urge the Committee to support S.404, the Green Mountain Lookout 
Heritage Protection Act. The legislation is necessary to keep a 
historically significant fire lookout in the Glacier Peak Wilderness 
Area of Washington state in light of a court ordering that it be 
removed at taxpayer expense.
    The Green Mountain Lookout was built by the Civilian Conservation 
Corps in 1933 at the top of Green Mountain in the North Cascade 
mountains of Washington state. It served as an integral part of the 
region's fire detection system until the mid-1980s and as a U.S. Army 
aircraft warning site during World War II. Today, it is managed by the 
U.S. Forest Service as an asset of the Mt. Baker-Snoqualmie National 
Forest. In 1984 the Green Mountain Lookout was incorporated within the 
boundaries of the Glacier Peak Wilderness Area. The structure was 
listed on the National Register of Historic Places in 1987 and has been 
rehabilitated in recent years by the Forest Service with the diligent 
help of local volunteers and a $50,000 federal grant from the Save 
America's Treasures Program.
    Subsequently, the Forest Service utilized federal funds as well as 
thousands of hours of volunteer labor in efforts to stabilize the 
Lookout. After the work was completed, however, the agency was sued for 
the purported impositions to wilderness values that occurred in the 
course of its work to preserve the historic structure. Last year, a 
federal court ordered the Forest Service to devise a plan to address 
what it found to be illegal repairs to the structure. On May 2, 2013 
the agency published a Notice of Intent to prepare an Environmental 
Impact Statement that only analyzes options that will remove the 
lookout from its historic location. Thus, if the lookout is to be 
saved, Congress must act.
    Prompt action on this bill will ensure the continued operation and 
maintenance of the Green Mountain Lookout in the Glacier Peak 
Wilderness Area; without action, the lookout will be removed or 
destroyed, and a local wilderness treasure will be lost. S. 404, the 
Green Mountain Lookout Heritage Protection Act, is necessary not only 
to save an important piece of national history, but to save taxpayers 
the estimated $100,000 expense of moving the lookout to a location 
outside of the wilderness.
    We look forward to assisting you in any way on this issue.
                                 ______
                                 
                     The Rocky Mountain Front Heritage Act,
                                                    August 2, 2013.
Hon. Joe Manchin,
Chairman, Subcommittee on Public Lands, Forests and Mining, U.S. 
        Senate, Washington, DC.
    Dear Senator Manchin:
    On behalf of Montana's hunters, anglers, outfitters, and the 
businesses that rely on the hunting and fishing industry, we thank you 
for your keen interest in the Rocky Mountain Front Heritage Act 
(S.364). Montana's Rocky Mountain Front (the ``Front'') is a world-
class destination for hunting and fishing in a natural setting of 
unparalleled splendor. Flanking the public wildlands are large working 
ranches and family farms along with guest ranches; many of these 
properties have been passed down from generation to generation.
    The Rocky Mountain Front Heritage Act is broadly supported by 
hunters and anglers in the state. In fact, the total number of `hook 
and bullet' clubs, hunting guides, outdoor businesses and wildlife 
managers who support the Heritage Act makes up the largest category of 
endorsers. Together they represent thousands of Montanans who live, 
work, hunt/fish and recreate along the Rocky Mountain Front. These 
stakeholders emphatically support the RMFHA for the following reasons:

          The Heritage Act was Developed with Hunter and Angler Input
          The Rocky Mountain Front Heritage Act is a homegrown, 
        collaborative solution to keep the area like it is for future 
        generations by ensuring adequate access for both motorized and 
        non-motorized users and conserving backcountry lands. Hunters 
        and anglers have been directly involved in developing the bill.

          In fact, a recent letter from the Great Falls Chapter of 
        Safari Club International sums it up:

          ``We commend the collaborative efforts of the Coalition to 
        Protect the Rocky Mountain Front, bringing diverse interests to 
        the table, to discuss future management of our local area. This 
        is a true local `grassroots' project. The Great Falls Chapter 
        of Safari Club International offers our continued support to 
        projects and strategies that maintain and enhance fisheries and 
        wildlife populations and their habitats, while continuing our 
        hunting, fishing and recreating heritage in Montana.'' (Letter 
        on file, April 2013)

          Wilderness Lands Provide Valuable Hunting and Fishing 
        Opportunities. Hunting and fishing is permitted in wilderness 
        areas and the Heritage Act does not affect state jurisdiction 
        over fish and wildlife. As savvy hunters and anglers know, 
        wilderness areas protect important wildlife habitat, and 
        provide some of the country's best opportunities for hunting 
        and fishing.

          Further, because wilderness areas contain high-quality 
        habitat, there is much less need for habitat restoration in 
        wilderness. Although habitat restoration activities are 
        permissible within wilderness, consistent with the Wilderness 
        Act, these areas are much lower priority for restoration than 
        other, more degraded, public land habitats.

          Big Game Needs Secure Habitat

          First and foremost, the Front is a sportsmen's' paradise; the 
        landscape provides hunters and anglers the best that Montana 
        has to offer in terms of wildlife habitat and hunting and 
        angling opportunities. The RMFHA's designations of Wilderness 
        and Conservation Management Area along with the emphasis on 
        habitat protection through noxious weed control and eradication 
        are complimentary components of the bill. Together, these 
        provisions provide hunters and anglers a comprehensive 
        ``insurance policy'' that will help maintain healthy, huntable 
        wildlife and fish populations. There is a reason Montana has 
        one of the longest and most liberal big game hunting seasons in 
        the nation and habitat protection provided by the Heritage Act 
        is key to protecting Montana's hunting and fishing heritage and 
        keeping local economies in the region strong.

          Economic Contribution of Hunting on the Front:

          There are very few places left in the world where a hunter 
        can go after 10 big game species--the Rocky Mountain Front is 
        one of them. All this hunting opportunity adds up to a lot more 
        than full freezers and life-long memories, it also adds 
        significantly to local economies; to the tune of $10 million 
        that sportsmen and women spent on hunting trips to the Front in 
        2010.
          Along the Rocky Mountain Front, expenditures by hunters and 
        anglers have held steady through the most recent recession, 
        making these popular outdoor pursuits a rare bright spot when 
        compared to the struggles of the broader economy.

          According to Montana Fish, Wildlife, and Parks (MTFWP) data, 
        hunter expenditures along the Front, over a five year period 
        from 2006 to 2010, have held steady despite the broader 
        economic challenges facing other industries during the recent 
        recession.

          In real terms, during 2006, at the peak of the last business 
        cycle, sportsmen hunting along the Front spent $9.8 million; 
        growing to $10.4 million in 2008 in the middle of the 
        recession; and falling only slightly in 2010 to $10.1 million.

          These impressive numbers show that the high quality of the 
        hunting resources on the Rocky Mountain Front is known not only 
        to local residents but also to hunters from across the region 
        and the country. In 2010 alone, MTFWP measured more than 90,000 
        hunter days on its districts along the Front.

          According to MTFWP most hunters visit the Front for upland 
        game birds, deer, and elk while a smaller number of sportsmen 
        hunted antelope, big horn sheep, moose, and mountain goats. In 
        2010, sportsmen hunting upland game birds spent more than $4 
        million and those hunting deer and elk spent more than $5 
        million.

    Senator Manchin, support for the Rocky Mountain Front Heritage Act 
is strong in Montana because the bill will ensure that the Front that 
Montanan's cherish will stay like it is today for future sportsmen and 
women of Montana and the nation.

    Again, we thank you for your willingness to hear from hunters and 
anglers throughout Montana about the Rocky Mountain Front Act and we 
look forward to working with you to ensure the passage of this worthy 
bill. Please contact me should you have any questions.
            Sincerely,
                                 ______
                                 
Statement of Steve Moyer, Vice President for Government Affairs, Trout 
                   Unlimited, Arlington, VA, on S. 37
    On behalf of Trout Unlimited (TU) and its 145,000 members, I write 
in support of S. 37, the Forest Jobs and Recreation Act and S. 364, the 
Rocky Mountain Front Heritage Act, and thank you for scheduling a 
hearing to consider these bills. S. 37 will permanently protect nearly 
one million acres of Montana's spectacular backcountry and establish 
670,000 acres of Wilderness, the first new Wilderness designations in 
Montana in over twenty-five years. The management projects spurred by 
this bill will focus on restoration of degraded forest lands and 
reduction of overall road density and the legislation strives to 
protect the integrity of roadless areas while complying with all 
existing laws, policies, regulations, and forest plans. Further, 
projects enabled by S. 37 will create jobs in forest restoration, 
provide fiber for our timber partners in local mills, and benefit 
Montana communities by reducing hazardous fuels in the wildland-urban 
interface.
    More than 2,000 TU members live and work in communities around the 
national forest and BLM areas affected by S. 37, including Butte, 
Anaconda, Deer Lodge, Sheridan, Twin Bridges, Silver Star, Philipsburg, 
West Yellowstone, Cameron, Dillon, Ennis, Bozeman, Missoula, Drummond, 
Ovando, Bonner, Whitehall, Libby and Troy. Most members in these areas 
are long-time or native Montanans and they fish, hunt, hike, camp, 
drive, snowmobile, ski, ride horses, and collect firewood, berries and 
Christmas trees from these lands. A number have livelihoods directly 
tied to these lands, working as guides and outfitters, loggers, ranch 
hands, staffers in natural resource agencies or operators of small 
businesses.
    More than seven years ago, spurred by the recognition that National 
Forests in western Montana were not living up to their potential to 
support healthy fish and wildlife and provide jobs and recreational 
opportunities for local communities, TU and other local stakeholders 
came together to develop a shared vision for forest management. The 
resulting compromises provided the basis for an important part of S. 
37, which would protect fish and wildlife habitat through the 
designation of 670,000 acres of new Wilderness and more than 300,000 
acres of special management and national recreation areas, restore 
degraded habitat through the removal of old roads and blocked culverts, 
reduce the risk of wildfire through targeted fuel reduction projects, 
and create jobs for local communities through stewardship contracting. 
If implemented, the bill could yield significant benefits to fish and 
wildlife, water resources, and nearby communities.
    TU has a long record of working with farmers, ranchers, industries, 
and government agencies to protect and restore trout and salmon 
watersheds nationwide. Drawing on these cooperative experiences, we 
have worked to develop the solutions contained in S. 37 with a diverse 
group of stakeholders in Montana. Bruce Farling, Montana TU's Executive 
Director, has led TU's efforts on the Beaverhead-Deerlodge, and TU 
volunteer Tim Linehan has been a leader in the Kootenai initiative. The 
partners in the region have done courageous, outstanding work. TU 
strongly supports S. 37, we deeply appreciate the work of Senator 
Tester and his staff for introducing it, and we urge the Senate to 
support it.
Background on the Development of S. 37
    In an August 14, 2009 speech in Seattle, Agriculture Secretary Tom 
Vilsack stated that Americans must move away from polarization and 
``.work towards a shared vision-a vision that conserves our forests and 
the vital resources important to our survival while wisely respecting 
the need for a forest economy that creates jobs and vibrant rural 
communities.'' Through a collaborative grassroots effort dating back 
several years, a broad range of partners has done just that, and the 
resulting vision has provided the basis for the legislation introduced 
by Senator Tester.
    Prior to this collaborative process the forests were mired in 
stalemate that failed to protect and restore fish and wildlife. 
Wilderness has not been designated in the state of Montana in over 25 
years, despite the broad recognition of the need to protect quality 
fish and wildlife habitat and public support to do so. There are 
hundreds of impassible culverts on the forests that fragment trout 
habitat. Dense networks of obsolete roads restrict elk security and 
movement, and contribute heavy loads of sediment to streams.
    Due in part to these impacts, native salmonids, some of which are 
listed or candidates for listing under the Endangered Species Act, 
occupy but a small fraction of their historic range. Decades of fire 
suppression has produced homogenous even-aged stands of forests, which 
along with climate change and the pine bark beetle infestation increase 
the risk of unnaturally intense fire. The Forest Jobs and Recreation 
Act will enable the Forest Service to address these long-neglected 
needs.
    The Forest Jobs and Recreation Act results from three grassroots 
efforts in which TU in Montana was a principal in two efforts 
(Beaverhead-Deerlodge and Three Rivers) and a supporter in the third 
(Blackfoot-Clearwater). The bill is Montana-made, and it has generated 
unprecedented consensus among many Montanans of different stripes that 
validates the notion that collaboration is vital to developing long-
term popular support of public lands management.
The Fish and Wildlife Benefits of the Forest Jobs and Recreation Act
    Now more than ever, as changes in climate increase the challenges 
faced by forest managers and ecosystems, it is imperative that national 
forests are managed in ways that promote resiliency. By federally 
protecting the highest quality landscapes and then reconnecting them to 
adjacent areas through watershed restoration, S. 37 will help to 
maintain abundant fish and wildlife populations while providing 
multiple benefits to human communities through good paying jobs. This 
can be done through the following actions:

          1. Protect the highest quality lands and waters.

    The Forest Jobs and Recreation Act would protect as federal 
Wilderness 670,000 acres of undeveloped country in 25 areas, as well as 
create over 300,000 acres of special management and national recreation 
areas. By doing so, it will protect crucial sources of clean, cold 
water as well as essential habitats for wild and native trout in the 
headwaters of some of the nation's most storied trout waters, including 
Rock Creek and the Madison, Beaverhead, Ruby, Jefferson, Big Blackfoot, 
Clark Fork and Kootenai rivers. Protection of Wilderness and special 
management areas in the bill will also help secure habitats for Canada 
lynx, a listed species, as well as wolverines and mountain goats--all 
species that need undisturbed habitats. Finally, it will provide secure 
habitat in Montana's greatest elk hunting region.
    The protection of high quality habitat, along with the reconnection 
and restoration projects described below, will help secure populations 
of one ESA listed fish species, bull trout, and three additional fish 
species that are candidates for listing: westslope cutthroat trout, 
arctic grayling, and interior redband trout. All of these species now 
inhabit only a small portion of their historical ranges on the lands in 
the bill. The Wilderness and special area designations serve as 
critical sources for fish that are necessary for re-populating restored 
habitats downstream.

          2. Reconnect landscapes so that fish and wildlife can survive 
        habitat disturbances.

    Restoration projects will be focused on areas of high road density. 
Obsolete road networks in Montana forests cause habitat fragmentation 
that prevents fish from dispersing to intact habitats when faced with 
disturbances such as fire, drought or intense storms. The Forest Jobs 
and Recreation Act would address the problems caused by these road 
networks by (1) prohibiting the construction of new, permanent roads; 
and (2) requiring that road densities be reduced. (For example, in the 
Beaverhead-Deerlodge National Forest, the road standard is to leave 
post-project landscapes with a road density that averages no more than 
1.5 linear road mile per square-mile.) The scientifically based 
standard recommended by the Montana Department of Fish, Wildlife and 
Parks for elk security is no more than 1.5 linear miles of road per 
square-mile, which is the minimum needed to provide enough security for 
elk so that Montana can maintain its best-in-the-nation 5-week general 
big game hunting season. The Beaverhead-Deerlodge National Forest and 
the Seeley Lake Ranger District include some of the most productive 
lands anywhere in Montana for large, trophy elk. The road standards in 
S. 37 will also protect high quality habitat and improve wildlife 
security for a host of popular game and non-game species, including 
mule deer, black and grizzly bears and mountain goats.
    The road standards will also greatly benefit fish by reducing 
erosion-prone road surfaces and road crossing structures such as 
culverts that are currently harming habitat and impeding movement of 
fish into and out of important habitats. Recent agency surveys 
indicate, for example, that at least 240 road culverts on the 
Beaverhead-Deerlodge National Forest are currently complete or partial 
barriers to fish movement, and the frequency of road crossing barriers 
on the Seeley Lake and Three Rivers Districts are even more severe. The 
result is reduced habitat availability for species such as bull trout 
and cutthroat trout. The restoration projects enabled by this 
legislation will improve habitat connectivity by removing roads and 
replacing or removing blocked culverts.

          3. Engage communities in restoration.

    The Forest Jobs and Recreation Act directs the Forest Service to 
use stewardship contracting to meet vegetation management goals, which 
ensures that the value of trees removed is invested back onto the same 
landscape in habitat restoration, elimination of pollution sources, 
protection of key habitats from livestock, or suppression of weeds on 
winter ranges, as well as improvement of recreational features such as 
trails used by hunters, anglers and other recreationists.
    By focusing stewardship projects on previously developed landscapes 
with high densities of roads, the Forest Jobs and Recreation Act will 
help address impairments on landscapes that are prone to unnatural 
rates of erosion, and related effects such as exotic weed invasion, 
after fires. When large fires sweep through developed landscapes such 
as those on the Beaverhead-Deerlodge National Forest or the Three 
Rivers Ranger District, they significantly increase the risk of erosion 
from road systems after snowmelt or severe rainstorms, and subsequent 
colonization by exotic weeds. Similarly, post-fire storms can block 
road culverts with debris and mud, causing these structures to fail and 
resulting in channel scouring and large amounts of sediment entering 
into trout streams. Fire is a natural part of these forest systems. In 
fact, on undeveloped landscapes it can play a beneficial role, one that 
fish and wildlife have adapted to for eons. On densely roaded forests, 
the effects of fire can cause intense erosion, water quality 
degradation, and extirpation of local populations of fish and wildlife-
not to mention the risk to drinking water sources of nearby human 
communities.
TU Supports S. 364, the Rocky Mountain Front Heritage Act
    The Rocky Mountain Front is one of the most diverse and wildlife-
rich landscapes in the lower forty-eight, drawing hunters, anglers and 
recreationists from throughout the West, including many TU members. 
Outdoor recreation supported by public lands on the Rocky Mountain 
Front is a significant economic engine, with hunting trips alone 
contributing over $10 million to local communities in 2010.
    As with the Forest Jobs and Recreation Act, the Rocky Mountain 
Front Heritage Act is a homegrown, collaborative solution for conflicts 
in public land management. S. 364 will ensure adequate access for both 
motorized and non-motorized users, conserve backcountry lands through 
the designation of 67,000 acres of Wilderness, establish 208,000 acres 
as Conservation Management Areas, and address the ever-growing issue of 
noxious weeds that put both wildlife and ranches at risk. TU supports 
provisions in S.364 that will help to keep the Rocky Mountain Front 
like it is for future generations and we urge the Senate to pass the 
bill.
Conclusion
    The collaborative effort undertaken by local Montana groups is on 
the verge of overcoming years of controversy and delay to protect and 
restore Montana forests in ways that benefit fish and wildlife 
resources and local communities. There are challenges ahead, but S. 37 
represents a new way of doing business for the Forest Service, and we 
urge the committee to pass it.
    TU supports S. 37 and S. 364, and urges the Committee to approve 
the bills and to send them on to the floor for consideration by the 
Senate.
    Sincerely,

                                    

      

</pre></body></html>
